<html>
<title> - CCDBG REAUTHORIZATION: HELPING TO MEET THE CHILD CARE NEEDS OF AMERICAN FAMILIES</title>
<body><pre>[Senate Hearing 112-928]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-928
 
CCDBG REAUTHORIZATION: HELPING TO MEET THE CHILD CARE NEEDS OF AMERICAN 
                                FAMILIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

         EXAMINING THE CHILD CARE AND DEVELOPMENT BLOCK GRANT 
 REAUTHORIZATION, FOCUSING ON HELPING TO MEET THE CHILD CARE NEEDS OF 
                           AMERICAN FAMILIES

                               __________

                             JULY 26, 2012

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
 
                                 Pensions
                                 
                                 
                                 
                                 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               

                                 
                                 
                                 
                                 


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
      
      
                          U.S. GOVERNMENT PRINTING OFFICE
     93-803 PDF                     WASHINGTON : 2015                     
 _____________________________________________________________________________                           
     For sale by the Superintendent of Documents, U.S. Government Printing Office
   Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                          
      
      
      
 
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman
BARBARA A. MIKULSKI, Maryland            MICHAEL B. ENZI, Wyoming 
JEFF BINGAMAN, New Mexico                LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                 RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont             JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania       RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina             ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                     JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                    PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado              LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island         MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut

                          
                                       
              Pamela Smith, Staff Director, Chief Counsel
                 Lauren McFerran, Deputy Staff Director
              Frank Macchiarola, Republican Staff Director
                                 ------                                

                 Subcommittee on Children and Families

                BARBARA A. MIKULSKI, Maryland, Chairman
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         LAMAR ALEXANDER, Tennessee
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)            officio)
                    Jessica McNiece, Staff Director

                                  (ii)
                                  
                                  
                                  
                                  

  


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        THURSDAY, JULY 26, 2012

                                                                   Page

                           Committee Members

Mikulski, Hon. Barbara A., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     3
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico.     5
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    16
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    18
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................    19
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    33
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    45

                            Panel I--Witness

Smith, Linda K., Deputy Assistant Secretary and Inter-
  Departmental Liaison for Early Childhood Development, 
  Administration on Children and Families, Department of Health 
  and Human Services, Washington, DC.............................     5
    Prepared statement...........................................     8

                          Panel II--Witnesses

Grafwallner, Rolf, Ph.D., Assistant State Superintendent, 
  Division of Early Childhood Development, Maryland State 
  Department of Education, Baltimore, MD.........................    22
    Prepared statement...........................................    24
Acord, Philip, Executive Director, Children's Home, Chattanooga, 
  TN.............................................................    28
    Prepared statement...........................................    30
Singerman, Janet, President, Child Care Resources, Inc., 
  Charlotte, NC..................................................    33
    Prepared statement...........................................    35
Coro, Susana, Assistant Teacher, Falls Church-McLean Children's 
  Center, Falls Church, VA.......................................    41
    Prepared statement...........................................    43

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Casey................................................    52
    American Public Human Services Association (APHSA)...........    53
    Helen Blank, Director of Child Care and Early Learning, 
      National Women's Law Center................................    55
    Hannah Matthews, Director of Child Care and Early Education, 
      Center for Law and Social Policy (CLASP)...................    58
    Response by Linda K. Smith to questions of:
        Senator Murray...........................................    61
        Senator Sanders..........................................    63
        Senator Casey............................................    66

                                 (III)
    Response by Rolf Grafwallner, Ph.D., to questions of:
        Senator Murray...........................................    68
        Senator Sanders..........................................    69
        Senator Casey............................................    71
    Response by Phillip Acord to questions of:
        Senator Murray...........................................    72
        Senator Sanders..........................................    73
        Senator Casey............................................    74
    Response by Janet Singerman to questions of:
        Senator Murray...........................................    75
        Senator Sanders..........................................    81
        Senator Casey............................................    83
    Response by Susana Coro to questions of:
        Senator Murray...........................................    85
        Senator Sanders..........................................    86



  


CCDBG REAUTHORIZATION: HELPING TO MEET THE CHILD CARE NEEDS OF AMERICAN 
                                FAMILIES

                              ----------                              


                        THURSDAY, JULY 26, 2012

                                       U.S. Senate,
                    Subcommittee on Children and Families, 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SD-426, Dirksen Senate Office Building, Hon. Barbara 
Mikulski, chairman of the subcommittee, presiding.
    Present: Senators Mikulski, Burr, Murray, Bingaman, Hagan, 
Merkley, Franken, and Blumenthal.

                 Opening Statement of Senator Mikulski

    The Chairman. The Subcommittee on Children and Families 
will now come to order. I'm pleased to be able to convene this 
hearing, and it's the third in a series of hearings that we are 
holding on early childhood development, with the hope that we 
could reauthorize the Child Development Block Grant, something 
that has not been reauthorized since the 1990s.
    At our first hearing, we focused on the Federal return on 
investment in early childhood and what the benefits are to 
society as well as to the child. The second one was to focus on 
how to improve the health, safety, and quality of these CCDBG 
programs.
    At this final hearing, we're going to focus on how we can 
improve childcare without sacrificing the access to the 
program. With only so many dollars, where do we spend our money 
to really improve the quality of childcare programs and at the 
same time not shrink the number that we have.
    In our previous hearings, witnesses often mentioned a 
tension between access and quality. If we invest in one, 
sometimes they say it ends up at the expense of the other. 
Well, I think we need to rethink how we talk about it and what 
we do about it. We need to look at how we can encourage States 
to ensure that all CCDBG providers have some measure of 
quality, some concrete specific measures. That way, when you 
invest in access and expand childcare slots you're also 
ensuring quality.
    This subcommittee is working on a bipartisan basis and I 
thank Senator Burr and his very professional staff for their 
collegiality and the way we've really looked at the issues from 
the standpoint of our children, our families, and their budget 
and our budget, both of which are having some tight times. We 
are in this tough fiscal climate and we don't want to push 
families out of childcare.
    So we're going to ask our witnesses to give us their time, 
to give us recommendations with those two factors in mind. 
Childcare is something that all parents care about. Parents 
want childcare that is affordable and high quality. At the 
Federal level, we often expect far too little. Some have no 
expectation that childcare workers have pre-service training, 
no expectation that the facilities have regular inspections or 
those who work in them have background checks.
    Remember, we're talking about protecting vulnerable 
populations, often infants and toddlers who can't speak for 
themselves, and we must speak up and first protect them in that 
environment; second, we must ensure that they have a shot at 
learning opportunities. We want to promote healthy development, 
both cognitively, emotionally, and physically.
    CCDBG has not been reauthorized since 1996. The law often 
reflects old thinking, that childcare is primarily a work 
support program. Yes, that's one of the anchors. People turn to 
childcare because they work. But at the same time, it is an 
opportunity to help kids get learning ready or they're already 
learning; we need to be ready for the kids. We know that 80 
percent of the brain development occurs before age 3 and 90 
percent before age 5. More than half of the children that 
benefit from this block grant are from infants up to 5, meaning 
that they're in these facilities at the time when their 
learning ability is growing the most, at the fastest pace.
    So we need to use this, not as a problem to be solved, but 
as an opportunity to grasp and to nurture. That's why Senator 
Burr and I have been working with members of the subcommittee, 
particularly Senators Harkin and Enzi, to reauthorize the 
program and to involve all members. Two have been very active 
who are here now, Senators Franken and Bingaman, and I'm going 
to note Senator Bob Casey, one of the leading advocates. These 
three men and others on the other side of the aisle have been 
active in it.
    We want to increase participation. We want to promote 
better administration of the program. We want to ensure program 
integrity and accountability. But most of all, we want to 
improve the quality and coordination of this program.
    We don't have much time left in this Congress, but we hope 
we can find general agreement on this. And with members working 
on both sides of the bill, we hope that we can come to the 
ability to have a framework for reauthorization, take it to the 
committee, and take it to the Senate. It's one of these bills 
that I would hope would pass with unanimous consent, but I'm a 
dreamer, and I think dreams come true.
    Having said that, I'd like to turn to Senator Burr, who's 
been so active in this and has brought so many good ideas to 
the table. This is the characteristic here. We focus with 
collegiality, with civility, and presuming that we both have 
great ideas and working with everybody that we can get the job 
done.
    I also want to particularly note his very strong advocacy 
for protecting vulnerable populations, both here, in the Census 
program, and so on.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Chairman Mikulski, I thank you for your 
willingness to work with me and, more importantly, for your 
staff 's hard work and for their focus over the last year 
looking at what I think are commonsense changes that need to be 
made in the childcare development block grant. Had I known this 
was a dream, I might not have been on board.
    [Laughter.]
    But I think it will become a reality because of the input 
of many over the last year. It was a little over a year ago 
when we held the first hearings looking at critical changes 
that need to be made in CCDBG to boost quality for children and 
working parents. I'm heartened at the progress the HELP 
Committee is making in looking at these changes and we can 
finally reauthorize this important program and make it current 
with some of the realities on the ground.
    Madam Chairman, in our first committee hearing last year 
you pointed out that you wanted this subcommittee to be rich in 
policy and substance and to set a standard with CCDBG 
reauthorization. In our first year under your leadership with 
CCDBG reauthorization efforts, I can say you and your staff 
have done exactly that.
    While more work needs to be done, I believe we're on the 
right track to achieving a sensible bipartisan reauthorization. 
Again, I want to thank you and your staff for their work over 
the past year.
    In the past two hearings, a common question was raised in 
how we reauthorize CCDBG, how much quality can we ask for 
without dramatically reducing the number of children or slots 
for care. Through the helpful testimony of the past two 
hearings' witnesses and the feedback from the field, I believe 
there are basic upgrades we can make to this program that give 
us and parents peace of mind that when they drop their kids off 
and head off to their job their children are safe.
    Like most people, I'd like to ensure that every low-income 
parent who needs childcare in order to maintain work and be a 
productive member of society gets it. But as the waiting lists 
in many States, nearly 40,000 in my State of North Carolina, 
show, the demand is far outstripping our limited ability to 
supply care.
    Meanwhile, we know that nearly 1.7 million children 
currently receiving subsidies are not receiving quality care 
and in some cases are in conditions unbefitting a Federal 
taxpayer investment. Stories of children dying in locked vans, 
conditions in facilities that lack basic health and safety 
protections, are heartbreaking to me and to most.
    In this time of limited Federal resources, examples of this 
type of abuse of the public's and parents' trust that children 
are being well-served cry for this program to be reformed. As 
Linda Smith, who's here today--and some all around the world 
consider her to be an expert on this issue; I certainly do--
said during our first June 2011 subcommittee hearing:

          ``We can make basic low- and no-cost changes to this 
        program that will go a long way toward ensuring the 
        health, safety, and quality in the setting parents 
        leave their children.''

    I'm pleased that Janet Singerman of North Carolina's Child 
Care Resources is here today. North Carolina has been hard at 
work for years to improve the delivery of childcare, trending 
to better the workforce quality, access, health and safety 
standards, as well as a personal concern of mine, background 
checks for childcare workers. I encourage my colleagues to 
listen carefully to Ms. Singer-
man's testimony on how States can upgrade quality of services 
incrementally so as not to jeopardize the number of children 
served or slots.
    One area where I know we can force quality with minimal 
costs is the Child Care Protection Act, legislation which would 
require background checks for all childcare workers who receive 
Federal subsidies through CCDBG. This legislation, which I 
drafted and has the support of Senator Enzi, Chairman Mikulski, 
Senators Roberts, Kirk, and Bennet on this committee, and I 
think others, would go a long way to improving CCDBG overall.
    No one can deny the need for this change is necessary and 
immediate. In March of this year, Dateline brought their 
undercover cameras into a childcare facility receiving these 
Federal funds and uncovered settings where individuals caring 
for children in unsupervised settings had arrests in their 
background, including battery, domestic violence, and drug-
related charges, leaving children to someone's sometimes fatal 
chance. In North Carolina alone, we annually turn down 500 
individuals with criminal or sexual offenses in their 
background who have applied to work in childcare.
    We have a moral responsibility to fix these issues and to 
provide poor working parents with basic assurances that their 
children are not being cared for by convicted felons. In fact, 
21 States do not conduct fingerprint checks, 43 States do not 
conduct sexual offender registry checks, and 24 States do not 
conduct fingerprint checks for family childcare providers.
    For a federally funded program intended to protect 
children, this is unacceptable and it, frankly, must be 
changed. If I had my way--and I know the chair would agree--
this legislation would be law today so that parents throughout 
the country are sure that when they're using Federal dollars to 
find childcare the workers in those settings haven't committed 
heinous crimes, particularly against children, in their past.
    I'm hopeful that all of my colleagues will support this 
reasonable legislation as we move forward with the 
reauthorization. I'm certain of one thing: When Chris Hansen 
and the undercover Dateline cameras have spotlighted something 
policymakers have done, they're going to say that we've done 
our job, and this legislation will be a key ingredient to that, 
as well as the reauthorization.
    With that said, I look forward to today's testimony. Again, 
Madam Chairman, I thank you and your staff for their 
cooperation.
    The Chairman. Thank you very much, Senator Burr.
    Before I turn to Ms. Smith, Senator Bingaman, did you want 
to say something? You have such a long history of being an 
advocate in this area and I know as you are now summarizing 
this incredible career you've had, first of all, we want to 
thank you for your role here. Your legislative director, Dr. 
Trudy Vincent, is somebody who was on my staff in the nineties 
when we worked on this bill. We have a long association with 
you and your staff.
    But I think all of us, as we have this last hearing on this 
topic, really just want to thank you for your contribution and 
look forward to your engagement as we work on the bill. Would 
you like to say something?

                     Statement of Senator Bingaman

    Senator Bingaman. Well, thank you very much, Madam 
Chairman, and thank you for having the hearing. It's a very 
important issue. I look forward to learning from the witnesses 
whatever can be done, and I'm particularly interested in these 
low-cost and no-cost changes that might be made. I think, given 
our fiscal reality here in Washington, I think that's where a 
lot of the focus needs to be.
    Thank you.
    The Chairman. You're welcome.
    We'd now like to turn to Linda Smith, the Deputy Assistant 
Secretary and Inter-Departmental Liaison--wow--for Early 
Childhood Development, for the Administration on Children and 
Families. That sounds almost like you're a treaty negotiator 
between the bureaucracies.
    Ms. Smith has a long history of working in early childhood 
development both at DOD and also with the private non-profit 
organization, the Child Care Resource and Referral Agency. She 
kicked off our first hearing, and brought such great testimony. 
Today as we now look for some very concrete ideas, we look 
forward to hearing how the administration's principles can help 
us improve the quality of childcare without sacrificing access.
    Ms. Smith, a really cordial welcome to you once again and 
we look forward to hearing from you.

  STATEMENT OF LINDA K. SMITH, DEPUTY ASSISTANT SECRETARY AND 
  INTER-DEPARTMENTAL LIAISON FOR EARLY CHILDHOOD DEVELOPMENT, 
 ADMINISTRATION ON CHILDREN AND FAMILIES, DEPARTMENT OF HEALTH 
               AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Smith. Thank you, and I have to say that I've been 
teased about that title. People ask me if my cards are five by 
eight, and it needs to be.
    Chairwoman Mikulski, Ranking Member Burr, and members of 
the committee: I'm pleased to be back today to discuss 
reauthorization of the Child Care Development Block Grant, 
CCDBG. I now represent the Administration for Children and 
Families at the Department of Health and Human Services. We 
administer the CCDBG program. Reforming it is critical to our 
efforts to support low-income working families and to close the 
achievement gap of our Nation's poorest children.
    Over the last 3 years the administration has worked hard to 
ensure that more low-income children receive high-quality early 
care and education. We have partnered with the Department of 
Education to administer the Race to the Top Early Learning 
Challenge, which promotes nine States in developing new 
approaches to improving early learning programs.
    We also implemented the bipartisan reforms Congress called 
for in the Head Start Reauthorization Act to ensure taxpayer 
dollars go to programs that provide the best quality education 
to our poorest children.
    Reauthorization of CCDBG provides another opportunity to 
improve the early learning opportunities for millions of low-
income children in our childcare programs in all 50 States, the 
territories, and the tribal communities. Childcare is both an 
essential work support for parents and an early learning 
program for children. High quality childcare, as you know, is 
very expensive and many low-income families cannot afford it by 
themselves. Childcare subsidies provided through the CCDBG 
allow families to access care that they could not otherwise 
afford.
    Research shows that parents who receive subsidies are more 
likely to work, work more hours, maintain employment, and earn 
more. In addition, high quality care promotes a child's 
development and learning, helping to ensure that the next 
generation has skills necessary to compete in an increasingly 
global economy.
    Unfortunately, many children, particularly low-income 
children, have already fallen behind even before they reach 
kindergarten. Research has shown that disparities between low-
income children and their more advantaged peers start as early 
as 9 months, so that many low-income children enter school 
already behind. By promoting critical cognitive and social-
emotional skills, quality childcare can help close the gap.
    Recent findings from the National Institute of Child Health 
and Human Development demonstrates that the quality of 
childcare received by children in their preschool years has 
effects on their academic success well into adolescence.
    In 2010, the latest data we have available, CCDBG provided 
assistance to 1.7 million children. All of the children served 
are low-income and half are living at or below poverty. New 
research finds that families receiving childcare subsidies are 
able to access higher quality care compared to families without 
subsidies, but the quality of that care is still lower compared 
to Head Start and State pre-K programs.
    Although the children served by childcare subsidies and 
Head Start are demographically similar, Head Start children 
receive more support services and higher quality programs. In 
contrast, children receiving childcare subsidies may be in care 
that fails to meet even basic health and safety standards.
    Parents understandably assume that providers funded by 
Federal subsidies are safe. However, some States lack basic 
requirements, such as comprehensive background checks, training 
in basic first aid and CPR, and even safe sleep practices. And 
in only half of the States do parents have ready access to 
licensing and inspection information.
    On average, States spend nearly 12 percent of CCDBG funds 
each year in quality improvement efforts. They use these funds 
to build quality rating and improvement systems, develop higher 
standards, and to provide training to the workforce. These 
investments improve the care for millions of children, 
including those not directly subsidized by CCDBG.
    However, we currently fall far short in our efforts to 
provide stable support for both work and optimal child 
development. Families in many States churn off and on childcare 
assistance programs every few months, even when they remain 
eligible. This is because the burden of the redetermination 
process provides such barriers that they simply give up. This 
churning threatens the employment stability of parents and 
undermines child development by severing relationships with the 
child's caregivers.
    We have already taken steps within current authorities to 
address some of these concerns. A year ago we revised the State 
CCDBF plan, which serves as the application for the CCDBG funds 
for the States. We increased the focus on health and safety, 
program improvement, and workforce preparation. We asked States 
to set goals for improving their programs, and for the first 
time we are asking States to report their annual progress on 
achieving their goals. We are asking for key data about efforts 
to upgrade childcare monitoring. Finally, States will now have 
to report for the first time on the quality of care each child 
receiving subsidy is getting.
    But much still needs to be done. Current law does not 
reflect recent research on brain development in the early 
years, nor has it kept pace with current State practices. 
Reauthorization is an opportunity to build on State innovation, 
learn from the new research, and drive best practices. As such, 
we think that CCDBG reauthorization should be based on the five 
following key principles:

    No. 1, improving quality by establishing a foundation to 
ensure health and safety in childcare and a systemic framework 
through which States can improve quality, increasing the funds 
dedicated to quality and incorporating into statute existing 
quality set-asides now included in appropriations language, 
ensuring that quality funds are spent on evidence-based 
activities that improve quality, including health and safety 
standards, ensuring that States have effective monitoring 
systems and protocols to ensure that providers meet State 
regulatory requirements, and expanding education and training 
opportunities of the workforce;
    No. 2, supporting access. The combination of the end of the 
Recovery Act CCDBG funding and current State fiscal constraints 
have caused States to cut back on childcare assistance. We 
should work to counterbalance these pressures and maintain 
services to families while making quality improvements.
    No. 3, increasing transparency for parents about the health 
and safety records of providers and other key quality 
indicators.
    No. 4, promoting continuity of care, such as requiring 
longer eligibility determination periods for families receiving 
childcare subsidies.
    And No. 5, ensuring program integrity by providing more 
assistance to States to prevent fraud, waste, and abuse.

    In closing, let me emphasize that we are committed to 
better alignment of all early care and education programs. We 
have formed strong partnerships with the Department of 
Education, USDA, DOD, the Consumer Product Safety Commission, 
Maternal and Child Health, and other Federal agencies to reduce 
the barriers to more efficient and effective programs. Our 
overarching goal is to ensure that more low-income children 
have access to high quality care.
    States are strong partners in these efforts, with many 
States leading the way on improving health and safety and 
setting higher early learning standards. The diverse range of 
States engaged in these efforts, including those States 
represented on this subcommittee, demonstrate the bipartisan 
interest and support for improving the quality of care in order 
to keep our Nation's children safe, healthy, happy, and 
learning.
    I want to thank the subcommittee for its leadership on this 
issue and we look forward to working with you to achieve 
reauthorization. Thank you.
    [The prepared statement of Ms. Smith follows:]
                  Prepared Statement of Linda K. Smith
    Chairwoman Mikulski, Ranking Member Burr, and members of the 
subcommittee, I am pleased to appear at this hearing to discuss 
reauthorization of the Child Care and Development Block Grant (CCDBG) 
Act. It is my honor to serve as the Deputy Assistant Secretary and 
Inter-Departmental Liaison for Early Childhood Development at the 
Administration for Children and Families, U.S. Department of Health and 
Human Services, which administers the CCDBG. Prior to joining ACF, I 
worked for nearly 10 years as the executive director of the National 
Association of Child Care Resource and Referral Agencies (NACCRRA). I 
also spent a significant portion of my career at the Department of 
Defense helping to develop the military childcare system.
    Reforming the CCDBG Act is a critical part of our Nation's efforts 
to support low-income working families and to close the achievement gap 
by improving the early learning opportunities of children at risk of 
falling behind in school. Over the past 3 years, the Obama 
administration has worked to ensure that more low-income children 
receive high-quality early care and education. The Department of Health 
and Human Services (HHS) has partnered with the Department of Education 
to administer the Race to the Top Early Learning Challenge grant 
competition. This partnership is currently supporting nine States' 
efforts to transform their early learning and development programs from 
a patchwork of disconnected programs with uneven quality into 
coordinated State systems that prepare children for success in school 
and in life. At the same time, HHS has implemented the bipartisan 
reforms Congress called for in Head Start to direct taxpayer dollars to 
Head Start programs that provide the best available early education 
services to children in every community. Reauthorizing the CCDBG Act 
provides an opportunity to build upon these efforts by improving the 
early learning and afterschool opportunities for millions of low-
income children in all 50 States, U.S. territories, and hundreds of 
tribal communities.
    Because childcare is both an essential work support for parents and 
a critical early learning program for children, shoring up our 
investments in childcare will improve the lives of families and promote 
the economic success of our country. First, childcare allows millions 
of parents to go to work every day. As the Nation's economy continues 
to recover from the deepest recession in decades, it is critical for 
families to have access to quality care so that parents have the peace 
of mind to seek and retain employment that will fuel the recovery. But 
due to the high cost of care, many low-income families cannot afford to 
pay for childcare by themselves. Childcare subsidies allow these 
families to access care that they could not otherwise afford. Research 
shows that parents who receive subsidies to help them pay for childcare 
are more likely to work, work more hours, maintain employment, and earn 
more (Schaefer, Kreader, and Collins, 2006).
    Second, investing in childcare pays dividends because quality care 
promotes children's development and learning--helping to ensure that 
the next generation has the skills and abilities necessary to compete 
in an increasingly global economy. Unfortunately, many children, 
particularly low-income children, have already fallen behind even 
before kindergarten starts. Research has shown that disparities between 
low-income and more advantaged children start as early as at 9 months 
of age, so that low-income children enter school unprepared to learn 
and keep pace with their peers (Halle, et al., 2009). By promoting 
critical cognitive and social-emotional abilities, quality childcare 
can help close this school readiness and achievement gap. Recent 
findings from the National Institute of Child Health and Human 
Development (NICHD) find that the quality of childcare children receive 
in their preschool years has effects on their academic success and 
behavior all the way into adolescence (HHS National Institutes of 
Health, 2010). Programs with the highest quality of care have the 
largest positive impact later in life. For example, a recent followup 
study to the well-known Abecedarian Project, which began in 1972 and 
has followed participants from early childhood all the way through 
young adulthood, found that adults who participated in high quality 
early childhood education are still benefiting. Participants have 
significantly more years of education than peers and were four times 
more likely to earn college degrees. (Frank Porter Graham Child 
Development Institute, 2012). Similarly, for school-age children, 
research shows that participation in high quality afterschool programs 
is correlated with positive outcomes, including improved academic 
performance, study skills, and work habits (Vandell, 2005).
    Simply stated, quality early care and education is a fiscally sound 
investment in our future. Research by Nobel Prize-winning economist, 
Professor James Heckman of the University of Chicago shows significant 
returns on investment for early childhood education, particularly in a 
child's earliest years. Arthur Rolnick of the Federal Reserve Bank of 
Minneapolis, who testified before the subcommittee last summer, has 
concluded that early care and education is the best investment that 
this country can make. Although we currently face tight budgetary 
constraints, the Administration, in its fiscal year 2013 budget 
request, has prioritized significant investments for childcare, along 
with key reforms to maximize their effectiveness.
    The subcommittee's progress in moving toward reauthorization of the 
CCDBG Act provides an important opportunity to improve the lives of 
children and families. The Child Care and Development Fund (CCDF), 
which is comprised of Federal funding for childcare under the CCDBG Act 
and the Social Security Act, provides both subsidies to families as 
well as resources to raise the quality of care and is therefore well-
positioned to be the centerpiece of quality reform efforts. In 2010 
(latest available data), CCDF provided childcare assistance to 1.7 
million children from nearly 1 million working families and families 
attending school or job training. All of the children served are low-
income, and half are living at or below poverty level. These children 
are all at risk of falling behind in school. In addition to funding 
childcare subsidies, States spend $1 billion of CCDF each year in 
quality improvement efforts, exceeding the amount required by law. 
States are using CCDF to build Quality Rating and Improvement Systems 
(QRIS), which set voluntary higher standards for childcare and provide 
financial incentives and technical assistance to meet them. QRIS helps 
families find quality care and assists providers with moving up the 
levels of quality. States also are investing in professional 
development and workforce initiatives to improve the qualifications of 
childcare providers. These quality investments improve the level of 
care for millions of children, including children whose care is not 
directly subsidized by CCDF. Together with States, territories, and 
tribes, we are working to meet the Administration's overarching goal of 
helping low-income families access high quality childcare that fosters 
healthy development, school success, and meets the diverse needs of 
families.
    However, in order to realize the full promise of CCDF, we must make 
overdue reforms to ensure that children are in safe, high quality care. 
New research finds that families receiving childcare subsidies are able 
to access higher quality care compared to families without subsidies, 
but the quality of care is still lower compared to Head Start and State 
Pre-K programs (Brooks-Gunn, Johnson, and Ryan, 2012). Although the 
children served by childcare subsidies and Head Start are 
demographically similar, Head Start children receive a wider range of 
support services in addition to higher quality care and early 
education, giving them and their families more tools for success in 
later life. While Head Start prioritizes school readiness and helps 
parents gain the skills necessary to be effective educational partners 
with schools, children receiving childcare subsidies sometimes receive 
care that fails to meet basic health and safety standards and to 
provide the early education they need to succeed in kindergarten and 
beyond.
    To be sure, there are wonderful childcare programs that provide 
high quality care to low-income children, and those children gain the 
pre-academic and social and emotional skills they need to succeed. But, 
there are many low-income children receiving CCDF-funded care that are 
in poor quality programs where providers lack the skills and resources 
necessary to provide high-quality early care and education.
    Currently, we fall short in our efforts to provide stable support 
for work and child development. Families in many States ``churn'' on 
and off childcare assistance programs every few months, even when they 
remain eligible, because of the burden of the eligibility re-
determination process. This churning of clients threatens the 
employment stability of parents and undermines child development by 
severing children's relationships with their caregivers.
    More troubling, some childcare providers who receive CCDF subsidies 
fail to meet health and safety safeguards, which I know has been a 
significant concern to you, Senator Burr. Parents understandably assume 
that providers funded by subsidies are safe. However, because the 
current statute does not define health and safety standards, some 
States lack basic requirements such as comprehensive criminal 
background checks, or training on First Aid/CPR and safe sleep 
practices. In fact, there are 12 States that do not require CPR 
training and 10 States that do not require First Aid courses for 
teachers in childcare centers. Further, 29 States do not require SIDS 
prevention training. Far too often, this lack of accountability leads 
to tragedy. Unfortunately, in too many cases, it takes well-publicized 
deaths in childcare settings to prompt State action to strengthen their 
licensing standards to better address children's safety. These tragic 
losses emphasize the importance of health and safety standards and 
building a strong foundation for high quality care.
    The HHS Office of Child Care has been moving forward within the 
authorities we have to address these concerns and to focus on the goal 
of ensuring that low-income children have access to high-quality care. 
A year ago, we revised the CCDF Plan, which serves as the application 
for CCDF funds and requires States, territories, and tribes to describe 
their childcare program and services. The CCDF Plan revisions enhanced 
the focus on health and safety, childcare program improvement, and the 
training and education of the childcare workforce. We now also ask 
States to set goals for improving their childcare programs over the 2-
year life of the Plan. For the first time, we are asking States to 
track improvement in childcare quality by reporting their annual 
progress on their goals, as well as key data about their efforts to 
upgrade childcare monitoring, offer grants to programs, and provide 
training and scholarships to teachers.
    In addition, States now will report data on State-defined quality 
measures for each child receiving a subsidy. For example, States that 
are implementing a QRIS will report the QRIS level of programs caring 
for children receiving subsidies, allowing us to chart improvements 
over time. Working through the application and the data reporting 
processes, we are encouraging States to be more purposeful and 
strategic in their spending and increasing accountability for Federal 
funds. To support their efforts, we recently launched a redesigned 
technical assistance network to help States, territories, and tribes 
achieve the goals that they have set for their childcare programs. We 
also expect that States funded through the Race to the Top Early 
Learning Challenge will serve as models for how to implement and use 
QRIS to improve program quality.
    Despite these improvements, key reforms in the statute would have a 
much greater positive impact on children and families who rely on 
childcare. The CCDBG Act, last reauthorized over 15 years ago, does not 
reflect recent research findings about brain development in the early 
years and the critical importance of facilitating children's learning 
from birth. The statute also does not acknowledge current State 
practices, such as the implementation of QRIS and career pathways for 
early childhood and afterschool educators. We believe reauthorization 
of the CCDBG Act is an opportunity to build on State innovation, learn 
from new research in the field, and drive best practices. As such, we 
think that CCDBG reauthorization should be based on these key 
principles:

    <bullet> Improving Quality--The Administration's reauthorization 
principles preserve State flexibility inherent within the block grant 
structure, while establishing a foundation that will assure health and 
safety in childcare and a systemic framework through which States and 
communities can improve the quality of childcare. This includes 
increasing the share of dollars dedicated to quality improvement and 
incorporating into statute existing quality set-asides included in 
appropriations language. Currently, the 4-percent minimum quality set-
aside in the CCDBG Act and the customary appropriation set-asides 
combine to establish a quality spending requirement of approximately 7 
percent. In fiscal year 2010, States reported spending 12 percent of 
total CCDF expenditures on quality activities. Increasing the share of 
funds spent on quality while ensuring that the funds are spent on 
evidence-based efforts to raise the bar on quality will support 
improvements in State health and safety standards.
    Standards alone are not enough. We also need to ensure that States 
have effective State monitoring systems and protocols to ensure that 
providers meet regulatory requirements established by the State. 
Quality funds also should be used by States to support implementation 
of QRIS for childcare programs and to expand professional development 
opportunities for the childcare workforce.
    <bullet> Supporting Access--In an uncertain economy, access to high 
quality childcare is more important than ever. The combination of the 
end of the Recovery Act CCDBG funding and State fiscal constraints have 
caused some States to cut back on childcare assistance. We should work 
to counterbalance these pressures and maintain services to families 
while making critical quality reforms.
    <bullet> Facilitating Informed Choices--Parents also must have 
access to information on the quality of childcare programs, so they can 
make the best decisions for their families' needs. Increased 
transparency for parents about the health and safety track records of 
providers and key indicators of quality are an important component of a 
system based on parental choice.
    <bullet> Promoting Continuity of Care--The basis of early learning 
is the relationship between the adult and the child, which takes time 
to develop. Research tells us that children have better educational and 
developmental outcomes when they have continuity in their childcare 
arrangements. The constant churn of families on and off CCDF subsidies 
disrupts these crucial relationships, undermining children's learning, 
and making it harder for parents to stabilize their employment and 
progress in their jobs. Therefore, we suggest considering changes that 
would improve continuity for families, such as longer eligibility re-
determination periods for families receiving childcare subsidies.
    <bullet> Ensuring Program Integrity--We continue to focus on 
program integrity efforts and providing technical assistance to States, 
territories, and tribes to prevent waste, fraud, and abuse.

    The key principles of our reauthorization proposal align closely 
with much of the Administration's work on improving opportunities for 
early learning in childcare and education programs. These principles 
remove barriers to coordination with programs such as Head Start and 
State pre-kindergarten to allow States and communities to better 
address the comprehensive needs of children and families.
    The Administration is aligning early care and education programs 
and raising the bar on quality so that more low-income children have 
access to high quality early education through our efforts in CCDF, 
Head Start, and the Race to the Top Early Learning Challenge. While 
there is much work to be done, States are strong partners in these 
efforts, with many States leading the way on improving health and 
safety standards and setting high standards for quality for childcare. 
The diverse range of States engaged in these efforts, including those 
represented in this subcommittee, represents the bipartisan interest 
and support for raising the quality of childcare to keep children safe, 
healthy, and ready to succeed in school. The Administration thanks the 
subcommittee for its leadership, and looks forward to working together 
as we take the next steps to achieve the CCDBG Act reauthorization.

    The Chairman. Thank you very much, Ms. Smith.
    My first set of questions will deal with access. Then, 
childcare is based on really the best people in the room doing 
the best practices for our children. You are an expert at 
information and referral. It goes back to your work in the 
nonprofit days. When we originally did this bill, one of the 
things we wanted was clear information and referral to parents 
so they could make an informed decision around cost, location 
and satisfaction.
    The world of information has revolutionized since then 
because of the Internet. Do you envision working with the 
Administration and should we also get more elaborate in our own 
bill about really encouraging, No. 1, where is childcare, how 
much does it cost, and kind of a report card on the quality of 
it? Or do you think we should just let what we've been doing 
stand and leave it to you to write internal new rules regs?
    Ms. Smith. No, I actually think it might be a combination 
of both of those things, that we actually know a lot more, as 
we were saying, about the research and what actually we know 
works and what doesn't work. For example, we know that certain 
safety requirements, just basic health and CPR training, will 
decrease the number of accidents in childcare programs. So we 
know certain things and I think those things we should go to 
the research and we should require.
    I think there has been progress made in the childcare 
resource and referral community, and the next panel with Janet 
Singerman can address some of those, in terms of identifying 
key indicators and getting that information out to parents. But 
I think we've made progress. We have a long ways to go. The 
State efforts around quality rating improvement systems are 
providing much of that information to parents.
    The Chairman. So how do we get it into the hands of parents 
in the best way?
    Ms. Smith. I think what we have to focus on is technology 
in many ways, to be honest with you.
    The Chairman. How do we do it? Should we be prescriptive in 
the bill, descriptive in the bill, or silent in the bill?
    Ms. Smith. I think we should be--that's a really good 
question. I think I would have to say on this a little more 
prescriptive, since the information is out there and yet it 
hasn't taken in many cases----
    The Chairman. Would you offer suggestions in this, because 
you really have such incredible experience and a range of 
people to consult with? Because this is the gateway to the 
program. This is how you make a decision. So if we're going to 
go to all this effort and there's one childcare provider that 
doesn't have the same first aid training or whatever you're 
going to put in there--but we want a one-stop shop, and not 
everybody has a phone and not everybody--I mean, not everybody 
has a Blackberry. Everybody does have a cell phone.
    Ms. Smith. That's true.
    The Chairman. Everybody says, ``Oh, it's on the web, they 
can go there.'' Often for poor women seeking, coming into the 
market or staying in the market, they don't have the $1,000 a 
year to maintain a subscription to something like this. It's 
going to go into their childcare. So we need to meet people 
where we are, not where the young people working for the agency 
are. So let's do that.
    The second is this churning. In our guise to make sure that 
only the most eligible get this, have we inadvertently created 
a bureaucracy that spends too much time in determining 
eligibility? In some places it's now every 6 months. What is 
this churning and how can we ensure that only those who are 
eligible get it, but that you don't have to prove it every hour 
and a half?
    Ms. Smith. In some cases it seems like that's what's 
happening to families, because I've actually been in States 
where families are required to recertify every 3 months. So I 
do think that we need to look at this. We have many programs in 
this country that are based on income that don't require 3-
month or 6-month reauthorizations. For example, Head Start 
eligibility is determined and it's good for the child for a 
year.
    We actually think that we can go to a 1-year eligibility 
with the States, then having the authority to go in and check 
randomly. I mean, if the State suspects that there are problems 
then there's nothing that would preclude them from going in and 
looking at or doing a random selection of people. But to 
require everyone to do it all the time is overkill.
    The Chairman. And overkill for both the parent and that's a 
lot of bureaucracy to maintain around eligibility.
    Ms. Smith. And it prevents collaboration between programs, 
too. I think that's one of the things that we're concerned 
about between childcare and Head Start. When childcare people 
have to recertify so frequently, getting the childcare wrap-
around services even to Head Start becomes a problem.
    So we need to look at these eligibility requirements and 
see if we can't make them consistent across.
    The Chairman. So your recommendation would be 1 year plus 
random sampling to determine whether.
    Well, my time is up. I'd like to now turn to Senator Burr. 
Thank you very much, Ms. Smith.
    Senator Burr. Linda, welcome. Thank you for your valuable 
input.
    Let me just ask you, does the Administration support the 
Child Care Protection Act?
    Ms. Smith. Yes.
    Senator Burr. Great.
    Ms. Smith. In a nutshell.
    Senator Burr. That bill says that individuals determined 
through the background check process to have committed murder, 
rape, offenses against children, and other crimes should not be 
allowed to work in a childcare setting, but provides an 
exemption for individuals who have committed a drug-related 
offense, but after a 5-year cooling-off period. Do you think 
that's an acceptable exemption?
    Ms. Smith. Well, I do think that we have to allow some 
discretion within the States around some types of offenses. So 
I would say, yes. I think that we have a lot to learn on this. 
I would say the beauty, to be honest with you, of the law 
that's proposed is as preventative as anything else. I think it 
will be a deterrent to people to apply because, knowing that 
these things are going to be checked and exactly for what, one 
would assume that people will not apply.
    I can tell you that my experience with the Defense 
Department showed that to be true. After we were required in 
DOD to implement background checks, that's exactly what 
happened, and people stopped applying. It also set a threshold 
for quality. So I think the act has lots of potential to 
improve many aspects of childcare.
    Senator Burr. I think many employers in America would tell 
you as they interview potential applicants, when they notify 
them that there's a drug test involved many applicants don't 
complete the interview.
    Ms. Smith. Correct.
    Senator Burr. Because they know the outcome.
    If you had to characterize the State of the QRIS system 
nationally, the Quality Rating and Improvement System, are we 
at a Model T level or are we at Ferrari level, or somewhere in 
between?
    Ms. Smith. That's kind of a hard question. I don't know 
that I would put it as a Model T or where. I would put it--
maybe in a race, we're maybe at the 30 percent mark, in part 
because we've got about half of the States now with QRIS and 
many of them are still in the developmental phases of quality 
rating improvement. Obviously, your State and some other States 
are well down the path on that.
    But we're still learning on it. I would also say that we 
cannot actually characterize it as a national system because 
the States' QRISes vary greatly. It's one of the things that 
we're looking at ACF is to try and figure out where we can find 
consistencies among the State QRIS systems and how we can help 
States that are now moving toward that with lessons learned 
from States such as North Carolina.
    Senator Burr. What do you think are the essential elements 
of a good QRIS?
    Ms. Smith. Well, I think that one of the essential elements 
has to be a connection to licensing. I know that in North 
Carolina's system that is true. To exclude the licensing system 
from the QRIS is creating yet another wedge within an already 
bifurcated system. So I really think that we need to look at 
linking it to licensing, to basic health and safety, and then 
moving people up in a progression toward a higher level, 
whether that be national accreditation or some other higher 
level as determined by the State.
    Senator Burr. One final question. Would you agree that Head 
Start and the requirements we place on Head Start are very 
different from what we currently require and should require on 
CCDBG?
    Ms. Smith. Well, they're radically different, yes. But I 
would tell you that is another thing that we're looking very 
seriously at right now at ACF. One of the things that we are 
interested in is, as I said, how can we break down the 
barriers, is to begin to look horizontally at these programs 
and figure out what they have in common. For example, health 
and safety standards should not be different between Head Start 
and childcare and pre-K. A child should be no less safe or 
healthy in any one of those settings.
    So how can we begin to build a platform or a foundation 
where we address the consistencies and the things that should 
be the same between early learning programs and then look at 
how we can further promote those kinds of activities. So it's 
something that we're very interested in. There are many others. 
There's the child- and adult-care food program, all food 
programs; why don't they all comply with those standards? Why 
don't all programs comply with the Consumer Product Safety 
Commission standards for playgrounds? Those things should not 
be any different based on whether it's Head Start, childcare, 
or pre-K.
    Senator Burr. Thank you.
    Thank you, chairman.
    The Chairman. Thank you.
    Let me just say how we're going to proceed: Senator 
Bingaman, Senator Franken, Senator Murray, Senator Blumenthal.
    Senator Bingaman. Thank you very much.
    Thanks for your testimony. I'm not as informed on this as 
the chairman and the Ranking Member. What does a person have to 
demonstrate to have his or her child eligible under this 
program?
    Ms. Smith. It varies by State, sir. The State is authorized 
to determine the eligibility levels based on the State's own 
decisions on what they view as their priorities. Essentially, 
most of the children, as I said, are right now at poverty or 
below, at least half of them are, or in that range.
    Senator Bingaman. That is the eligibility cutoff for most 
States?
    Ms. Smith. The eligibility cutoff for most States is--I 
would have to get back to you on the average on that. But it 
has gone down over time, in part because the funding has stayed 
so flat in the childcare program. So as States have tried to 
maintain levels of children--and it gets to this access versus 
quality issue. As States have tried to maintain the levels, 
they have increased the eligibility requirements, decreased the 
payments to providers, increased the co-pays.
    So as I like to say, there are lots of levers in childcare 
and it's hard to say any one of those is the reason or is 
consistent between the States.
    Senator Bingaman. You mentioned this. I think you referred 
to it as the burden of the redetermination process. The 
chairman was asking about that. Your recommendation, as I think 
you stated before, is that we have something in the Federal law 
that says States are only able to make this determination of 
eligibility once a year, and that they can then do random 
checks to be sure that people haven't gotten rich in the mean 
time and their kids should not be participating.
    So that's your view, is that that should be mandated in 
Federal law in this reauthorization?
    Ms. Smith. I think ``mandated'' is a strong word. I think 
that we--but we would like to see that as a basic goal of 
CCDBG, yes.
    Senator Bingaman. OK.
    Is the much more frequent redetermination requirement done 
for a reason of trying to keep people out of the program? What 
is the reason why a State would require a redetermination of 
eligibility every 3 months?
    Ms. Smith. Well, in fairness to the States, we've put a lot 
of pressure on the States recently in terms of the program 
integrity requirements and monitoring them. The States are 
required to report and we go out and monitor program integrity, 
which means compliance with different features. They're all 
set, in fairness, by the States, what we monitor them to.
    But, that being said, there is a big emphasis on program 
integrity, and I think what's been happening is the States are 
reacting to that and wanting to make absolutely sure that they 
are in compliance with the Program Integrity Act.
    Senator Bingaman. I'm not understanding the words you're 
using very well. I've always thought of program integrity as 
the characteristics of the program, whereas I've thought the 
eligibility was something that the parent of the child had to 
be able to demonstrate. So why would the increased emphasis on 
program integrity cause the States to put more pressure on the 
parents who are trying to keep their kids eligible?
    Ms. Smith. Well, because the States are being monitored to 
make sure that children aren't getting subsidies that are not 
really authorized under current State policies. For example, if 
the State has set the income threshold at the poverty level in 
the State and someone goes out and monitors that State and 
that's their threshold and they find families that are above 
that, then they're really out of compliance. The States are 
really trying very hard----
    Senator Bingaman. They're out of compliance with their own 
requirement. They're not out of----
    Ms. Smith. That's right.
    Senator Bingaman [continuing]. Compliance with any Federal 
requirement.
    Ms. Smith. They're out of compliance with their own 
requirements as they set them. But they have set them and then 
we monitor to them. We're trying to work with the States on 
this and we've been doing a lot of training to help educate the 
States on how to set their requirements and make sure that 
they're realistic.
    Senator Bingaman. Thank you.
    The Chairman. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Just to followup on that--thank you, Madam 
Chair--is that a big problem, people suddenly getting a 
windfall of money? I mean, what kind of percentage of families 
does that happen to? It seems a little penny-wise and pound-
foolish.
    Ms. Smith. I actually think that's a good way to describe 
it. I do think that we don't have data that actually supports--
and we could go back and look and see in terms of the 
monitoring that we've done so far this year. But I do think 
that there is a tendency to be overly cautious at the State 
level to make sure that they're not out of compliance.
    Senator Franken. You certainly want this going to kids who 
need it.
    Deputy Assistant Secretary Smith, as the chairwoman said in 
her opening statement, we know that birth to age 3 is an 
important time for brain development and for building a 
foundation for later learning. Since 1999 Congress provided 
CCDBG funds to improve the quality of care for infants and 
toddlers in annual appropriations bills. Because this money has 
been allocated through the appropriations process, there is 
little guidance on how States should use the funding.
    Yesterday, I introduced legislation to authorize this 
funding stream and provide guidance to States on how to use it. 
Under my bill, States can use funds for evidence-based quality 
improvement initiatives. These could include supporting family 
childcare homes through staffed networks, integrating infant 
and toddler components into higher education and professional 
development programs, and helping childcare providers pursue 
accreditation or a higher rating on their State's quality 
rating system.
    Can you talk about the importance of improving the quality 
of care, especially for infants and toddlers?
    Ms. Smith. I think, given what the research shows, there is 
nothing more important than improving the quality of infant-
toddler care. As I said in my remarks, we know that by 9 months 
of age children are already starting to lag. So it is 
critically important, and we do need to pay attention to this.
    I applaud your efforts around this. We also know that many, 
many of our youngest children are in family childcare settings. 
This is an area that we need to pay particular attention to 
because it's one that often falls outside of the licensing 
requirements in States or the threshold for what is monitored 
is very high. So I think that we need to pay attention to this. 
During the ARA funding years, we actually conducted a 
demonstration project between childcare and Head Start where we 
actually worked with family childcare, and we found amazing 
results by being able to support family childcare providers, 
get them the training that they need, and we saw amazing 
improvements.
    I actually went out and visited a training with some of 
those childcare providers and it was quite impressive. Most of 
those providers were ELL, English language learners, too. So we 
still saw tremendous growth in those providers and in the 
quality.
    Senator Franken. And we'll see that pay off later.
    You began your career in the northern Cheyenne reservation 
in Montana and have done a lot of childcare work in Montana. 
You saw firsthand the childcare options available to rural 
families and the unique challenges facing rural families 
looking for high quality childcare. We know that if low-income 
children cannot access high quality childcare and early 
education programs they are less likely to be ready for school 
when they enter kindergarten.
    What kinds of obstacles do rural families face when they're 
trying to find high quality care, and what strategies are some 
rural communities using to help families access childcare?
    Ms. Smith. Yes, I can address this one from firsthand 
experience with my own children. As you said, I was working on 
the northern Cheyenne reservation and I had two children under 
the age of 5. One of my daughters was able to go to the program 
that I had, but my infant I had to find childcare for. There 
was one family childcare provider within about 150 miles, I 
think.
    It just so happened that she was good, and she was State-
licensed, believe it or not, which was interesting. But I do 
think that I remember facing those issues and the rural issues 
clearly. I think we need to think about family childcare again. 
We need to consider options, and we are thinking about this at 
ACF right now, about how we can encourage more grants and 
contracts to family childcare providers, because one of the 
problems with family childcare is the stability of the income. 
If a child drops out, their income goes down and they really 
need to look for alternate resources and ways to maintain their 
income.
    So we're looking at how we might use grants and contracts, 
especially in rural areas, with family childcare providers. 
There are a number of other things that we're thinking about in 
terms of how do we braid, better braid the funding for all 
early care and education programs in rural communities so that 
we are not competing for the same children with small amounts 
of money. So there's a lot of things that we can do around this 
one.
    The other thing I think we need to look at--and this is one 
of the reasons why I generally hesitate to say that we need to 
make too many overly aggressive requirements in Federal 
legislation--is because in rural communities we often need to 
consider things like, I know I was the only person with early 
childhood background for probably 150 miles. So to require a 
degree of a person in a rural setting is difficult.
    We need to look at compensatory measures: How can we ensure 
that we get the training to the people that are isolated in 
such a way that they can afford it, have access to it, and that 
it helps children, without becoming too burdensome on some of 
the other kinds of requirements that may or may not lead to 
quality.
    Senator Franken. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Mikulski and 
Senator Burr, for holding a really important hearing. As you 
know, early childhood education is extremely important to me. I 
come to this topic not just as a Senator, a member of this 
committee, a former PTA member, a school board member, and a 
mom, but I am the only Senator who has been a pre-school 
teacher formerly, and actually that's where I learned most of 
the skills that I use here.
    [Laughter.]
    But this topic is extremely important, and I'm so glad 
you're looking at this, considering the reauthorization of the 
Child Care and Development Block Grant.
    We've heard it up and down that childcare is one of the 
best investments that we can make as a Federal Government, and 
this reauthorization is a critical part of that. Everybody's 
talked about the research that shows how early childhood 
education benefits a child throughout their school career. And 
it is such an important resource for parents who are trying so 
hard to manage and work and do everything they need to do to 
make sure their kids get the best start.
    Frankly, the bottom line is that as a parent, if you know 
your child is safe and in a good setting while you are at work, 
you do a better job for your employer. So childcare is just 
really a critical part of our economic recovery.
    I did want to ask you today, because one of the things I've 
really focused on for a long time is the issue of homelessness. 
I saw an analysis recently that showed that homeless families 
receive childcare subsidies at a lower rate than families who 
are in homes and that homeless mothers are more likely to 
report quitting their job or school because of unreliable 
childcare.
    That is really concerning to me, because homeless children 
are among the most vulnerable out there. Having a stable 
childcare situation would do wonders for a homeless family. It 
would allow their parents time to work or look for work and get 
their family into a home, and it would really actually lessen 
the time that a homeless child spends in their car or their 
tent or wherever they happen to be living.
    So I wanted to ask you while you're in front of us today 
what you're seeing happening on the ground in terms of 
childcare for homeless families and what we can do in 
reauthorization to really address this critical issue?
    Ms. Smith. I appreciate you and your staff 's interest in 
this, and we've had several meetings as a result of that 
interest in trying to examine what we can do to support 
homeless families. One of the things, as you know, we're 
working on Head Start and how do we ensure that homeless 
children have access and stability within the Head Start 
program.
    That being said, we also need to look at childcare policies 
State by State, because we know that, while the regulation that 
we issue gives the States the authority to give grace periods 
for certain requirements for eligibility for childcare, two-
thirds of the States use that option, one-third do not. We need 
to work with these States to basically convince them of the 
importance of looking at these policies and the barriers that 
they're presenting to these families.
    I think the other thing that we need to do is a better job 
in working with some of our other partner programs that support 
homeless families, to identify these families and prioritize 
them in the system, so that we don't make it harder for them to 
get that access.
    I know that I have personally watched people walk through 
processes for applying for subsidies, and some of those 
policies present instant barriers to homeless families in terms 
of just even providing envelopes or something with your 
permanent address on it.
    So we need to work with the States on these issues and it 
is on our radar screen for sure. We are giving it a high 
priority. I don't know that I can tell you right now that we 
have an absolute solution.
    Senator Murray. Well, this is a very important issue. It 
addresses the most vulnerable of kids amongst us, and there are 
real barriers, like just not having an address you can put on a 
form to access.
    Ms. Smith. Right.
    Senator Murray. So we really want to work with you on that.
    Madam Chairman, thank you so much for doing this. I will 
submit some questions for the record. I know I hear from 
childcare providers at home that their major challenge is how 
do they balance quality and access. So that's something I think 
we really need to look at.
    The Chairman. We're struggling with that.
    Senator Murray. Yes.
    Thank you very much.
    The Chairman. Senator Blumenthal.

                    Statement of Senator Blumenthal

    Senator Blumenthal. Yes, I'd like to join in thanking 
Senator Mikulski and Senator Burr for having this hearing on a 
critically important topic and for emphasizing the importance 
of both the employment benefits and the learning development 
benefits, the cognitive and social, emotional abilities that 
these programs offer.
    I was struck by the observation in your testimony, and I'm 
quoting:

          ``There are many low-income children receiving CCDF-
        funded care that are in poor quality programs, where 
        providers lack the skills and resources necessary to 
        provide high-quality early education, early care and 
        education.''

    I wonder what specific steps in this reauthorization will 
raise the quality of the providers, that is the staff, the 
people who do know what Senator Murray did in providing pre-
school services in these facilities? What specifically will 
raise the quality?
    Ms. Smith. I think one of the first things that can be done 
is to take a look at State requirements around who must be 
regulated and who must comply with basic health and safety. We 
know that 19 percent of children receiving CCDF funds right now 
are in care that is outside the regulated system and for which 
we know nothing about the quality of care, the quality or 
safety of the programs that they're in.
    That, to understand, equates to about 320,000 children that 
are receiving subsidies right now. So what can be done with 
that? Well, I think the first thing is to take a look at 
requiring programs that accept Federal funds to comply with 
certain fundamental basic health and safety standards and for 
States to require some kind of licensing and oversight of those 
programs. I think that's No. 1.
    Senator Blumenthal. So you're saying that almost 20 percent 
of all programs funded by the Federal Government have no 
requirements as to quality, in effect?
    Ms. Smith. Twenty percent of children subsidized right now, 
by our most recent data, 19 percent actually of children, are 
in programs that are neither regulated nor inspected by the 
States.
    Senator Blumenthal. So there's no, in effect, standard, no 
requirement for meeting certain minimal criteria?
    Ms. Smith. In some States, sir, it's possible--and this is 
another thing that is I think problematic. In some States it's 
possible for the State to mail out to a potential provider a 
checklist and for them to check off what they basically--
whether they think they're doing these things or not, and mail 
it back in, and get a license in the mail, with no one ever 
having looked at that program.
    Senator Blumenthal. Which in effect is a sham.
    Ms. Smith. It is.
    Senator Blumenthal. Will this reauthorization legislation, 
the reforms that you make reference to in your testimony, 
correct that situation?
    Ms. Smith. It would be our hope and expectation that we 
would address that particular problem of who and how we spend 
our Federal money and requiring at least minimum health and 
safety.
    Senator Blumenthal. I'm not sure I understand what you mean 
by ``hope and expectation.'' Will it? And I don't mean to--this 
is a friendly question, not a hostile question.
    Ms. Smith. I'm just saying that that would be what we would 
like to see happen, but I can't say what the committee or 
Congress is going to do on this one. But certainly our concern 
is that children not be placed in childcare that has never been 
looked at and that we know nothing about the quality of care 
and we're spending Federal money on it.
    Senator Blumenthal. Because it can be not only less useful 
or useless, but also potentially dangerous.
    Ms. Smith. Absolutely. And I do think one of the things 
that we do know is that quality of care matters. The research 
is crystal clear on this issue, that the quality of care 
matters and it matters most to poor children. So that we put 19 
percent of our poor children in care that we know nothing about 
is not acceptable.
    Senator Blumenthal. One out of every five children in the 
United States.
    Ms. Smith. Yes.
    Senator Blumenthal. And many of them more likely to be low-
income than others.
    Ms. Smith. Oh, no. They are low-income. They are definitely 
low-income.
    Senator Blumenthal. My time has expired, but I really want 
to thank you for your very helpful testimony this morning.
    Thank you, Madam Chairman.
    The Chairman. Ms. Smith, thank you very much for a very 
content-rich presentation. The Q and A here has been really 
informative and instructive. We're going to ask you to be 
available to us as we work on the principles of our bill to be 
in keeping with the President's principles and to really 
benefit from your expertise. You're going to be the Department 
and the specific organization within the Department to 
implement this. So we really value your expertise, and thank 
you very much.
    We're now going to turn to our panel that brings a wealth 
of experience from the community, as Senator Murray said, from 
out there. They're kind of the boots on the ground.
    We welcome to the table Dr. Rolf Grafwallner, who heads up 
the Division of Early Childhood Development in my own home 
State of Maryland. It licenses and monitors all childcare 
programs, and he brings 20 years of experience in running the 
program, and he's also come up with innovative ideas, like 
working with our colleague Congressman Steny Hoyer, 
implementing the Judy Centers. We really welcome you.
    We also want to welcome Mr. Phil Acord, who has worked at 
the Children's Home in Chattanooga, TN, for more than 30 years, 
and he's provided care to children whose parents hold 
nontraditional work hours. This is actually something very 
interesting to me, the night shift crowd. We look at it from 
those who work as nurse's aides to important defense 
facilities. In my State I have the National Security Agency. 
They work 24 hours 7 days a week protecting America. How do we 
help them protect their children and raise their children 
better? We really look forward to your advice and insights and 
experience.
    We have Janet Singerman, who serves as the president of the 
Child Care Resources, one of North Carolina's largest 
nonprofits. Senator, she's I know someone well known to you. I 
didn't know if you wanted to introduce Ms. Singerman to me and 
to Senator Blumenthal.
    Senator Burr. Chairman Mikulski, let me first welcome Janet 
from Charlotte, NC, and at the same time apologize to the 
chair, because Janet served for over 15 years on the Maryland 
Committee for Children in Baltimore, MD, in addition to serving 
as the deputy director and project manager.
    The Chairman. Oh, I saw that. That's the second paragraph 
here. I got to the second sentence, which said ``Burr to 
introduce.''
    Senator Burr. So I feel like I have stolen a treasure from 
Maryland, only to claim her, as I do, a treasure to North 
Carolina, but, more importantly, to children in this country.
    She was elected to the position of president of the board 
of directors of the National Association of Child Care Resource 
and Referral Agencies from 2004 to 2006, after many years of 
leadership in the field at the national level. Prior to joining 
the Child Care Resources as president in 1997, Janet worked for 
14 years with the Maryland Committee for Children, serving as 
its deputy director and as the co-founder and project manager 
of Maryland's statewide Child Care Resource and Referral 
System.
    She's been on the front lines in North Carolina for some of 
the most exciting work currently under way in the country in 
early childhood care. In her role as president of Child Care 
Resources. Child Care Resources serves several North Carolina 
central counties and last year subsidy funds administered by 
that organization enabled a monthly average of 7,000-plus 
children from low-income families to access childcare in North 
Carolina.
    Janet, is active on local, regional, State, and national 
levels. Her agency provides comprehensive childcare resources 
and referral services, including consumer education and 
referral, training and professional development, targeted 
quality improvement and technical assistance consultation, 
public education, and data collection and trend analysis. She 
is a multi-talented, tremendous resource for this committee.
    Janet, welcome.
    Thank you, Madam Chair.
    The Chairman. Well, even though you chose to move to North 
Carolina, we still love you. We also do remember when you 
worked with our good friend Terry Lansburgh, who was really 
kind of the founding mother of the childcare movement in 
Maryland, a very dear friend to me and adviser to many on 
public policy. It was really out of that nonprofit that goaded 
government to really have a framework for childcare and 
childcare that really worked for the kids and supported the 
families. So it's good to see you again.
    I'd also like to welcome Ms. Coro. Susana Coro is here 
today representing real parents, the people that we talk about, 
and their children. We felt it was important to hear from a 
parent. She herself not only is a user of the service, but she 
also works in the field of early childhood care, to make sure 
we get the viewpoint of the parent.
    We want to thank you, Ms. Coro, because we know you've 
taken time off from work today to be with us and that you're 
here on your own time, and it's very much appreciated.
    So we're going to turn to the panel. We're going to ask 
them to make their presentations crisply, so we can get--as you 
can see, this is a committee that really wants to engage in 
conversation, and we're going to need to wrap up as close to 12 
o'clock as we can. That's not to stifle conversation, but to 
kind of encourage expedition.
    We'd like to really kick off with you, Rolf, another 
Marylander, and your considerable background, and look forward 
to hearing from you.

     STATEMENT OF ROLF GRAFWALLNER, Ph.D., ASSISTANT STATE 
   SUPERINTENDENT, DIVISION OF EARLY CHILDHOOD DEVELOPMENT, 
     MARYLAND STATE DEPARTMENT OF EDUCATION, BALTIMORE, MD

    Mr. Grafwallner. Good morning, Madam Chair and members of 
the committee. I'm pleased to be here to report out on the work 
we do on the CCDBG in Maryland. My name is Rolf Grafwallner, 
assistant State superintendent of the Division of Early 
Childhood Development of the State Department of Education. The 
division is the lead agency for early childhood education in 
Maryland and it includes the administration of the CCDBG and 
all childcare quality initiatives.
    As part of my testimony I would like to make three major 
thematic points on how to improve the CCDBG. The 
reauthorization should shift the focus on child outcomes while 
maintaining its function as a monetary support to help low-
income families to afford the cost of childcare. The mission of 
childcare subsidies is not only to ensure that lower wage 
working families have access to subsidized care, but that young 
children have access to quality programs. It means that the 
Federal and State funding for young children adopts the goal of 
school readiness as the primary focus and becomes an integral 
part of each State's reform efforts. That should include the 
CCDBG.
    Shortly after the transfer of childcare subsidies to the 
State Department of Education, our division tested the extent 
to which children receiving childcare subsidies were enrolled 
in high quality programs, what does it mean, what are the 
outcomes? We pursued and received Federal research and examined 
the question. Compared to children who had only informal 
childcare arrangements, such as with family, friends, or 
neighbors, children with subsidies enrolled in center-based 
care were more likely to be prepared for school.
    Based on those results, we worked on getting more children 
enrolled in licensed childcare centers, which contributed to 
the increased school-readiness outcomes of low-income children 
statewide from 59 percent in 2007 to 76 percent in 2011.
    Second point: Reauthorization should include provisions for 
integrating Head Start and CCDF funds. This approach should be 
coupled with the requirement that at a minimum 10 percent of 
the State's TANF funds be reserved for childcare subsidy. CCDBG 
cannot be considered in isolation, especially since the 
consolidated governance structure allows for more strategic 
coordination among the various funding streams.
    As a State administrator, I'm engaged in coordinating State 
and Federal policies of three publicly funded programs: Head 
Start, public school pre-kindergarten, and childcare subsidies. 
All three of these programs are targeted basically to the same 
income groups. In Maryland this means families of four with 
incomes below about $40,000 a year. Any families making more 
than that are locked out of any kind of subsidy.
    For a State focused on school readiness goals and education 
reform, this is a serious problem in terms of access to 
programs and accountability for results. Within the context of 
today's budgetary constraints, we simply cannot afford to work 
in silos. That means creating separate funding streams, 
regulations, and fragmented oversight.
    From a State perspective, access to subsidized early care 
and education could be expanded to more middle-income families 
if the CCDBG reauthorization were to coordinate its policies 
with those of Head Start in terms of funding and performance 
standards. Over the past decade there have been innovative 
models in that regard, and Ms. Smith talked about it to some 
extent, where both childcare and Head Start funding were 
supporting early childhood centers that benefited more 
children. These models met the test of expanded access, higher 
quality, and better results.
    In addition, linking Head Start and CCDF funding with TANF 
would integrate the school readiness mission of childcare and 
Head Start with the family support model of all the TANF 
programs.
    The reauthorization should also refocus the current quality 
set-asides and earmarks with a stronger emphasis on workforce 
development and continuous program improvement, including a 
requirement for States to establish performance benchmarks, not 
just tracking the data but establishing benchmarks in those 
areas. The existing set-asides and earmarks should be 
eliminated in lieu of more flexibility for States to address 
the dire needs of workforce development and program improvement 
in childcare.
    While States would still have the flexibility to tailor the 
CCDF funds to meet their strategic interests, the 
reauthorization should set performance benchmarks regarding the 
improvement of the workforce in childcare, in family childcare, 
as well as in center-based care.
    We were pleased that ACF introduced new process indicators 
for quality into the States' plan last year, in the last 
reporting cycle.
    Maryland currently spends approximately 10 percent of the 
Federal appropriation in quality initiatives and we have major 
results in focusing our efforts on workforce development and 
continuous improvement. For instance, we have tripled the 
childcare workers joining a formal career ladder program over 
the past 10 years and we increased the number of accredited 
programs by tenfold from 2001 to 2011.
    Maryland, just like other States, navigates within the 
confines of what is being provided in terms of funding and 
Federal and State requirements. The CCDBG as it currently 
exists has many positive features and they should be retained 
in the reauthorization, such as offering flexibility, becoming 
a reliable funding source, and States receiving technical 
support from the agency that administers it.
    But from a State's perspective, it cannot exist as a 
funding source in isolation. As State pre-kindergarten and Head 
Start strive to stress the quality of early care, CCDBG must 
follow. The most important thing the reauthorization can do is 
to initiate such process at the Federal level.
    Thank you very much for the opportunity to speak to this 
issue.
    [The prepared statement of Dr. Grafwallner follows:]
             Prepared Statement of Rolf Grafwallner, Ph.D.
                                summary
    Speaker: Rolf Grafwallner, Assistant State Superintendent for the 
Division of Early Childhood Development at the Maryland State 
Department of Education (MSDE). The Division is the lead agency for 
early childhood education in Maryland, and it includes the 
administration of the CCDBG and all childcare quality initiatives.
                         policy recommendations
    The CCDBG reauthorization should shift the focus on child outcomes, 
while maintaining its function as a monetary support to help low-income 
families to afford the cost of childcare.

    The mission of the childcare subsidy is not only to ensure that 
low-wage working families have access to subsidized childcare, but that 
their young children have access to quality programs. It means that 
young children's readiness for school becomes the primary focus and an 
integral part of each State's education reform efforts.
    CCDBG reauthorization should include provisions for integrating 
Head Start and CCDF funds. This approach should be coupled with a 
requirement that, at a minimum, 10 percent of the State's TANF funds be 
reserved for childcare subsidy.

    CCDBG cannot be considered in isolation, especially since the 
consolidated governance structure allows for a more strategic 
coordination among the various funding streams. From a State 
perspective, access to subsidized early care and education could be 
expanded to more middle-income families if the CCDBG reauthorization 
were to coordinate its policies with those of Head Start, also 
administered out of the Administration of Children and Families, in 
terms of funding and performance standards. Over the past decade, there 
have been innovative models, where both childcare and Head Start 
funding were supporting early childhood centers that benefited more 
children in terms of financial support and providing a better learning 
environment as a result of the childcare programs not only meeting 
licensing standards but adopting the more stringent Head Start 
performance standards. These models meet the test of expanded access 
and higher quality. Linking Head Start/CCDF funding with TANF would 
integrate the school readiness mission of a childcare/Head Start model 
with the family support model of all the TANF programs.
    The CCDBG reauthorization should refocus the current quality set-
asides and earmarks with a stronger emphasis on workforce development 
and continuous program improvement, including a requirement for States 
to establish performance benchmarks in those areas.

    The existing set-asides and earmarks should be eliminated in lieu 
of more flexibility for States to address the dire needs of workforce 
development and continuous program improvement in childcare. While 
States would still have the flexibility to tailor the CCDF funds to 
meet their strategic interests, the reauthorization should set 
performance benchmarks regarding the improvement of the workforce and 
childcare programs.
    Maryland, just like other States, navigates within the confines of 
what is being provided in terms of funding, and Federal and State 
requirements. The CCDBG, as it currently exists, has many positive 
features--it offers flexibility, it has become a reliable funding 
source, and States receive technical support from the agency that 
administers it. But, from a State's perspective, does not exist in 
isolation. As State pre-kindergarten and Head Start strive to stress 
the quality of early education, the CCDBG must follow. Many States are 
in the process of reorganizing their governance of early childhood 
education and consolidating all programs and funding streams into one 
agency. The most important thing the reauthorization of the CCDBG can 
do is to initiate such a process at the Federal level. In practice, 
this would mean joint and blended funding to increase coordination 
between childcare, Head Start, and TANF, resulting in improved access 
to quality early education and care for the children of working 
parents.
    The first rule of order should be a reorganization of the existing 
programs to allow for a more streamlined and consistent support for 
children and their families. The reauthorization of the CCDBG can play 
a historic role in this effort.
                                 ______
                                 
    Chairwoman Mikulski and members of the subcommittee, my name is 
Rolf Grafwallner, assistant State superintendent for the Division of 
Early Childhood Development at the Maryland State Department of 
Education (MSDE). The Division is the lead agency for early childhood 
education in Maryland, and it includes the administration of the CCDBG 
(or CCDF), namely the childcare subsidy program and all childcare 
quality initiatives. I appreciate the opportunity to speak before you 
and provide you with a State's perspective.
    For the CCDBG and childcare subsidy to be administered by an 
education department is not typical. In fact, it is very rare. Only a 
handful of States have similar governance arrangements. When the 
funding, policy authority, and administration of the CCDBG was 
transferred in 2006 to the Maryland State Department of Education, it 
was done with the understanding that the provision of services for 
subsidized children enrolled in the State's licensed childcare programs 
were part and parcel of the State's P-20 reform initiative.
         child care contributes to school readiness in maryland
    The mission of the childcare subsidy was not only to ensure that 
low-wage working families had access to subsidized childcare, but that 
their young children had access to quality programs. It meant that 
young children's readiness for school became the primary focus and an 
integral part of Maryland's education reform efforts.
    Shortly after the transfer, our Division tested the extent to which 
children receiving childcare subsidies were enrolled in high quality 
programs, and we found that only 5 percent of all children were 
enrolled in State or nationally accredited programs--the criterion we 
use for highly quality early education. We pursued and received a 
Federal research grant to examine the question further.
    Our research, conducted in partnership with the Towson University 
and Child Trends, Inc., examined the question, What is the relationship 
between children with subsidies enrolled in childcare programs and 
their results on the Maryland Kindergarten Assessment?
    The results were both fascinating and sobering. The type of 
subsidized care arrangement was significantly associated with 
differences in the likelihood of being assessed as fully ready for 
school on the two pre-academic domains, language/literacy and 
mathematical thinking. Compared to children who had only informal 
(family, friend or neighbor non-regulated) subsidized care 
arrangements, children enrolled in subsidized center-based care were 
more likely to be fully ready. The higher likelihood of school 
readiness was found among both children in center care either for the 
year before kindergarten or for 2 years prior to kindergarten. 
Subsidized center care was associated with an increase of between 11 
percent and 14 percent in the probability of being fully ready on the 
two pre-academic domains.
    This data is critical to Maryland since children entering school 
with significant deficiencies, especially in the pre-academic areas, 
may need intervention services in public schools associated with higher 
costs for local school districts. From a mere economic and educational 
perspective, the investment through the CCDBG could be looked at as a 
missed opportunity, shifting the costs to remedy the educational needs 
of children to local school districts, if children do not access 
quality programs.
    Maryland's data actually indicates favorable trends when it comes 
to parents' preferences for childcare arrangements. According to last 
fiscal year's participation rate, 80 percent of parents chose childcare 
centers. The remainder of children were enrolled in family childcare or 
informal care. Such statistics may not be true for other States, and, 
while Maryland's research data cannot be generalized, it points out a 
troubling feature associated with the CCDBG. For years, it has 
maintained the focus of the program on childcare so families can work. 
It has offered increasing but limited focus on the outcomes for 
children. The CCDBG reauthorization should shift the focus to child 
outcomes, while maintaining its function as a monetary support to help 
low-income families afford the cost of childcare.
     child care subsidy in the context of other subsidized programs
    From Maryland's perspective, the CCDBG should not be considered in 
isolation of other programs, especially since a consolidated governance 
structure allows for a more strategic coordination among the various 
funding streams. There are two other major funding sources which 
provide subsidized educational services for young children: the 
federally funded Head Start program provides full subsidy for children 
from families at or below 100 percent of Federal Poverty Guidelines 
(FPG) and the State's pre-kindergarten program, operated by local 
school systems, is fully funded for children from families at or below 
185 percent of the FPG. Adding the CCDBG, with eligibility for families 
at or below 178 percent of FPG, creates a third option for accessing 
subsidized early care and education.
    As a result of these three programs, Maryland provides options for 
families with very low incomes. Any family whose income falls just 
outside those Federal poverty guidelines has no options except to pay 
for care out-of-pocket or depend on family or friends for a patchwork 
care arrangement. This is a problem in terms of a State's ability to 
close the school readiness gap. In fact, several years ago we 
calculated the gap our policies created for families with middle 
incomes.
    In 2008, families who gained access to State and local financed 
pre-kindergarten programs had household incomes of $40,792 or less for 
a family of four. Families who enrolled children in Head Start had 
household incomes of $22,050 or less for a family of four. And, 
families accessing childcare subsidy had incomes of $37,485 or less for 
a family of four in order to be eligible for childcare subsidies.\1\ 
Thus, any family of four earning more than the prescribed eligibility 
guidelines had no access to publicly funded early childhood programs. 
Assuming that 10 percent of the family's income is a reasonable 
expenditure for early care and education costs, our calculations showed 
that families of four who earn more than $40,792 experience a 
significant increase in their household's share for childcare or 
preschool. Applying the 10 percent rule, family household incomes would 
have to be at $72,000 and above to become affordable again. While we do 
not have specific data on the number of children who are represented by 
this ``donut hole'' of affordability, census data suggests there is a 
high proportion of children whose families make more than $41,000 and 
less than $72,000. Those children might be enrolled in childcare 
programs, but many are being cared for in ad-hoc arrangements by 
friends, neighbors, and relatives. These arrangements are part of the 
fabric of community support and a very important feature of our 
society, but our data suggests they are not conducive to school 
readiness.
---------------------------------------------------------------------------
    \1\ Maryland currently has a ``freeze'' on the upper income 
brackets of its eligibility guidelines.
---------------------------------------------------------------------------
    From a State perspective, access to subsidized early care and 
education could be expanded to more middle-income families if the CCDBG 
reauthorization were to coordinate its policies with those of Head 
Start, also administered out of the Administration for Children and 
Families, in terms of funding and performance standards. Over the past 
decade, there have been innovative models, where both childcare and 
Head Start funding were supporting early childhood centers that 
benefited more children in terms of financial support and providing a 
better learning environment as a result of the childcare programs not 
only meeting licensing standards but adopting the more stringent Head 
Start performance standards. These models meet the test of expanded 
access and higher quality. CCDBG reauthorization could turn these 
integrated models into business as usual. This approach should be 
coupled with a requirement to not only allow States to access of 
Temporary Assistance to Needy Families (TANF) funds for childcare 
subsidy, but to require that, at a minimum, 10 percent of the State's 
TANF funds be reserved for childcare subsidy. Such an approach would 
integrate the school readiness mission of a childcare/Head Start model 
with the family support model of all the TANF programs.
  the key is a qualified workforce and continuous program improvement
    The final point is reserved for the quality component of the CCDBG. 
Each State must set-aside, at a minimum, 4 percent of the State's 
allocation for quality initiatives. Maryland's set-aside is slightly 
higher and it has shifted the majority of these resources to workforce 
development and continuous program improvement. The strategy was to 
reverse a trend observed at the beginning of the last decade, when 
talented and qualified providers were exiting the field, creating high 
turnover and a depleted workforce in childcare. At the same time, 
Maryland established a number of initiatives to improve the overall 
quality of licensed childcare programs. Quality set-aside funds of the 
CCDBG included accreditation support for childcare programs to become 
accredited. For instance, in 2001 only a couple dozen childcare 
programs were accredited, thereby meeting standards of high quality. 
Today, almost 540 childcare programs are State or nationally 
accredited. At the same time, childcare workers were encouraged to 
enroll in the State's childcare credentialing program, a career ladder 
and professional development program for childcare professionals, to 
improve their qualifications through training and post-secondary course 
work and degree achievement. Prior to the transfer of childcare to 
MSDE, only 6 percent of childcare workers joined the credentialing 
program. Today, almost 20 percent are enrolled in it, and the numbers 
are growing. The CCDBG quality improvement component is providing 
funding for credentialing incentives such as compensation bonuses and 
training vouchers. The CCDBG reauthorization should refocus the current 
quality set-asides and earmarks with a stronger emphasis on workforce 
development and continuous program improvement, including a requirement 
for States to establish performance benchmarks in those areas.
    Maryland, like other States, navigates within the confines of what 
is being provided in terms of funding, and Federal and State 
requirements. The CCDBG, as it currently exists, has many positive 
features--it offers flexibility, it has become a reliable, yet 
underfunded resource, and States receive technical support from the 
agency that administers it. But, from a State's perspective, it does 
not exist in isolation. As State pre-kindergarten and Head Start 
programs strive to stress the quality of early education, the CCDBG 
must follow. Many States are in the process of reorganizing their 
governance of early childhood education and consolidating all programs 
and funding streams into one agency. One of the most important things 
the reauthorization of the CCDBG can do is to initiate such a process 
at the Federal level. Within the context of appropriating more adequate 
funding, this would mean joint and blended funding to increase 
coordination between childcare, Head Start, and TANF, resulting in 
improved access to quality early education and care for the children of 
working parents.
    The first rule of order should probably be a reorganization of the 
existing programs to allow for a more streamlined and consistent 
support for children and their families. The reauthorization of the 
CCDBG can play a historic role in this effort.
    I thank you for the opportunity to speak before you and I am 
available for questions.

    The Chairman. Thank you very much, doctor.
    Mr. Acord.

STATEMENT OF PHILIP ACORD, EXECUTIVE DIRECTOR, CHILDREN'S HOME, 
                        CHATTANOOGA, TN

    Mr. Acord. Madam Chairperson, the Children's Home has been 
serving children in our community for over 140 years. On any 
given day we have responsibility for about 700 children.
    You have to really look back to appreciate the tremendous 
impact CCDBG has made and to understand how the economic 
downturn has challenged families and children. I was on the 
State advisory committee back in 1990. We spent hours trying to 
figure out how to serve the most children and still improve the 
childhood education community services. We were really excited 
about subsidy for those families that could only afford to pay 
$25 or $30 a week because most of our budget's made up of only 
one source of revenue, parent fees. These new dollars helped us 
provide our staff with benefits, helped us increase our 
salaries above the minimum wage. Funds were going to help us 
recruit more qualified staff, enable us to purchase current 
curricula for classrooms and upgrade equipment and materials.
    Using quality set-aside funds, our State started the 
Tennessee Early Childhood Training Alliance, providing all 
staff entering the field 30-clock hours of training in early 
childhood development. The State also increased the amount of 
annual training required and made it available to the early 
childhood education community.
    During good economic times, the State expanded parent 
access. Over the first 10 years, lots of early childhood 
education programs sprung up across the State, many of them 
adding infant care and toddler care, school-age care, in 
addition to the 3- and 4-year-old care, all possible because of 
CCDBG.
    Tennessee faithfully conducted their annual market survey 
and for a time reimbursed at the 75th percentile. Families who 
needed it received subsidies. With CCDBG, the State also 
focused on quality, licensing standards improvement, the ratio 
of child-to-teacher fell so each child got more individual 
attention from their teacher. The State lowered the caseloads 
of licensing counselors, increased monitoring to six 
unannounced visits annually.
    There were concerns because funding for quality initiatives 
also came from the CCDBG subsidy dollars that helped parents 
pay for our service. But we also understood that every low-
income child needed and deserved access to good early childhood 
education services and licensing was the foundation for that, 
for that quality.
    Later, Tennessee developed a quality rating and improvement 
scale. As an incentive to programs serving CCDBG children, the 
State paid more if a program achieved a higher rating. 
Unfortunately, the rate we now receive is below, even with that 
increase, is below the 75th percentile.
    But when the economy turned, families' needs increased and 
State and Federal resources fell short. My program, which 
serves about 225 families, went from having 120 of those 
families receiving subsidy to less than 50 of those families 
receiving subsidy. Programs that served significant numbers of 
low-income children had to close their doors because they 
couldn't sustain themselves without a certain number of 
subsidized children.
    With the economic downturn, much progress has been lost. 
The State reduced its reimbursement rates, programs had to turn 
away families or cut corners. In Tennessee reimbursement rates 
fell dramatically, as they did in other States. Tennessee now 
provides no childcare assistance for low-income families not 
receiving TANF, turning away those working poor families trying 
to get subsidy.
    It's hard on all of us, but it's especially hard on the 
parents. I have parents in my office crying literally because 
they can't get a CCDBG subsidy and they can't afford to pay my 
fee, which is on a sliding fee scale according to their income. 
Lots of families had their pay cut and without a subsidy they 
could not afford childcare.
    You can see that the impact of reduced resources on the 
State's early childhood education system. Tennessee has about 
half the number of regulated early childhood education programs 
now as it did 6 years ago. That's the cumulative effect of 
fewer families receiving subsidies, reduced reimbursement rate, 
less grant money for program improvement, fewer training 
dollars, and less money for support services. Although funding 
was reduced, the quality requirements remain in place, meaning 
our costs did not decline.
    At my agency, I've had to make dramatic adjustments. We've 
looked to the United Way, local government, in order to 
maintain the quality of our services and still make it 
available to low-income families that could no longer access 
CCDBG. We're now subsidizing the fees of those parents, but our 
agency is not typical. Most agencies are not able to do that 
and generate those funds.
    We also entered into collaborations with Head Start and 
Early Head Start, as well as our State pre-K program. We took 
on five smaller agencies that were in danger of going out of 
business that served 100 percent below-poverty children to help 
keep them functioning in our community.
    So it's difficult to identify the improvements with limited 
resources, but, looking ahead, the eligibility issue is big. It 
just needs to be annual. We could allow them to also access it 
through phone or online. We could help parents by providing 
childcare while they're doing job search. We could allow them 
to average their income. We could ask States to direct more of 
their resources to supplement CCDBG, especially since 
discretionary CCDBG requires no State matching requirements. 
States also could be encouraged to promote collaboration 
between childcare, Head Start, and State-funded kindergarten 
and increase the use of contracts, especially for underserved 
populations. It's a tough question to address without resources 
and disrupting present families receiving CCDBG.
    If we're serious about economic development, then we should 
understand that CCDBG is one of the best economic development 
programs out there. It allows parents to work, it helps support 
an early childhood education workforce of nearly 2 million 
nationwide, and it gives countless poor children access to 
quality early childhood education, services which will equip 
them with the skills to be successful in school and ultimately 
successful in life as a contributing member of a skilled 
workforce.
    Thank you.
    [The prepared statement of Mr. Acord follows:]
                   Prepared Statement of Philip Acord
                                summary
Principle Question To Be Addressed
    What are the critical improvements that can be made to CCDBG:

    1. With limited fiscal resources.
    2. Without substantially disrupting families currently receiving 
CCDBG.

    How has CCDBG helped my programs in Chattanooga, TN and the impact 
CCDBG has had on the Early Childhood Education Community and the 
families and children receiving subsidy since 1990.

    <bullet> Added revenue to programs to help us serve low-income 
parents and children using a sliding fee scale.
    <bullet> Allowed programs to initially increase salaries and add 
benefits, at least while rates were being maintained or increased.
    <bullet> Provided basic training for new employees just entering 
the field and ongoing training for those already employed.
    <bullet> Provided funds needed to purchase curricula and materials 
to enhance early childhood education instruction.

    Discuss the three areas that CCDBG forced us to evaluate in 
relation to the funds CCDBG allocated to Tennessee.

    <bullet> Accessibility

        <bullet>   Encouraged expanded hours of care--my program could 
        offer 24-hour care.
        <bullet>  Provided increased rate for children under 3 and 
        support for school-age care.

    <bullet> Affordability

        <bullet>  Even with new funds, we faced the challenge of 
        helping low-income parents afford care, while balancing:

          <bullet>  at what income level the families maintained their 
        eligibility for assistance,
          <bullet>  the size of parents' co-payments so those receiving 
        a subsidy could still afford care, and
          <bullet>  the setting of rates that allowed providers to 
        remain in business.

    <bullet> Quality

        <bullet>  In Tennessee some of the CCDBG funds were used to 
        hire additional licensing counselors.
        <bullet>  Tennessee conducts six unannounced visits annually of 
        all regulated programs, the most in the Nation.
        <bullet>  Tennessee used CCDBG funds to develop and implement a 
        QRIS system for all regulated programs, and we are one of only 
        a few States that require all regulated programs to go through 
        the QRIS annually.

          <bullet>  Tennessee pays 20 percent above Market Rate for 
        those who have a Three Star rating; however, even with that 
        increase we are well below the 75th percentile.

    Review the current State of CCDBG funds available verses the demand 
for assistance in my programs and in Tennessee.

    <bullet> Fewer parents have access to CCDBG subsidy at a time when 
their pay has been cut due to the economic downturn.
    <bullet> While demand has increased, Tennessee has frozen intake 
for subsidies for low-income families who are not receiving TANF, 
transitioning off TANF, teen parents in high school, and foster 
children.
    <bullet> Agencies serving significant numbers of low-income 
children have gone out of business because they have lost the families 
receiving subsidies.
    <bullet> CCDBG subsidy rates have declined. In Tennessee rates have 
not been at the 75th percentile since 2001. According to the National 
Women's Law Center, the number of States paying at the 75th percentile 
has declined from 22 in 2001 to 3 in 2011.

    What has the Children's Home/Chambliss Shelter done in response to 
the reduction in CCDBG funding?

    <bullet> Entered into collaborations and partnerships with Head 
Start and with our State pre-kindergarten program.
    <bullet> Increased our fundraising efforts.
    <bullet> Worked with United Way to increase support.
    <bullet> Applied to Local Government for funding.
    <bullet> Reorganized our agency and made painful adjustments to 
staff work load.
    <bullet> Gone 3 years without a salary increase for staff.

    Closing Comment

    In these incredibly tight fiscal times it is challenging to improve 
CCDBG with limited resources without disrupting care for low-income 
families and their children.

    <bullet> CCDBG offers us the funding to help families pay for care, 
support to improve the quality of care provided, and support to run our 
program.
    <bullet> We could help families and children by creating a 12-month 
eligibility redetermination process that might assist in reducing State 
administrative costs.
    <bullet> Some States provide contracts to increase stability for 
partnership programs. We could encourage States to create policies and 
guidelines to promote collaboration between childcare, Head Start, and 
pre-kindergarten.
    <bullet> Direct States to focus more of their resources to 
supplement CCDBG since discretionary CCDBG funds have no matching 
requirement.
    <bullet> My State might reduce the number of its unannounced 
visits, but that is not a national strategy.

    The bottom line is that for over 20 years, CCDBG has been a 
lifeline for millions of low-income families and their children. These 
funds allowed parents to work and children to access quality early 
childhood education programs. My board of directors and staff 
understand that CCDBG is about giving low-income children access to 
quality ECE programs which will equip them with the skills they need to 
be successful in school so that they can become part of the skilled 
workforce we need to keep America competitive in the Global 
marketplace.
                                 ______
                                 
    My name is Phil Acord and I am the president/CEO of the Children's 
Home/Chambliss Shelter in Chattanooga, TN. The Children's Home has been 
serving children in Chattanooga and surrounding area for over 140 
years. On any given day we have responsibility for the care and 
education of over 700 children and serve well over a 1,000 children 
annually. I have been with this organization since 1971.
    The question I have been asked to answer is ``what are the critical 
improvements that can be made to CCDBG, with limited resources and 
without substantially disrupting families currently receiving CCDBG.''
    I was on the State advisory committee back in 1990 when we received 
the CCDBG Regulations. We spent hours reading the regulations and 
trying to figure out how we could serve the most children and improve 
the early childhood education community. For most of us that operated 
programs that served predominantly low-income children we were so 
excited about receiving a subsidy for those families that could only 
afford to pay us $25 or $30 a week. Most of our budgets had only one 
source of revenue and that was parent fee payments. These new dollars 
were going to allow us to provide our staff with benefits and maybe 
even increase their salaries above minimum wage. Not only were these 
funds going to help us recruit more qualified staff but we were also 
able to purchase curriculums for our classrooms and upgrade our 
equipment and other materials.
    The State of Tennessee took some of the quality funds and started 
the Tennessee Early Childhood Training Alliance, which provided all new 
staff entering the field a 30-clock hour training program on early 
childhood development. They also increased the amount of annual 
training required and made that training available to the ECE 
community.
    Over the next 10 years lots of new programs sprung up across 
Tennessee providing ECE services in rural areas. Many programs expanded 
their services to serve infants and toddlers in addition to the 3 and 4 
years they served. This was all made possible because of CCDBG funds. 
Poor parents could not afford to pay the cost of care for children 
under three but Tennessee paid a higher reimbursement for younger 
children. Tennessee also was faithful to do an annual Market Survey and 
reimbursed at the 75th percentile of that rate.
    During the good economic times Tennessee was able to provide a 
CCDBG subsidy to almost every low-income parent that applied. The State 
then started focusing on the quality issue. They upgraded their 
licensing standards and reduced the ratio of child to teacher. They 
lowered the case loads of the licensing counselors and increased the 
monitoring to six unannounced visits per year. We all were concerned 
about these changes because it took away from the funds we had to 
improve our services, our salaries and our facilities. But we also 
understood that every low-income child deserved access to a good 
quality ECE program and that a poor quality program was actually 
harmful to a young child's development.
    The next step Tennessee took, in the name of quality, was to 
develop a Quality Rating and Improvement Scale that took a closer look 
at the quality of a program in addition to the licensing standards. As 
an incentive to programs serving CCDBG children the State agreed to pay 
above the subsidy market rate if a program achieved a one-, two- or 
three-star rating.
    Then the economy had its' downturn and we began to experience a 
reduction in the number of parents that could get a subsidy. My program 
which serves about 225 families went from 120 of those families on 
subsidy to less the 50 parents on subsidy. Programs that served 
significant numbers of low-income children started to close their doors 
because they couldn't sustain themselves without a certain number of 
subsidized children.
    We had worked hard to build an infrastructure that supported 
quality ECE programs and gave low-income children access to quality ECE 
services. The State stopped doing their Market Surveys and could no 
longer pay at the 75th percentile. Next they froze intake for those 
poor parents trying to get a subsidy allowing only TANF clients, teen 
parents in high school and foster children access to the CCDBG-funded 
subsidy.
    I would have parents in my office crying because they couldn't get 
a CCDBG subsidy and they couldn't afford to pay my fee which is based 
on a sliding fee scale according to the parent's income. A lot of my 
parents had their pay cut and without a subsidy could not afford to pay 
for care.
    Tennessee has about half the number of regulated programs they had 
6 or 7 years ago. Although the CCDBG funds were decreased the quality 
requirements they had put in place continued. There was less grant 
money for program improvement, less money for training and less money 
for support services.
    CCDBG totally changed the Early Childhood Education community in 
Tennessee, Chattanooga and at my agency and the programs we managed. 
Because we did not want to reduce the quality of our services we began 
to raise money to subsidize the fees of the parents that could not get 
on CCDBG. We worked with the United Way to obtain additional funding, 
we appealed to local government for assistance and we began to do 
fundraisers. In order to maintain the quality of our services and still 
make it available to the low-income families, that could no longer 
access a CCDBG subsidy, we were now subsidizing the fees of those 
parents.
    We also entered into collaborations with Head Start and Early Head 
Start as well as pre-K programs to help off-set our cost of operation. 
We also took on five small agencies that were in danger of going out of 
business without our help. Some of those programs served 100 percent 
low-income children.
    I listed in my outline some of the things that would streamline 
some of the CCDBG requirements in Tennessee. Like only requiring 
parents to go through eligibility redetermination annually, allow them 
to do it by phone or on line. In Tennessee we might have to cut back on 
some of our quality monitoring to put more money into the accessibility 
pot. Ask States to direct more of their resources to supplement CCDBG. 
Continue to encourage Head Start, pre-K and the Early Childhood 
Education community to collaborate and partner around shared space, 
monitoring and training.
    To be honest with you it is a really hard problem to address 
without adding more resources or disrupting the present families 
receiving CCDBG subsidy.
    If we are serious about economic development then we should 
understand that CCDBG is one of the best economic development programs 
the Federal Government has out there. It allows parents to work, it 
helps support an ECE workforce of approximately 1.5 million nationwide 
and it is giving poor children access to quality early childhood 
educational services which will equip them with the skills to be 
successful in school and ultimately successful in life as a 
contributing member of a skilled workforce.
    Presently only one out of every six poor children that need a CCDBG 
subsidy has assistance. We don't know were the other five children are 
and what type of preparation they are receiving as they prepare to 
enter school. CCDBG is an investment in the future of America, we need 
all six of those children to be successful in school and ready to be 
members of America's workforce of the future.
    Thank you for giving me the opportunity to address your question 
and to share the story of the Children's Home and its' quest to provide 
quality early childhood education services to the children of 
Chattanooga, TN . . . home of Senator Bob Corker.

    The Chairman. Thank you.
    Ms. Singerman.
    But before you say a word, I know Senator Hagan wanted to 
join in the chorus of welcoming you.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Senator Mikulski, Madam Chairman.
    I know Senator Burr has already sung your praises, but let 
me just add a few things. One, we're delighted that you're here 
today. I know that you've been in your position for about 15 
years as president of the Child Care Resources, Inc. And I know 
she did spend quite a bit of time, Senator Mikulski, in your 
great State, too. And all the while, she has continued to be 
involved in a variety of early care and education policy 
development and planning committees at our local and State 
level.
    She really knows well that North Carolina emerged as the 
leader in the area of early education and childcare after 
making tremendous strides in the mid- to late-nineties, during 
a time when our State was at the bottom of many of the national 
rankings related to the health and well-being of children and 
at that point in time, one of the worst quality childcare in 
the country.
    But State leaders recognized that if they were going to 
have a chance at preparing students for the future, the wisest 
investment that we could make was in the early years of a 
child's life. In the year 2000, when our State first 
implemented our quality rating and improvement system, at that 
time only 10 percent of all children were in high quality 
childcare programs. Today 64 percent are enrolled in a high 
quality education program. So with hard work and the commitment 
of leaders like Ms. Singerman, even despite budget cuts, North 
Carolina continues to be a national model for quality early 
childhood education.
    I know that providing early quality childhood education 
takes commitment, and we've got work to do. But I think that 
you will agree that our State serves as an example that it can 
be done.
    So thank you very much for being here and we look forward 
to your testimony.
    The Chairman. Ms. Singerman.

STATEMENT OF JANET SINGERMAN, PRESIDENT, CHILD CARE RESOURCES, 
                      INC., CHARLOTTE, NC

    Ms. Singerman. Good morning. I want to thank the chairwoman 
of the subcommittee, Senator Mikulski, and the Ranking Member 
of the subcommittee, Senator Burr, for inviting me to testify 
today. I'm proud to say, Senator Mikulski, that I was your 
constituent when I lived in east Baltimore, and for the past 15 
years I've been in North Carolina and I'm also proud to say 
that I've been Senator Burr's constituent and Senator Hagan's 
constituent. How lucky am I today that you're all on this 
subcommittee. So I appreciate the opportunity and I'm honored 
to speak today. I look forward also to any questions you may 
have.
    Child Care Resources is one of three agencies that comprise 
North Carolina's Child Care Resource and Referral Council, and 
that council leads our statewide high quality childcare 
resource and referral system. Last year this system helped more 
than 37,000 families understand how to better discern and where 
to find quality childcare and early care and education programs 
for their children. We provided professional development and 
training to 32,500 childcare practitioners and we provided 
quality improvement and technical assistance supports and 
consultation to nearly 10,000 pre-school and school-age 
classrooms across the State. We, in partnership with the North 
Carolina Division of Child Development, are at the center of 
quality childcare in North Carolina.
    I'm also proud to say, as Senator Burr and Senator Hagan 
have referenced, that North Carolina's advances in early care 
and education provide a model for our Nation. That doesn't mean 
the system is perfect. We work continuously day in and day out 
to improve it.
    And just like Rome, we didn't build our system in a day. 
Through continuing State investment and CCDBG quality funds, 
we've put into place an infrastructure to achieve quality early 
care and education, and that infrastructure, the pillars of 
that infrastructure, include our childcare resource and 
referral system, include Smart Start, which is of course our 
nationally recognized initiative to improve the school 
readiness of children by addressing early care and education 
issues, family support issues, and child health concerns.
    We also put into place a tiered quality rating and 
improvement system, which is embedded in licensure, one of four 
States to embed this in licensure, and continues to be refined 
as the quality of our State's childcare system advances.
    Attached to that, we put in a tiered approach to childcare 
subsidy reimbursement, so that the State reimbursement rate 
pays more for programs that are delivering higher quality 
services to low-income children.
    We also have invested in workforce supports, such as Teach 
Early Childhood Scholarship Program and the Child Care Wages 
Program, which is a workforce salary supplement initiative. We 
have early childhood associate degrees at all North Carolina 
community colleges and birth to kindergarten certification 
programs at 4-year colleges and universities. And we have NC-
pre-K, which is our public pre-kindergarten program, which is 
housed in public schools, in Head Start, and in four- and five-
star community-based childcare centers.
    So with no additional resources, increased access to 
quality care is at best unlikely without serving fewer 
children. North Carolina made that decision last year when the 
legislature, without an infusion of new funds, decided to 
restrict childcare subsidy access to higher quality and more 
costly three-, four-, and five-star childcare programs.
    I wish we had enough funding so that every eligible child 
could receive a subsidy and that that subsidy would provide 
access to quality care. Unfortunately, I think it's more a 
zero-sum game in the States and nationally. Absent additional 
resources, it is time for Congress to decide whether to serve 
children well or to merely serve more children. I believe we 
have a responsibility to ensure children are safe and in 
settings that promote their healthy development and early 
learning.
    Given the fiscal constraints within which this committee 
and this Congress is working, what's the minimum that should be 
done within the reauthorization of CCDBG? No. 1, I think we 
need to improve safety. We need to require those criminal 
background checks to exclude those who should not be in the 
business of providing childcare. And No. 2, we need to 
incorporate minimum health and safety protections for children. 
Not enough States do this.
    We need to improve the quality, and one way to do that is 
to raise the quality set-aside to 12 percent. You heard Linda 
Smith say that on average States are already spending around 12 
percent and the CCDBG only requires 4 percent to be spent. So 
we need to raise this because otherwise we leave that 4 percent 
and the current investment that exceeds 4 percent vulnerable to 
cuts. And we also need to work to achieve parity with the 
quality set-aside in Head Start over time.
    We need to strengthen the childcare workforce and require 
more initial and ongoing training and supports, to promote 
attainment of child development associate credentials, degrees, 
career advancement, and workforce retention.
    We need to make childcare safer by ensuring monitoring and 
conduct at least annual unannounced inspections, preferably 
more, and post the results, the monitoring reports from those 
inspections, on line to promote public transparency and 
informed consumption of childcare.
    Finally and importantly, we need to address subsidy rates. 
Absent additional funding, at a minimum let's ask the National 
Academy of Sciences to study the true cost of quality 
childcare, not the fees currently charged, but the true cost of 
quality childcare, and recommend options to develop a better 
financed system.
    Thank you.
    [The prepared statement of Ms. Singerman follows:]
                 Prepared Statement of Janet Singerman
                                summary
    Good morning. I want to thank the Chairwoman of the subcommittee, 
Senator Mikulski, and the Ranking Member of the subcommittee, Senator 
Burr, for inviting me to testify today. I am proud to say that I was a 
constituent of Senator Mikulski's for 14 years when I worked at the 
Maryland Committee for Children as the deputy director. For the past 15 
years, I have been president of Child Care Resources Inc. (CCRI), a 
nonprofit childcare resource & referral agency in Charlotte, and a 
constituent of Senator Burr's. I am honored to appear before the 
subcommittee and look forward to any questions.
    CCRI is one of three agencies that comprise the North Carolina 
Child Care Resource and Referral (CCR&R) Council, which leads our 
statewide high quality childcare resource & referral system. Last year, 
these agencies provided consumer education and referral to more than 
37,000 families; provided professional development to 32,500 childcare 
providers; and provided quality improvement technical assistance to 
nearly 10,000 preschool and school-age classrooms statewide. We are at 
the center of quality childcare in North Carolina.
    I am proud to say that North Carolina is a model for our Nation. 
That doesn't mean we are perfect; we continually work to improve. And, 
just like Rome, we did not build our system in a day. Through State 
investments and CCDBG quality money, we put in place an infrastructure 
to provide quality childcare:

    <bullet> a statewide childcare resource and referral system;
    <bullet> Smart Start--a nationally recognized initiative to improve 
the school readiness of children by addressing early care and 
education, family support and child health issues;
    <bullet> a tiered quality rating and improvement system which is 
embedded in licensure and continues to be refined as the quality of the 
State's childcare system advances;
    <bullet> a tiered approach to childcare subsidy reimbursement to 
pay more for higher quality programs;
    <bullet> Statewide investment in workforce supports such as 
T.E.A.C.H. Early Childhood (a teacher scholarship program) and Child 
Care WAGE$ (a workforce salary supplement program);
    <bullet> early childhood associate degree programs at all NC 
community colleges and Birth-Kindergarten certification programs at 4-
year colleges and universities; and
    <bullet> the public pre-kindergarten program now known as NC Pre-K 
which is housed in public schools, Head Start and 4- and 5-star 
community-based childcare.

    With no additional resources, access to quality care is not 
possible without serving fewer children. NC made that decision when the 
State decided to restrict subsidies to 3-, 4-, and 5-star care without 
an infusion of funds. I wish we had enough funding so that every 
eligible child could receive a subsidy and that the subsidy would 
provide access to quality care. Unfortunately, it is more a zero-sum 
game in the States and nationally. Absent additional resources, it is 
time for Congress to decide whether to serve children well or merely 
serve them. I believe we have a responsibility to ensure children are 
safe and in settings that promote their healthy development and early 
learning. Therefore, at a minimum, CCDBG reauthorization should 
include:

    <bullet> Improving Safety--(1) require criminal background checks 
to exclude those who should not be in the business of providing 
childcare; and (2) incorporate minimum health & safety protections for 
children (not enough States do this).
    <bullet> Improving Quality--raise the Quality Set-Aside to 12 
percent (achieve Head Start parity over time).
    <bullet> Strengthening the Workforce--require more training and 
supports to promote attainment of CDAs, degrees, career advancement and 
workforce retention.
    <bullet> Ensuring Monitoring--conduct at least annual unannounced 
inspections, preferably more; post monitoring reports online for public 
transparency.
    <bullet> Addressing Subsidy Rates--at a minimum, ask the National 
Academy of Sciences to study the true cost of quality childcare (not 
the fees currently charged) and recommend options to develop a better 
financed system.
                                 ______
                                 
    Good morning. I want to thank the Chairwoman of the subcommittee, 
Senator Mikulski, and the Ranking Member of the subcommittee, Senator 
Burr, for inviting me to testify today. I am proud to say that I was a 
constituent of Senator Mikulski's when I lived in east Baltimore and I 
am currently Senator Burr's constituent. I am honored to appear before 
this subcommittee and look forward to sharing what I know, present my 
experiences, and respond to any questions that members may have.
    As president of Child Care Resources Inc. (CCRI), a private, non-
profit childcare resource and referral agency based in Charlotte, NC, I 
have on-the-ground experience with many facets of the early learning 
and subsidized childcare world. CCRI works in Mecklenburg, Cabarrus, 
Union, Rowan and Stanly Counties and is celebrating its 30th year of 
serving children, families, early care and education and school-age 
childcare practitioners and programs, government and employers 
throughout the Central Carolinas. CCRI is also one of three 
organizations that have responsibility for leading and coordinating 
childcare resource and referral services across the State under 
contract to the North Carolina Division of Child Development and Early 
Education.
    Prior to joining CCRI in 1997, I worked for 14 years at the 
Maryland Committee for Children, a statewide child advocacy 
organization based in Baltimore, and served as its deputy director and 
as statewide project manager for the Maryland Child Care Resource 
Center Network. Additionally, after several years on the board of 
directors of the National Association of Child Care Resource & Referral 
Agencies (NACCRRA), I was elected to the position of president and 
served in this role from 2004-6.
    At local, regional and State levels, Child Care Resources Inc. 
works to increase access to, improve the quality of and help families 
better afford the cost of early care and education and school-age 
childcare programs. CCRI's fiscal year 2012 operating budget totaled 
$7.4 million and, as childcare subsidy administrator for Mecklenburg 
County, CCRI additionally administered in excess of $44 million in 
childcare subsidy funding from Federal, State and local sources. These 
funds enabled a monthly average of 7,756 children to enroll in higher 
quality childcare and their families to be gainfully employed or in 
training. While the amount of childcare subsidy funds administered by 
CCRI is larger than any other county in North Carolina, demand for 
childcare subsidies historically far surpasses available funds, 
resulting in an ever present and growing waiting list of children whose 
parents are eligible for this support, but for whom there are 
insufficient funds to serve. For all but 2 weeks of the 15 years I have 
served this organization, CCRI has had a waiting list for childcare 
subsidy. Currently, this list totals 4,146 children and non-TANF 
families typically remain on the waiting list for 2 or more years.
    Last year, North Carolina's statewide childcare resource and 
referral system (including CCRI) provided:

    <bullet> consumer education and referral to the families of more 
than 37,000 preschool and school-age children (30,000+ children ages 
birth to 5 and 7,000+ school-age children) who were seeking information 
about early care and education and school-age childcare options that 
met their needs, preferences and ability to pay;
    <bullet> professional development to an unduplicated count of 
32,502 childcare practitioners (72 percent of the entire workforce); 
and
    <bullet> quality improvement/maintenance technical assistance 
supports to more than 9,500 preschool and school-age classrooms 
statewide.

    I have been in this field since 1983--long enough to have been part 
of the early childhood advocacy community that pushed for the original 
Child Care and Development Block Grant, which as you may know, was 
first called the Act for Better Child Care or the ABC bill. In the 16 
years that have lapsed since CCDBG was last reauthorized, we have 
learned a great deal more about the brain architecture of young 
children, the effects of toxic stress on young children, the impact of 
high quality childcare on children's readiness for school, and the 
unparalleled return that investments in early care and education yield, 
particularly for children with risk factors such as poverty.
    We also know more now about the differences between our State's 
childcare systems. We have the benefit of childcare studies which 
review, on a State by State basis, current requirements for childcare 
centers and family childcare homes. As you know, State laws vary 
greatly. And, overall, much improvement is needed. I am hopeful that 
this committee will write an Act for Better Child Care. We need it.
    Of course, we need significantly greater investment in childcare 
and early education than is currently available and I am told that the 
subcommittee is considering reauthorizing CCDBG without such additional 
investment. While I support reauthorization, I am deeply concerned that 
the current economic environment and national priorities will not 
provide sufficient additional funding to significantly increase access 
to high quality childcare, particularly for poor families.
    In NC, 49.4 percent of all children are living in poverty, and 
there are 373,968 children ages birth through kindergarten entry whose 
families are low income. The depth of poverty and necessity to enable 
more children to have access to quality programs in urban areas is 
great. At the same time, 85 of North Carolina's 100 counties are 
considered rural. Many families have lived in poverty for decades. We 
need to figure out how to better meet the childcare needs of families 
across our State and Nation--in both urban and rural areas alike.
    Even in times of scarcity, our Federal Government can and should 
put forward legislation that can improve the uneven array of childcare 
that is available to families across our Nation. This hearing, entitled 
``CCDBG Reauthorization: Helping to Meet the Child Care Needs of 
American Families,'' is aptly named. What do families need?

    <bullet> First, with the number of women in the workforce today, 
childcare is a vital workforce support, The fact of the matter is that 
childcare as a workforce support has largely been where the Federal 
Government and the States have focused.
    <bullet> Second, with the number of hours that children spend in 
childcare (on average 35 hours per week), childcare is a critical 
setting for early learning--and we can no longer ignore this fact.

    We need to ensure that children are both safe and in settings that 
promote their healthy development and early learning. We should not 
continue to set goals to improve school readiness, reduce the 
achievement gap, and increase high school graduation rates while 
simultaneously ignoring the role that childcare settings play in the 
development and school readiness of children. These aren't separate 
silos; these are points along the spectrum of development. Children do 
not begin learning at age 4 when most State pre-kindergarten programs 
begin. As every parent knows, children begin learning at birth--and for 
most children, childcare is a reality--part of daily life before school 
entry.
    I am proud to say that North Carolina's advances in early care and 
education provide a model for the Nation. The system isn't perfect--
quality improvement didn't and doesn't happen overnight and it is not 
easy. But we have done a lot of things right and we work, every day, to 
continuously improve. What are the pillars of the North Carolina system 
and how did we get there? Our path included the development of:

    <bullet> a statewide childcare resource and referral system;
    <bullet> Smart Start--a nationally recognized initiative to improve 
the school readiness of children by addressing early care and 
education, family support and child health issues;
    <bullet> a tiered quality rating and improvement system which is 
embedded in licensure and continues to be refined as the quality of the 
State's childcare system advances;
    <bullet> a tiered approach to childcare subsidy reimbursement which 
pays more for services rendered at higher quality programs;
    <bullet> Statewide investment in workforce supports such as North 
Carolina's T.E.A.C.H Early Childhood (a teacher scholarship program) 
and Child Care WAGE$ (a childcare workforce salary supplement program) 
that collectively help teachers acquire higher education, improve their 
compensation, and remain in the field;
    <bullet> early childhood associate degree programs at all NC 
community colleges and birth-kindergarten certification programs at 4-
year colleges and universities; and
    <bullet> the public pre-kindergarten program now known as NC Pre-K 
which is housed in public schools, Head Start and 4- and 5-star 
community-based childcare.

    For the purposes of this hearing, I want to emphasize that no one 
of these initiatives, by itself, is responsible for North Carolina's 
tremendous progress and advances in quality. Rather, the quality of our 
early care and education system has resulted from the multiplier effect 
that these varied strategies, independently and braided, have achieved. 
So, please allow me to highlight a few.
       tiered quality rating improvement & reimbursement systems
    North Carolina was one of the first States to develop a Tiered 
Quality Rating and Improvement System (TQRIS) for childcare programs. 
Ours is one of only four States (Michigan, North Carolina, Oklahoma, 
and Tennessee) that is embedded in childcare licensing, which means 
that licensed programs participate. This is a significant factor in 
strengthening the quality of care and has been critical for both 
consumers and providers. Parents are able to access objective 
information about a program's quality and about what constitutes higher 
quality childcare. Armed with this information, most consumers demand 
higher quality programs. In turn, the market responds as providers use 
their scarce resources to invest strategically in areas that (according 
to research and the State's TQRIS) result in improved quality and 
contribute to higher star ratings.
    Most quality rating systems are voluntary. While the number of 
quality rating childcare systems is growing, the number of childcare 
programs that actually participate in such systems in most States is 
quite small compared to the total number of licensed programs. That's 
why having licensing as the bottom rung is really important. To 
participate in a quality rating system, a program should be licensed. 
As programs exceed licensing standards, they should receive higher 
ratings.
    According to the 2012 State Child Care Plans submitted to the 
Department of Health and Human Services (HHS), 28 States have statewide 
quality rating systems, 7 States are in a pilot or test phase, and 
another 14 States are in the development phase. North Carolina is one 
of only a few States that set higher subsidy reimbursement rates based 
on the tiers of our quality rating system. North Carolina integrates 
the two systems. We believe this creates an incentive for childcare 
programs to continue to advance to higher star levels. And, we believe 
it helps low-income families access higher quality care.

    <bullet> In 2000, when North Carolina implemented TQRIS, 10 percent 
of all children (15,755) enrolled in regulated care were in high 
quality programs (4 or 5 star programs). In June 2012, that percentage 
has increased to 64 percent (164,829) of all children enrolled in 
regulated care in high quality programs (4 or 5 star programs).
    <bullet> In State fiscal year 2006, 45 percent (70,328) of low-
income children in North Carolina, whose care was paid for using 
Federal funds, were enrolled in high quality programs. In State fiscal 
year 2012, that percentage has increased to 66 percent (85,351).
    The table below shows the growth in higher quality care between 
2000 and 2012, showing while few programs were high quality in 2000, 
most are on the road to higher quality today.

                          Licensed Child Care by Star Level by Progression from 2000-12
----------------------------------------------------------------------------------------------------------------
                      Child Care Centers                                     Family Child Care Homes
----------------------------------------------------------------------------------------------------------------
                 Star Levels                    2000     2012             Star Levels             2000     2012
----------------------------------------------------------------------------------------------------------------
1 star......................................    1,470      208  1 star........................    5,176      621
2 stars.....................................       71      120  2 stars.......................        1      548
3 stars.....................................    1,272    1,008  3 stars.......................       96      715
4 stars.....................................      234    1,179  4 stars.......................       53      653
5 stars.....................................       94    1,725  5 stars.......................       39      393
----------------------------------------------------------------------------------------------------------------
Source: NC Department of Health and Human Services.

    In July 2011, despite the very difficult economic environment, 
North Carolina's General Assembly passed legislation to restrict the 
use of childcare subsidies to 3, 4, or 5 star programs. This means that 
childcare programs with only a 1 or 2 star rating will no longer be 
eligible to serve children receiving childcare subsidies. Clearly, 
higher quality childcare is more expensive, so this decision was not 
reached lightly. But the legislature decided that it was better to 
ensure that children have access to higher quality care than to serve 
more children poorly. As a result, there are now only 1,497 remaining 
one and two star childcare centers and homes in NC's childcare system.
    While I wish we had sufficient funds to ensure that all children 
who were eligible could both receive a childcare subsidy and that the 
subsidy could pay for high quality care, given current fiscal 
realities, that was not a goal we could reach.
                              smart start
    Smart Start was created in 1993 as a public/private partnership 
between State government and local communities to advance a high 
quality, comprehensive, accountable system of care and education for 
every child beginning with a healthy birth. Independent, private 
organizations work in all 100 North Carolina counties through the North 
Carolina Partnership for Children, Inc., and 77 local partnership 
organizations. Smart Start's goal is to improve children's early care 
and education programs so that children are safe, healthy and provide 
opportunities for children to learn skills they need to start school 
ready to succeed; provide parents with tools that support them in 
raising healthy, happy, and successful children; and ensure that 
children have access to preventive health care. Smart Start delivers 
outcomes by giving communities local control to determine the best 
approach to achieving them and ensures accountability by tracking local 
& State outcomes using a Performance Based Incentive System (PBIS)--a 
comprehensive collection of 24 population-level indicators that track 
healthy conditions for young children). North Carolina is the only 
State to institute population outcomes for young children in every 
county.
                           workforce supports
    T.E.A.C.H Early Childhood North Carolina, implemented in 1990 by 
Child Care Services Association, helps the early childhood workforce 
afford college, improve their compensation and remain in a field 
notorious for turnover (estimates range nationally from 25-40 percent). 
In fiscal year 2011, T.E.A.C.H. helped more than 4,100 NC childcare 
providers increase their education through receipt of a scholarship 
(which covers partial costs for tuition, books and travel, ``release 
time,'' and requires a bonus or raise upon completion of a minimum 
number of credit hours). Individuals who receive a T.E.A.C.H. 
scholarship must remain in their sponsoring program for an additional 
year. In fiscal year 2011, 79,041 of North Carolina's children 
benefited from consistent care provided by a teacher that was better 
educated as a result of T.E.A.C.H. In fiscal year 2011, 22 States and 
the District of Columbia provided T.E.A.C.H. scholarships; 18,478 
scholarships were awarded, 125,742 credit hours were completed by 
recipients, and 9,608 childcare, pre-kindergarten and Head Start 
employers sponsored T.E.A.C.H recipients.
    The Child Care WAGE$ Project, also an initiative of Child Care 
Services Association, enables individuals working in 59 NC counties to 
receive a salary supplement tied to the level of their attained 
education and their commitment to their childcare program. In fiscal 
year 2011, 6,792 childcare professionals working in 2,555 different 
programs (serving approximately 90,000 children) received WAGE$ salary 
supplements which are paid every 6 months as long as individuals remain 
in their programs. This program is currently licensed and operating in 
three additional States.
    In 1993, only 28 of NC's 58 community colleges offered an 
associate's degree in early childhood education. By 1998, all 58 
colleges offered this degree, which meant statewide individuals could 
have access to community college early childhood coursework.
    Training and technical assistance is readily available to childcare 
programs across the State through NC's childcare resource and referral 
system, which partners with practitioners to help them increase 
knowledge and improve skills and with program administrators and owners 
to help them develop and implement program-wide quality improvement 
plans to achieve and maintain higher star ratings. Funding for these 
services comes from CCDBG, Smart Start and local public and private 
sector investment.
                        public pre-kindergarten
    In 2001, North Carolina implemented its State-funded pre-
kindergarten program (NC Pre-K, formerly More at Four), which is ranked 
as one of the top 10 pre-K programs in the country by the National 
Institute for Early Education Research (NIEER). North Carolina's pre-K 
program differs from many State pre-K programs in that childcare is 
embedded. To serve children through the NC Pre-K program, a licensed 
childcare program must maintain a 4- or 5-star license and meet 
additional high-quality standards that include a Birth-Kindergarten 
licensed teacher compensated at a level on par with public schools, 
smaller staff to child ratios and group sizes, and appropriate 
curriculum and instructional assessment. About one-half of children 
receiving North Carolina Pre-K funding are served in childcare and Head 
Start programs.
                           background checks
    North Carolina has long had a strong background check system for 
licensed care as well as for providers receiving a subsidy. A few weeks 
ago, Governor Perdue signed a bill into law that makes NC's background 
check system even stronger. The law takes effect in January 2013 and 
one key change was to require all individuals who volunteer on a 
regular basis to have a background check, which includes a fingerprint 
check against State and Federal records. In the State fiscal year 2012, 
NC processed 38,000 background checks, of which 466 were disqualified 
based on serious crimes. Background checks help weed out those who 
should be excluded from caring for children. This is important for 
child safety.
    North Carolina did not build a quality system overnight. Progress 
was made incrementally and included resources from the State beyond 
funds from CCDBG's quality set-aside. With no additional resources or 
only a modest increase in funds, at a minimum, the quality set-aside 
needs to be increased. Second, Congress will have to decide if it is 
better to ensure access to quality care for low-income children or, 
continue along the path of allowing subsidies to be used for any care 
available. Without significant increases, access to quality care is not 
possible without serving fewer children. I would like to see more 
children served. At the same time, I think serving children better is 
an important policy goal. The childcare subsidy program can't continue 
in a separate silo where we talk about quality care, but subsidies 
often do not enable families to access quality care. Given the current 
fiscal constraints, it is not an easy decision for Congress. But, I do 
think it is important to serve children well and have accountability 
for subsidy funding whereby the government knows it is purchasing safe 
quality settings for children.
    In most States, we do not know the quality of care that families 
using a subsidy access. I think that's wrong. I think subsidies should 
be tracked to ensure that our policy goals are aligned. Why should 
subsidies be used in settings that may be unsafe or of poor quality for 
children? This is not in the best interest of our children.
    Given the fiscal constraints facing this committee, facing this 
Congress, what is the minimum that should be done within the 
reauthorization of CCDBG?

    1. Improve the Safety of Children in Child Care:

    <bullet> Background checks: People who should not be in the 
business of caring for unrelated children should not be. CCDBG should 
require comprehensive background checks, based on fingerprints, such as 
required by the bill introduced by Senators Burr and Mikulski.
    <bullet> Minimum health and safety protections for children: only 
15 States meet each of 10 minimum health and safety protections for 
children in family childcare homes and only 33 States meet them for 
centers.

    2. Improve the Quality of ChildCare

    <bullet> Increase the quality set-aside: Many States' quality 
improvement expenditures already exceed the 4 percent set-aside 
required by CCDBG. The set-aside should be increased to at least 12 
percent. Head Start's set-aside for quality purposes is 25 percent. 
Without significant additional CCDBG funds for increased access to 
childcare subsidies or improved rates, childcare programs will 
certainly need expanded training, technical assistance and other 
supports to achieve and sustain higher quality.

    3. Strengthen the Child Care Workforce

    <bullet> Require those who work in childcare programs to have a 
minimum of 40 hours of initial training and 24 hours of annual training 
in key areas such as: CPR, first aid, child development, child behavior 
and guidance, learning activities, health and safety, and recognition 
and reporting of child abuse.
    <bullet> Encourage States to develop programs that help the 
workforce progress toward the Child Development Associate credentials, 
Associate and Bachelor degrees.
    <bullet> Invest in the expansion of programs like T.E.A.C.H and 
WAGE$.

    4. Enhance Child Care Monitoring

    <bullet> Require at least annual inspections of licensed programs, 
preferably more and unannounced.
    <bullet> Post inspection reports and complaint reports on line for 
public transparency.

    5. Address Subsidy Rates

    Most families can't afford quality care. It is just too expensive 
for families. Center-based infant care alone in 36 States exceeds the 
cost of college. Current law requires that a market survey be conducted 
but does not require that it be used in setting rates, nor does the law 
require a specific level at which subsidy is to be set. I have been 
told that this issue is likely too costly to address significantly at 
this time. This is disappointing. At a minimum, I recommend that the 
National Academy of Sciences be charged with studying the true cost of 
high quality childcare (not just the fees charged today) and task them 
with offering suggestions to consider for a better financed childcare 
system that addresses the early care and education needs of working 
families.
    Thank you for your time today. I look forward to answering any 
questions you may have.

    The Chairman. Thank you very much, Ms. Singerman.
    Ms. Coro.

   STATEMENT OF SUSANA CORO, ASSISTANT TEACHER, FALLS CHURCH-
           McLEAN CHILDREN'S CENTER, FALLS CHURCH, VA

    Ms. Coro. Thank you very much. I want to say thank you for 
inviting me to testify here. My name is Susana Coro. I'm 
married. I have two children: Max, 7 years old; Yadida, 4 years 
old.
    I'm coming to testify because my son is in the program at 
Falls Church-McLean Children's Center. When I tried to find a 
center, it was very hard for me, because my son has a speech 
delay. I tried to find a center around my area, and I'd go and 
talk with the persons, and I never found somebody who said, 
``I'm going to help.''
    When I went to the Falls Church-McLean Children's Center, I 
found the right person. She said: ``What do you need?'' And I 
said: ``I need a space for my son because he has a speech 
delay, and I need to find somebody to help my son.'' And she 
said: ``We don't have a space; can you wait?''
    And I started hanging there and every day, every week, I 
called and asked: ``Do you have a space, do you have a space?'' 
Because my son, he needed help. And she said: ``Yes, I find a 
space for you and bring your son.''
    Then when I went there, I said: ``I need help for my son; 
he has a speech delay.'' And she said: ``Yes, let's work 
together.'' And she started giving me referrals. And then I 
find somebody to help my son with the speech. Then they started 
working with the teachers in the center; my son, he received 
help.
    That's what I want to say. I put my son in the childcare 
center because I needed help for him, and I needed to work. I'm 
so happy to find the place where my son is safe. I'm so happy 
to find a place to help me.
    Now, I'm working like a nanny before. I received a subsidy 
from the county. When I put my son in this center, they gave me 
help with the subsidy to pay the tuition because it's very 
expensive. At this time my income is not too high, and I 
received--and I'm very comfortable. Then when I started working 
and have more income, they stopped helping me.
    The Chairman. They stopped helping you?
    Ms. Coro. Yes.
    The Chairman. Because you started making too much money?
    Ms. Coro. Yes. And also I have another daughter, I have 
another kid. And I said, now what can I do now. But I don't 
want to pull my son out of the program because he receives a 
lot of help, because he needs speech therapy and I can't pay 
outside.
    Then when my daughter is going into the program, I said, 
``Now what can I do? I need to pay a lot of money.'' And they 
say: ``No, you're not qualified any more.'' And I said: ``Well, 
what can I do?'' I don't want to take my daughter from the 
program, because it's a very, very, very good program. And my 
director came to talk to me and she said: ``Don't worry; I'm 
going to help. We do fundraising and I can help.'' And that's 
why I keep my daughter in the same place.
    But I come to say it's very hard for me to keep paying a 
lot of money, but I have to pay because I want my daughter and 
my son to have a very good start in life.
    Also, I'm coming to ask to you, try to find a way to help 
the families like my family. It's true, we don't have a lot of 
money. But when we start having a little bit more, all the 
services are cut. I have to pay the school for my daughter, for 
SACC my son, but it's a lot.
    Also, in the schools, my son here, he does not receive 
lunch because they said, you're not qualified. Every week I 
have to pay $20. Every month I have to pay $350 for SACC, the 
program that's after school. Also, in the center I have to pay 
$200 every week because this is the amount when I can pay. The 
other part the school has paid for me. This is a lot of money.
    The Chairman. A lot of money.
    Ms. Coro. It's a lot of money. But I need to do it. You 
know what, I'm working very hard, but I want to keep my 
daughter in a safe place.
    Also, this center for me is the best center, because the 
staff is very kind. They work together with the speech 
therapists, all the therapists there. Also, every time they 
give me advice to help my son, and now for my daughter.
    When I see these kind of things I say, ``No, I have to work 
very hard and give that to my son.'' One thing my mother always 
used to say, she told me:

          ``I don't have money, I don't have lands; just the 
        one only thing I can give for you is to study. Go to 
        the best school, do the best that you can, and then you 
        can have a very good life.''

    That's why I'm coming to you and say, please help us, 
because you have the power. You can come to help us, the 
community.
    We work very hard. I'm not coming to ask for food, I'm not 
coming. But we need your help for the schools, we need, because 
if we want this country to go up we need to help, and the 
school's first.
    [The prepared statement of Ms. Coro follows:]
                   Prepared Statement of Susana Coro
    Good morning. I want to thank the Chairwoman of the subcommittee, 
Senator Mikulski, and the Ranking Member of the subcommittee, Senator 
Burr, for inviting me to testify today. I also want to thank the other 
members of the subcommittee for listening to my story.
    My name is Susana Coro. I am married and we have two children, Max 
who is 7 years old and Yadida who is 4. For 10 years, I was a nanny to 
a family with an autistic child. I've always been good with children 
and the family sent me to have extra training to work with children 
with special needs.
    Over time when my son was a toddler, I came to think his speech was 
not right. I looked everywhere for a center, but I thought to myself, 
these were no places for my son. A friend told me about the Falls 
Church/McLean Children's Center. She told me it was a great program--
accredited and 4 stars on Virginia's Quality Rating System. For months, 
I went there and asked about openings. I literally begged them to take 
my son.
    Max was 3 when he started at the center. They helped me apply for 
childcare assistance. They helped me contact the Infant & Toddler 
Connection program under ChildFind in Fairfax County. Max was screened 
and found eligible for speech services. The speech therapist came to 
the center and worked with Max. The teachers at the center worked with 
the speech therapist so they could better meet Max's needs as well. 
There are so many things that I like about the center.

    <bullet> The staff are kind, professional, well-trained, and give 
good advice to parents.
    <bullet> There aren't too many kids in the classrooms and each room 
has three teachers.
    <bullet> The staff read to the children; there are lots of art 
projects, a block area, a sand table, a housekeeping area; the staff 
take the time to talk to each child, really connect with them.

    At first, I was hired to work part-time in the center. When I was 
promoted to full-time, the county called me. They said I made too much 
money for subsidy. I didn't know what I was going to do. I didn't want 
to move my children to a different program, but even making more money, 
I could not afford the cost.
    The director of the program told me not to worry. The Center raised 
funds for special circumstances. She said they help families who lose 
their childcare assistance, or who lose their jobs and need to look for 
a new one. She said if I could pay the $800 that the monthly subsidy 
would have paid, the center would cover the rest. The rates are $1,550 
a month for 2-year-olds, $1,420 a month for preschool children. She 
told me of the 70 children at the center, 45 are on subsidy at $800 a 
month and the center pays the difference.
    My daughter, Yadida is 4. I know this is a quality program for her. 
We pay $800 a month for her and also another $325 for my son in SACC, 
the school-age childcare program run by Fairfax County. If the center 
did not give me a discount, my daughter would not be here. It makes no 
sense that I could work in a program that I could not afford to send my 
children.
    I know that the Falls Church/Mclean Children's Center is a special 
place and that most childcare centers cannot afford to subsidize the 
families who participate. I feel lucky and I know my center is unique 
in its ability to serve the community. I am thankful that they really 
helped my son. And, now my daughter is at the center and she is really 
happy. I am working toward my CDA. I know I will get it.
    Getting a childcare subsidy not only helped me get my children into 
a quality program, it really changed my life. Thank you.

    The Chairman. We understand. We want to thank you, Ms. 
Coro, for that pretty excellent testimony. You told us your 
story and it was not easy. We thank you for being here. We 
thank you for all the thought that you put into your 
presentation. We thank you for the lessons learned that you 
teach us here about this.
    We also are a committee that believes you should reward 
work and you should reward those people that want to have a 
better life for themselves and for their children, and that if 
you make a little bit more because of your own promotion, 
because you can move up, or you earn because you get more hours 
in what you do, you should not be penalized. And we need to 
look how in our eligibility and so on that we acknowledge 
people like yourself for the resources that we have, that we 
don't punish people who are working and who are trying to 
achieve both now and for their children tomorrow.
    It took a lot to come here today and we want to acknowledge 
your fortitude. I think that little boy and that little girl 
should be very happy, not only because of the childcare that 
they have, because the first provider of childcare is their 
mother, and you're obviously a real advocate for them.
    So thank you very much.
    Ms. Coro. No, thank you.
    The Chairman. We'll come back now and ask questions in a 
minute. We're going to now turn to our panel and we'll have a 
question for you.
    Before I ask my questions, I'm going to be the wrap-up. 
Senator Burr, do you want to have your questions, and then 
we'll go to Senator Merkley? We welcome him today. Then I'll 
have the last. I'll have the last word.
    Senator Burr. I will do whatever the chairman instructs me 
to do.
    Janet, again thank you, and thank you to all the witnesses 
for accommodating us today. Janet, if you will, can you talk 
about why background checks are so important for the 
population?
    Ms. Singerman. As I said in my testimony, it is critical 
that children in childcare are in safe settings. And background 
checks are a mechanism of ensuring that those who work in 
childcare are not in a position--aren't in a position to do 
harm, haven't anything on their record that would place 
children at risk. The responsibility I think we have through 
childcare regulation and through criminal background checks is 
to ensure that people who shouldn't be in settings with 
children are not employed by those settings.
    In our State, we recently passed legislation to improve our 
criminal background checks for those who work in early care and 
education settings in just this last session.
    Senator Burr. Do you think most parents take for granted 
that every State and every childcare facility does that?
    Ms. Singerman. Absolutely. Absolutely, and there are 
surveys that have been done that indicate just that.
    Senator Burr. What are the common types of crimes that 
exclude individuals in the North Carolina system from being 
hired for childcare?
    Ms. Singerman. Well, I have that here, but what we're 
looking for are people who don't have violent offenses, there 
aren't substantiated cases of child abuse and neglect. We don't 
want to see sex offenders in childcare settings. We don't want 
folks who have been involved in and engaged in behaviors that 
really would put children at risk in those settings.
    We want to see the use of fingerprints at the State level 
and at the Federal level. We want to see that child abuse 
registries are checked and sex offender registries are checked. 
We want to use all of those mechanisms to screen out those 
folks who really shouldn't be in childcare.
    North Carolina has a screening process in place and last 
year I believe it screened out more than 300 individuals from 
working in childcare centers and childcare settings.
    Senator Burr. From your life in childcare, if we didn't 
have a criminal background check in North Carolina how many 
people do you think additionally would try to be employed in 
the field with a criminal history that would exclude them?
    Ms. Singerman. I don't know that I can quantify it.
    Senator Burr. Do you think some people never apply because 
they----
    Ms. Singerman. Absolutely. Absolutely.
    Senator Burr. It's a deterrent just to have it.
    Ms. Singerman. It is absolutely a deterrent to have a 
criminal background check.
    Senator Burr. I say this for my colleagues. It shocked me 
when I checked to see how many States actually check the sex 
offender registry. Only 31 States.
    Ms. Singerman. That's right.
    Senator Burr. Only 31 States check to see if an individual 
has a sex offense charged against them.
    Madam Chair, as we go through this reauthorization--and you 
have been incredibly accommodating to me and supportive--I hope 
that the one thing that we will not let get jettisoned is this 
requirement for criminal background checks. I think it is 
absolutely essential that our systems live up to what parents 
believe they have today, but in reality many States aren't 
there yet.
    I also say this for the chair's purposes, and I think Janet 
has alluded to this: North Carolina didn't reach the level of a 
model for the country overnight. This has been in the work for 
over a decade. In our expectations as we institute new goals, 
requirements, in the reauthorization, we can't expect States to 
start from 0 and end up at 64 percent next year. But it's 
absolutely crucial that we have a starting point and that we 
make a national commitment that safe and quality childcare is 
available everywhere.
    I think we're on the right track. I think we've got to get 
this reauthorization through and, more importantly, we've got 
to look at the future generations and know that not only will 
they be safe, but a quality education will be somewhat like Ms. 
Coro has described in the facility her children are in. I think 
that's achievable in this legislation.
    I thank the chair.
    The Chairman. That was excellent. I just want to say to my 
colleague from North Carolina that safety is the anchor to 
quality. You cannot have quality unless parents feel confidence 
in the facility and children feel safe and secure. For many 
children, this will be one of the more safe and secure 
environments that they're in. So believe me, I feel the same 
sense of insistence that you do.
    Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you, Madam Chair.
    And thank you to all of you for the ideas you're presenting 
on how we can strengthen our childcare system, which is so 
important to working families.
    Ms. Coro, you commented on the emphasis on the opportunity 
that's created through the schools. It reminded me of my own 
father, who as a working class parent, he took me down to the 
school, he said: ``You go through those doors and you work 
hard, here in America you can do almost anything.'' The fact 
that you're carrying that message to your children is very, 
very powerful.
    I did want to ask a couple questions. In regard to, Mr. 
Acord, you noted some points about Tennessee's requirement for 
40 hours of training for new childcare staff. I wanted to ask a 
couple details about that. Specifically, does it cover all the 
childcare providers, including the family, friend, and neighbor 
providers? And if so, in some cases do providers get assistance 
in covering the costs of that training? And then, third, when 
those providers are at training is there a system for kind of 
covering them, especially in this family, friend, and neighbor 
system, how the children would be cared for?
    Mr. Acord. The training is actually paid for through the 
CCDBG, so it is free to all early childhood educators, both 
center and home care. At the end of the 30 hours they receive a 
certificate verifying. And it's not just for the early 
childhood educators. There's also a separate training developed 
under that same path for the administrators, because 
leadership, administration, is very important; and also for the 
school-aged, those working with school-aged children.
    So we've tried to look very comprehensively at what the 
needs are out there in the early childhood community to make 
sure that they have access to that. In some centers, yes, there 
are funds available to pay for substitutes while they're 
attending the training if it's during the course of the week. 
Those trainings are also offered on weekends, too, Saturdays, 
and sometimes at night.
    So I think it's essential if you're looking at quality and 
if you're looking at improving the industry in the area of 
qualifications. That training also then is articulated into 
hopefully helping the individual get a CDA and then articulated 
into community colleges if they want to pursue an associate 
degree, and then on to a BA degree, too.
    Senator Merkley. So the training requirement is to cover 
the family, friend, neighbor providers?
    Mr. Acord. Yes, home providers, yes.
    Senator Merkley. So when you talked about some centers 
providing substitutes, are substitutes provided in that setting 
also?
    Mr. Acord. I'll find out about that. I'm not confident 
whether they are in those particular settings. I know they are 
in centers and in group homes. We have group homes, we have 
family daycare homes, and then we have the unregulated, too.
    Senator Merkley. Thank you all very much. I appreciate your 
thoughtfulness in bringing these ideas forward.
    Mr. Acord. Thank you.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    This is for anyone who thinks they have the answers to 
these questions. With the tension between access and quality 
that we're hearing as a constant refrain here, and also the 
constant reference to fiscal restraint, just what percentage of 
kids who need subsidies for childcare in this country receive 
it?
    Mr. Acord. Well, are you going to go for it? Go.
    Ms. Singerman. One out of every six.
    Mr. Acord. That's what I was going to say, too.
    Ms. Singerman. One out of every six.
    Senator Franken. OK, so one out of every six children who 
needs subsidies. How do you define that? And then what 
percentage of kids who need childcare get childcare?
    Ms. Singerman. Well, there is the threshold of 85 percent 
of State median income at the Federal level. In our State 
childcare subsidy eligibility is up to 75 percent of the State 
median income. So that would be the universe of children we're 
talking about in terms of who is allowed to be eligible through 
the Federal legislation.
    Our agency serves as the childcare subsidy administrator 
for Mecklenburg County, which is the single largest county 
childcare subsidy program in North Carolina. We administer 
about $43, $44 million of childcare subsidy funds, and we're 
serving an average of just over 7,000 children monthly. Right 
now we have over 4,000 children on our waiting list waiting to 
be served. That's not the universe of eligible. Those are just 
the families that have come to our door that presented as 
eligible.
    Senator Franken. How does this compare to European 
countries? Does anybody know that?
    Ms. Singerman. Entirely different systems.
    Senator Franken. Well, I know it's an entirely different 
system.
    Mr. Acord. Some European countries, France for example, 
it's available to everyone.
    Senator Franken. Again, we've all agreed that early 
childhood care is crucial to kids' intellectual development and 
readiness to learn. So from infancy to age 3 an incredible part 
of your intellectual development takes place. So we're talking 
about our economy--let's just talk about our economy here. 
Let's just go straight to it. Forget human beings. Let's just 
talk about money.
    Obviously, what I'm saying here is the reason that our kids 
should be getting this high quality childcare is for their 
intellectual development, for their readiness to go to 
kindergarten so that they can become productive citizens. 
That's one reason.
    There's another reason, which is that kids are beautiful, 
kids are wonderful.
    Ms. Coro. Sir, can I say something?
    Senator Franken. Yes.
    Ms. Coro. Sorry. I think the earlier the kids start going 
to learn something new is the best. When you said 2 to 3 years 
is the more power time, you can teach whatever you want. That's 
why I think the childcare or the pre-schools, if our kids start 
early they're going to have better opportunities in their 
lives.
    I tell this because I know my son I read a lot to. I don't 
have too much information, but I put in practice whatever I 
learn. Whatever I learn, I put in practice on my kids. I know 
my daughter, she is 4 years old, and she acts like 6 or 7 years 
old because I teach her from when she started, 3 months to now. 
She knows a lot. That's why I say, when you put your kids in 
childcare and programs like the high quality, they learn a lot.
    Senator Franken. Well, she's lucky to have you as a mom.
    Ms. Coro. Thank you. But that's why I say to you----
    Senator Franken. And she's lucky to be in----
    Ms. Coro [continuing]. Please help us to put not only my 
child, another child. I know we don't have enough money, but I 
know you have the power, I say it again, you have the power to 
try to find the way to help us.
    Mr. Grafwallner. Senator Franken, I wanted to respond to 
your question also. Two years ago in 2010, UNESCO issued a 
report that gets to the question that you raised as to what are 
the benchmarks and how do States rank within the OECD countries 
on 10 benchmarks in terms of quality and access to early 
childhood education. The United States meets 3 of those 10. At 
the very top are Finland and the Scandinavian countries. 
England is somewhere in the middle.
    Senator Franken. And we know that Finland has, among the 
OECD countries, the highest, along I guess with South Korea, 
the highest academic achievement, and it's probably no 
accident.
    I know my time is up. I want to thank you for your 
commitment to this work, and I wish that we made this 
commitment to this work, because I think that our Nation's 
future is very much tied up--I think it's obvious--is tied up 
with this issue of access to quality childcare. I wish we would 
wake up.
    Thank you.
    The Chairman. First of all, I really want to thank the 
panel, each and every one of you. For those of you who have 
administrative responsibility, the creativity that you've had 
to meet really compelling human need and the challenges both 
fiscally, a changing society, where there's less social network 
at the grassroots level, less family support, all of your work 
has been quite ingenious.
    We thank you for your ideas and recommendations. It goes 
along with the keeping, I know shared by Senator Burr and 
myself, which is that the best ideas come from the people.
    Now, I have a question for the three administrators before 
I come back to Ms. Coro. Tell me what is the waiting list in 
your States for childcare, these childcare subsidies? Rolf?
    Mr. Grafwallner. Yes. It's a serious issue. We right now 
have a waiting list since March 2011 and it's approaching 
20,000 families that cannot access the program.
    The Chairman. OK. I just want to keep going down. So it's 
20,000 in Maryland. Tennessee?
    Mr. Acord. In Tennessee, as I said in my testimony, now 
we're using CCDBG funds to only support recipients who are in 
TANF. So that means no working poor. If I have a parent who 
comes to me with a job that doesn't qualify----
    The Chairman. I understand that. So tell me what is the 
official----
    Mr. Acord. Well, the last when we were keeping records it 
was like 37,000.
    The Chairman. OK.
    Ms. Singerman.
    Ms. Singerman. 37,600.
    The Chairman. Could you use the microphone, please?
    Ms. Singerman. More than 30,000.
    The Chairman. So it's roughly 20,000 or 30,000 in each 
State. Then in a State like Tennessee, we go against 
essentially an American value. The American value--that's not 
meant to be accusatory or snarky. The fact is that in our 
society we want to reward work, we want to reward initiative. 
We're in a society that says we need to give tax breaks to 
billionaires because we want to reward their entrepreneurship.
    Well, there are family entrepreneurs, getting up every day, 
doing strenuous jobs at very often modest pay. So the fact that 
it would be limited to TANF--and again, I don't want to get 
into each State and the Governor and the legislature. But I 
believe that one of the things that we need to do in our bill 
is to look at eligibility. One, let's not do it every year; 
let's put money into childcare, not into childcare bureaucracy 
for eligibility, which gives us no value.
    The second thing is, though, to really reward work and the 
ups and downs in a wage earner's salary. You could be a 
certified nursing assistant in a long-term care facility, get 
more hours. There might have been something where you've got a 
lot of overtime. It skews your eligibility for a very short 
period of time.
    The other is we want to reward those people who start out 
maybe with a GED, had that chance to go to the community 
college, be able to move up in a supervisory role, but they're 
not going to be making $75,000, $85,000, $125,000. So we need 
to have, I think, flexibility.
    We know that we don't want to get into a big fight over the 
States, but I do think we need to reward work and going to work 
and then for those who within work want to improve their 
situation.
    Would you say that that has to be one of the ways also we 
bring good people into childcare, good people into serving 
long-term care, particularly in the human service field? 
Tremendous pent-up demand for home health care. So these are 
jobs out there, but people who are working need some help, that 
while they're helping others they need help for themselves. Am 
I correct in that?
    Mr. Acord. Right, you're correct.
    The Chairman. Now, let me go to you, Rolf. I'd like to 
share with the committee and have on the record, the Judy 
Center. The Judy Center is a facility that I visited, and you 
were there that day. It was a great day. This is a program that 
was initiated by the State of Maryland under the advice of Judy 
Hoyer, Congressman Hoyer's wife, and they've become some great 
models.
    This in my mind is the ideal. Would you describe what it is 
and how much it costs per child to actually have a Judy Center 
or a center, so that we get kind of a benchmark? We've been 
looking at the bare minimums. What would be a model for 
essentially the dream team?
    Mr. Grafwallner. Thank you. Envision the Judy Centers as a 
Title 1 school that enters into a formal partnership with its 
early childhood programs that are located in the attendance 
area of the Title 1 school. So that includes childcare 
programs, family childcare centers. It includes Head Start, it 
includes home visiting programs, family support programs, and 
so on, and of course programs that are supporting children with 
disabilities.
    They are all coming together to basically make sure that 
children from birth to entering, at the time when they enter 
school, are fully prepared for school success. There are a lot 
of things that go into that that not only relate to the early 
learning and to the child development, but also to the support 
to families. It's really a dual generation kind of, two 
generation kind of approach.
    What that does, it does coordinate not only the services, 
but it also leverages funding for making the best condition for 
a child to grow up in and supporting the family as well as the 
children. It's a very focused approach and what we have seen is 
very beneficial outcomes for children. Especially English 
language learners benefit from this environment.
    The actual resources that we put in at the State level for 
each of these 25 Judy Centers we have at the State, impacting 
40 elementary schools, is $320,000. That's an enhancement, but 
what it does, it coalesces the groups that work together in the 
partnership and basically taps in all the funding sources that 
already exist.
    The Chairman. It pulls everything together.
    Mr. Grafwallner. Yes.
    The Chairman. So it's $300,000 in addition to what?
    Mr. Grafwallner. In addition to the existing funding 
streams that come from Head Start, from pre-kindergarten, from 
childcare. And in many instances the $300,000 do support 
families in emergency situations, in crisis, and that sort of 
thing, but it primarily goes toward the actual coordination, to 
having a coordinator and a family support worker at the school 
to work with the families and for the coordinator----
    The Chairman. So it leverages it. It deals with those 
populations, Mr. Acord, that you deal with, the non-traditional 
hour person. In my observation, the non-traditional hour people 
either work in public safety--they're police officers, they 
could be working in other areas--or they're involved in the 
delivery of health, some form of health care, nursing homes. Am 
I correct in that assessment?
    Mr. Acord. Yes, you are correct. Police officers, health 
care workers, retail workers, fast food workers. I mean, every 
time you go out after 6 o'clock to a meal or to get a service, 
look at the person who's helping you and wonder where their 
child is. So extended hours. We operate 24 hours, 7 days a 
week, 365 days a year, and still charge on a sliding fee scale.
    But we have to go out there and raise over $600,000 a year 
ourselves to supplement that, because we're not able to get the 
help because of the reduction in the CCDBG subsidy and 
Tennessee not offering to the working poor now. You're exactly 
right, it's contrary to the intent, I think, of what CCDBG was 
all about, and that is helping find quality childcare for 
working parents.
    The Chairman. And that was one of its original initiatives.
    Mr. Acord. Absolutely.
    The Chairman When we were working on welfare reform with 
President Bill Clinton, and our viewpoint was that welfare--
when President Clinton said he wanted to end welfare as we knew 
it, he did not want a punitive approach, but an empowering 
approach. His whole philosophy, which we worked on--Senator 
Moynihan, Kennedy, me--to move people from welfare to work and 
to make work worth it by these supportive systems, which I 
think we've got to get back to.
    Well, the time is coming to a close. Ms. Singerman, did you 
want to add anything, and then I want to go to Ms. Coro.
    Ms. Singerman. No. I thank you very much for the 
opportunity.
    The Chairman. Thank you.
    Ms. Coro, I'm chairing this committee. You said that I have 
the power. We do have power, but I believe in the power of the 
people and the power of the grassroots. So I think the last 
word should belong to a mother. So in your last words to the 
Congress of the United States of America, we invite you to have 
the last word at this hearing. What would you like to say to 
wrap up?
    Ms. Coro. I would like to say we need support from the 
Senators for help to raise our kids, especially in the schools. 
We work very hard. We don't have to--we don't have to--sorry, I 
can't say it. I have many things in my head.
    The Chairman. Just take your time. So you work hard.
    Ms. Coro. We work hard.
    The Chairman. And also----
    Ms. Coro. We want the best for our kids, not only for me, 
for my kids. We want for every kid in this country. I know this 
country has a lot of things to do and improve our lives. That's 
why always we come to you. You represent us. You can go to talk 
with more people and make the decision. Please help our 
children to be successful in this life.
    The Chairman. Well, thank you very much, Ms. Coro. I think 
that is an appropriate last word, which is: Don't forget the 
children, and in a great country that should have a great 
future, the biggest public investment is in our own people. So 
thank you for what you do.
    I really want to thank the people who appeared today and 
all that you represent. You know, we have 50 States and 
territories. We have military bases. We really want to thank 
those who every day in every way get up and think about this, 
think about what they can do to expand access within these 
budget constraints. We need to think as hard and work as hard 
as you. So thank you for what you do.
    We look forward to working with all of you. Please feel 
free to submit additional remarks or additions based on what 
you heard. We're going to leave the record open for 10 days, 
and the hearing of the Subcommittee on Children and Families is 
recessed subject to the call of the chair.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Casey

    Madam Chair, thank you for convening this hearing to 
continue our discussions on reauthorization of the Child Care 
and Development Block Grant (CCDBG). I would like to thank your 
staff as well, whom I know have been putting a lot of time and 
effort into this reauthorization.
    While CCDBG is, first and foremost, a work support program 
providing parents with the peace of mind that their children 
have a place to go while the parents are at work, we have 
learned so much about child development since 1996, when the 
program was last reauthorized. CCDBG is still providing that 
fundamental support for lower-income working families, but it 
is also about ensuring that children are in a safe and 
stimulating environment that is conducive to their healthy 
development.
    As Senator Mikulski discussed in her opening statement, the 
focus of this hearing, which is the third she has chaired on 
this critically important topic, is about how we can improve 
the quality of care that children receiving CCDBG subsidies 
receive, without sacrificing access. In other words, how can we 
encourage States to pursue high quality childcare in 
conjunction with creating access to childcare?
    While I think we should be making a larger Federal 
investment in childcare, I am well aware of our Nation's fiscal 
reality. So we need to be smarter with our investments, making 
sure that every dollar we invest in childcare is well-spent. 
The first years of a child's life are critical to her future 
development; we cannot afford to ignore the importance of 
quality care in the early years.
    Like many Senators on this subcommittee, I have introduced 
legislation to advance our discussion of what Federal support 
of childcare for lower income working parents should look like. 
My bill, the Starting Early, Starting Right Act, touches on the 
need to improve the quality of childcare by requiring childcare 
providers who are licensed or registered to participate in 40 
hours of training before they work with children as well as 24 
hours on an ongoing annual basis; improving access to high 
quality care for infants and toddlers by setting aside 30 
percent of the bill's funding for this underserved group of 
children; and encouraging more States to adopt quality rating 
provisions, such as the successful Pennsylvania STARS program, 
which give providers benchmarks as well as resources to 
continually improve the quality of childcare.
    It is my understanding that key stakeholders have developed 
an understanding that certain issues must be addressed within 
this context, like establishing basic health and safety 
standards for providers accepting Federal subsidies and 
improving coordination between all early childhood programs, 
including CCDBG, Head Start and State pre-kindergarten 
programs. I believe that these are critical elements of this 
reauthorization, and I am pleased that we are starting from 
such a strong place of agreement. I hope that this is 
indicative of a determination among my colleagues to continue 
working together to draft a strong reauthorization of CCDBG.
    I appreciate the attention Senator Mikulski has shown 
toward CCDBG reauthorization. I look forward to hearing the 
testimony of the witnesses today, and to continuing our work to 
reauthorize CCDBG.
 Prepared Statement of the American Public Human Services Association 
 (APHSA), Submitted by Tracy L. Wareing, Executive Director, American 
    Public Human Services Association; and Linda Saterfield, Chair, 
        National Association of State Child Care Administrators
    Chairman Mikulski, Ranking Member Burr, and Honorable Members of 
the Senate Health, Education, Labor, and Pensions Subcommittee on 
Children and Families, on behalf of the American Public Human Services 
Association (APHSA) and its affiliate, the National Association of 
State Child Care Administrators (NASCCA), we respectfully submit this 
statement for the record and urge Congress to reauthorize the Child 
Care and Development Block Grant (CCDBG) as a key priority.
    NASCCA represents the 50-state lead agencies responsible for the 
administration of the Child Care and Development Fund (CCDF) law. The 
CCDF program provides a vital economic and work support for America's 
families while simultaneously ensuring that today's children are 
prepared to be tomorrow's leaders. States have been able to use CCDF 
funds to improve childcare quality and achieve better outcomes. 
However, Federal childcare funding levels have not aligned with program 
needs and the expenditures related to childcare costs. This has become 
extremely problematic for States, especially with rises in inflation 
and budget cuts. For years, States have faced challenges with achieving 
an appropriate balance for providing high-quality childcare and 
maximizing access.
    NASCCA's recommendations for CCDBG call for State flexibility; 
improving quality; expanding access and promoting continuity of care; 
strengthening program integrity; and ensuring a seamless approach for 
better coordination among early childhood programs through alignment of 
program goals and priorities. The focus should be on gainful employment 
and sustained child well-being, which are the outcomes we seek and that 
a revitalized human service system can achieve as outlined in APHSA's 
Pathways: The Opportunities Ahead for Human Services.\1\ We recommend 
the following:
---------------------------------------------------------------------------
    \1\ American Public Human Services Association (2012). Pathways: 
The Opportunities Ahead for Human Services. http://www.aphsa.org/
Policy/pathways.asp.

    1. Provide adequate funds to ensure access and promote continuity 
of care. In addition, adjust CCDF funds to keep pace with inflation 
using the Consumer Price Index. This would minimize service disruptions 
and expand the number of eligible children and families needing 
services. CCDF should support a broader concept of work, education, and 
self-sufficiency along with stability for children.\2\ Adequate support 
for flexible mechanisms, like CCDF, is needed to better align with 
program needs and current expenditures to ensure families' access to 
childcare and stable childcare arrangements.
---------------------------------------------------------------------------
    \2\ Urban Institute (2010). Child Care Instability: Definitions, 
Context and Policy Implications. G. Adams and M. Rohacek. http://
www.urban.org/publications/412278.html.
---------------------------------------------------------------------------
    States must have the ability to ensure that subsidies' purchasing 
power reflects the current costs of childcare. However, funding 
constraints have added pressure on States to make policy changes and 
tightly monitor eligibility. According to a 2005-09 U.S. Census Bureau 
survey, approximately 15 million, or 62 percent of children under age 
6, potentially are in need of childcare. Providing States with 
additional Federal resources and adjusting mandatory CCDF funds to be 
annually indexed for inflation would immediately address this problem.
    Maintain CCDBG's flexibility so States can leverage Federal dollars 
to meet the unique needs of children and families served by CCDF. 
Decisions on programmatic and financing eligibility and authorization 
are best made on a local or State level and based on families' 
employment needs and children's developmental needs. State childcare 
policies can be designed to address the dynamics of urban and rural 
communities and meet the economic priorities of individual States. 
National data on the characteristics of families served do not 
accurately capture the degree of variation among States.\3\ However, 
States can use CCDF funds and other Federal funding streams to the best 
advantage of both recipients and the larger stakeholder community.
---------------------------------------------------------------------------
    \3\ U.S. Department of Health and Human Services (2012). 
Characteristics of Families Served by Child Care and Development Fund 
(CCDF) Based on Preliminary FY 2010 Data. http://www.acf.hhs.gov/
programs/ccb/data/ccdf_data/data_fact_sheet.htm.
---------------------------------------------------------------------------
    U.S. Health and Human Services fiscal year 2010 data show that 
approximately 1.7 million children and 998,600 families per month 
received childcare assistance.\4\ This represents 18 percent of those 
eligible. In addition, an estimated 2.6 million children were served 
using additional funding sources such as the Temporary Assistance for 
Needy Families (TANF) program direct spending on childcare, Social 
Services Block Grant, and excess TANF Maintenance-of-Effort childcare 
expenditures. The flexibility to blend these funding streams has 
afforded States the ability to expand access, improve quality, and 
serve additional eligible children that CCDF could not support. 
However, should sequestration occur, Federal childcare funding would be 
reduced by approximately $177.7 million in fiscal year 2013, serving 
about 80,000 fewer children in that year.\5\
---------------------------------------------------------------------------
    \4\ Ibid.
    \5\ U.S. Senate Appropriations Committee Majority Staff (2012). 
Under Threat: Sequestration's Impact on Non-Defense Jobs and Services. 
Sen. Tom Harkin, Chairman of the Senate Appropriations Subcommittee on 
Labor, Health, Human Services, Education and Other Related Agencies. 
http://harkin.senate.gov/documents/pdf/500ff 3554f 9ba.pdf.
---------------------------------------------------------------------------
    2. Raise the quality set-aside, and blend targeted funds within the 
set-aside, so States can flexibly invest in quality improvement systems 
and other changes that promote quality. The Administration for Children 
and Families' (ACF) fiscal year 2012 Budget reports that in fiscal year 
2009, States spent approximately $988 million or 11 percent of CCDBG 
funds on quality improvement activities, which exceeds the statutory 
quality spending requirement. Raising the set-aside and blending the 
targeted funds (i.e., infant and toddler care, school-aged care, and 
childcare resource and referral services) can help States maximize 
quality investments and strengthen standards. This should be blended 
with additional discretionary funds and incentives to improve childcare 
workforce, health, and safety standards including those involving 
nutrition and physical activity, early learning guidelines, and quality 
rating and improvement systems.
    States view these elements of quality as interconnected, and 
continuously work to ensure that the right mix is provided to address 
the specific needs of children and families in their communities. 
Limited resources have affected the ability of State and local agencies 
to achieve high quality in all programs, but their efforts continue 
with an emphasis on leveraging resources across programs and sectors.
    Results from a 1996 Princeton University survey on childcare costs 
and quality suggest that raising quality by 25 percent (from mediocre 
to good) would increase the total variable costs about 10 percent--that 
is, by 13 cents per child per hour or about $300 per child per year. 
For a childcare center of average size, this would mean an increase of 
$18,000 per year.\6\ We know that these figures have grown since the 
1996 CCDBG reauthorization. However, there is a need for further 
research on the correlation between quality childcare, its cost, and 
other economic variables based on the current environment.\7\ Giving 
States the flexibility to establish subsidy payment rates on factors 
other than a market rate survey could help States better ensure equal 
access for eligible children to comparable services as children not 
eligible for subsidy. States need adequate resources to stabilize the 
current supply of quality care, and not be forced to pay for improved 
quality by reducing the number of children served.
---------------------------------------------------------------------------
    \6\ Princeton University. Child Care Costs and Quality (1996). 
Helburn, S., and C. Hows. http://www.princeton.edu/futureofchildren/
publications/docs/06_02_03.pdf.
    \7\ Troy University (2012). Child Care in the American South: 
Poverty, Costs and Quality. V. Collins. http://ecrp.uiuc.edu/v14n1/
collins.html.
---------------------------------------------------------------------------
    3. Consolidate and streamline Federal standards and requirements 
that focus on improving quality in early learning programs to reduce 
inefficiencies and duplication of efforts. For many children, 
especially those considered low-income, early care and education 
involve enrollment in programs such as home visiting, subsidized 
childcare, Early Head Start, and Head Start and Pre-Kindergarten. 
Collaboration and coordination between the human service and education 
sectors for these early learning programs can foster effective 
alignment of early learning standards and promote school readiness and 
preparation for kindergarten entry.
    The Race to the Top Early Learning Challenge has supported States' 
efforts to align school readiness standards and integrate early care 
and education programs to improve quality. However, there are currently 
minimal Federal dollars available for all States to successfully meet 
these standards and receive adequate technical assistance to move 
programs in this direction.
    4. Policies must support accountability that enables continuous 
quality improvement and provide accurate means for evaluating State 
performance. The CCDF State Plan should be amended and submitted tri-
annually to avoid duplication and allow adequate time for program 
improvements and implementation of new Federal initiatives. An increase 
in CCDF administrative funds could be used to improve data systems. 
Compliance with additional reporting requirements other than those 
specified in statute should be on a voluntary basis.
    Furthermore, there must be a shift toward incentivizing positive 
performance throughout State childcare systems. Improper Payments 
Information Act desk audit reviews must be improved to capture accuracy 
and performance based on the uniqueness of State systems and the 
flexible practices that the block grant allows. This shift in focus 
must also allow States to maintain authority to design program 
integrity strategies, seek ACF technical assistance, and focus on 
broader initiatives that improve the detection and reduction of 
improper payments.

    We look forward to working with Congress on these recommendations. 
Thank you for the opportunity to submit our comments and for your 
interest in reauthorizing CCDBG. If you have any questions, please 
contact Rashida Brown at (202) 682-0100 x225 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="334152405b5a57521d51415c445d7352435b40521d5c41541d">[email&#160;protected]</a>
  Prepared Statement of Helen Blank, Director of Child Care and Early 
                 Learning, National Women's Law Center
    Childcare is an essential support for children and families. It has 
two important goals: helping families work and helping children 
succeed. These are equally important and interrelated. When parents do 
better, children do better. There is also strong evidence that when 
low-income children participate in high-quality early learning 
programs, it increases their chances of succeeding in school and in 
life.
    For families, the Child Care and Development Block Grant (CCDBG) is 
a lifeline that allows them to work and their children to learn. 
Despite the benefits of providing help with childcare costs, only one 
out of six children eligible for Federal childcare assistance received 
it in 2006.\1\ The unmet need has likely grown as the number of low-
income families has increased while the number of children receiving 
childcare assistance has stagnated or decreased. Without additional 
investments, the number of children able to receive childcare 
assistance is projected to decline next year to the lowest level since 
1998.
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Office of Human 
Services Policy, Office of the Assistant Secretary for Planning and 
Evaluation, Estimates of Child Care Eligibility and Receipt for Fiscal 
Year 2006 (Washington, DC: U.S. Department of Health and Human 
Services, 2010), available at http://aspe.hhs.gov/hsp/10/cc-
eligibility/ib.pdf.
---------------------------------------------------------------------------
    Many families who need help paying for childcare are unable to 
receive it because their States set restrictive eligibility criteria or 
place eligible families on waiting lists. One-third of States set their 
income limits to qualify for assistance at 150 percent of poverty or 
lower, and two-thirds of States set their income limits to qualify for 
assistance at 200 percent of poverty or lower,\2\ even though studies 
show that families in most communities need an income level at least 
this high to meet their basic needs.\3\ In 22 States, families who 
apply for childcare assistance are placed on waiting lists for 
assistance or are turned away without having their names placed on a 
list.\4\ Some of these lists are exceedingly long. For example, in 
Florida, the waiting list is over 75,000 children.\5\ Maryland's 
waiting list is almost 19,000 children.\6\
---------------------------------------------------------------------------
    \2\ Karen Schulman and Helen Blank, State Child Care Assistance 
Policies 2011: Reduced Support for Families in Challenging Times, 
available at http://www.nwlc.org/sites/default/files/pdfs/
state_child_care_assistance_policies_report2011_final.pdf. [hereinafter 
State Child Care Assistance Policies 2011]
    \3\ National Women's Law Center analysis of data from Economic 
Policy Institute, Basic Family Budget Spreadsheets (2007), available at 
http://www.epi.org/pages/budget_calculator_intro
/; and from James Lin and Jared Bernstein, What We Need to Get By 
(Washington, DC: Economic Policy Institute, 2008), available at http://
www.epi.org/publications/entry/bp224/; Sylvia Allegretto, Basic Family 
Budgets: Working Families' Incomes Often Fail to Meet Living Expenses 
Around the U.S. (Washington, DC: Economic Policy Institute, 2005), 
available at http://www.epi.org/page/-/old/briefingpapers/165/
bp165.pdf.
    \4\ State Child Care Assistance Policies 2011.
    \5\ National Women's Law Center, Child Care Fact Sheet: Additional 
Child Care Funding is Essential to Stop State Cuts (July 2012) 
available at http://www.nwlc.org/sites/default/files/pdfs/
childcarecutsfactsheetjuly2012.pdf.
    \6\ Email from Debbie Moore, Senior Policy Analyst, Maryland Family 
Network, to Helen Blank, Director of Child Care and Early Learning, 
National Women's Law Center (July 19, 2012) (on file with NWLC)..
---------------------------------------------------------------------------
    Research is clear that parents are more likely to work when they 
have reliable childcare, and they find it challenging to work when they 
do not. Simply put, helping families pay for childcare makes it more 
likely they can get and keep a job. Several past waiting list studies 
indicate that without childcare assistance, parents turned to welfare. 
In a 1998 study of parents waiting for childcare assistance in Santa 
Clara County, CA, about 40 percent reported that they had given up 
looking for work because they could not find affordable childcare.\7\ 
In North Carolina, about one out of four families on the State's 
waiting list for childcare help had lost or had to quit their job while 
waiting for assistance, according to a 1998 study.\8\ One-quarter of 
the families on the waiting list for childcare assistance in Hennepin 
County, MN turned to welfare in order to survive, according to a 1995 
study.\9\
---------------------------------------------------------------------------
    \7\ Casey Coonerty and Tamsin Levy, Waiting for Child Care: How Do 
Parents Adjust to Scarce Options in Santa Clara County? (Berkeley, CA: 
Policy Analysis for California Education, 1998).
    \8\ Jeffrey D. Lyons, Susan D. Russell, Christina Gilgor, and Amy 
H. Staples, Child Care Subsidy: The Costs of Waiting (Chapel Hill, NC: 
Day Care Services Association, 1998).
    \9\ Greater Minneapolis Day Care Association, Valuing Families: The 
High Cost of Waiting for Child Care Sliding Fee Assistance 
(Minneapolis, MN: Greater Minneapolis Day Care Association, 1995).
---------------------------------------------------------------------------
    Research also provides substantial evidence that access to 
childcare assistance increases the likelihood that parents are employed 
and that they may remain employed for longer periods of time. One study 
found that across both rural and urban counties in Oregon, families who 
used childcare assistance had relatively stable employment over a 3-
year period.\10\ Parents who receive childcare subsidies appear to work 
longer.
---------------------------------------------------------------------------
    \10\ Elizabeth E. Davis, Deana Grobe, and Roberta B. Weber, 
``Rural-urban differences in childcare subsidy use and employment 
stability,'' Applied Economics Perspectives and Policies, 32(1), 2010, 
135-53.
---------------------------------------------------------------------------
    Helping parents afford childcare so they can work and earn income 
is important because family income can have a major effect on children 
as they grow. A study found a relationship between an increase in 
family income and children's achievement--the results suggested that a 
$1,000 increase in a low-income family's annual income increased young 
children's achievement by 5 to 6 percent of a standard deviation.\11\
---------------------------------------------------------------------------
    \11\ Greg J. Duncan, Pamela A. Morris, and Chris Rodrigues, ``Does 
money really matter? Estimating impacts of family income on young 
children's achievement with data from random-
assignment experiments,'' Developmental Psychology, 47 (5), 2011, 1263-
79.
---------------------------------------------------------------------------
    In addition to helping families pay for childcare and go to work, 
CCDBG quality dollars undergird early childhood systems in the States, 
supporting families at all income levels. The quality dollars help fund 
T.E.A.C.H. and other programs that assist childcare teachers with the 
cost of going to school and attaining credentials as well as reward 
them for their efforts. The quality dollars are also used to support 
the monitoring of childcare programs to ensure children's health and 
safety. In addition, the quality set-aside supports resource and 
referral services to help families searching for care and to assist 
community childcare providers; helps purchase basic materials, books, 
and equipment for family childcare homes and centers; and assists in 
the costs associated with starting and operating quality rating and 
improvement systems.
    The quality of childcare that programs and providers can offer is 
not only linked to the quality set-aside but also inextricably tied to 
the reimbursement rates they receive for children receiving childcare 
assistance. The decline in reimbursement rates is extremely troubling. 
As of February 2011, only three States paid rates at the federally 
recommended level, the 75th percentile of current market rates, 
compared to 22 States in 2001.\12\ While 31 States report that they pay 
higher rates for higher-quality care, or tiered rates, in approximately 
four-fifths of these States, the reimbursement rate at even the highest 
quality is below the 75th percentile of current market rates.\13\
---------------------------------------------------------------------------
    \12\ State Child Care Assistance Policies 2011.
    \13\ State Child Care Assistance Policies 2011.
---------------------------------------------------------------------------
    There continues to be, as a result of inadequate investment in 
childcare, a constant tension between serving more eligible children 
and improving quality.
    Given the importance of safe and affordable childcare to the two 
critical goals of helping parents work and support their children and 
ensuring that children have the early learning and after school 
experiences they need to succeed, national and State organizations have 
developed an Agenda for High-Quality Affordable Child Care (available 
here: www.nwlc.org/childcareagenda) that would put the Nation on the 
path toward developing the early childhood system our children and 
families deserve.
    In a reauthorization that would be a small step toward these goals, 
yet incur less cost than the more expansive Agenda, we would recommend:

    <bullet> Strategies to ensure continuity of care for families and 
children that support parents' work and children's healthy development 
by requiring States to:

        <bullet>  Establish a 1-year eligibility determination period 
        that is in effect, regardless of a change in parent's income or 
        work status.
        <bullet>  Establish a higher exit eligibility level that allows 
        families to stay on childcare assistance even if their incomes 
        grow to exceed the initial eligibility limit.
        <bullet>  Ensure that payment practices for childcare providers 
        reflect generally accepted payment policies that providers use 
        for their private-pay parents.

    <bullet> Strategies to expand low-income children's access to 
higher-quality childcare by requiring States to:

        <bullet>  Develop and implement strategies to increase the 
        supply and improve the quality of childcare in underserved 
        areas such as higher payment rates and bonuses, direct 
        contracting, grants, or other means of increasing the supply of 
        high-quality care in particular areas of the State or for 
        particular categories of children such as care in low-income 
        and rural areas, care for infants and toddlers, school-age 
        children, children with disabilities and other special needs, 
        and children in families with limited English proficiency, and 
        care during non-standard hours, if shortages of these types of 
        care are identified, and report annually to the Secretary of 
        Health and Human Services on how these strategies are being 
        used to expand the supply of care.
        <bullet>  Demonstrate efforts to coordinate Early Head Start, 
        Head Start, State-and locally funded pre-kindergarten and 
        childcare assistance in order to encourage full-day, full-year 
        programs.
        <bullet>  Demonstrate that initiatives to improve the quality 
        of childcare give priority to providers and programs in which a 
        significant share of children served are low-income (or receive 
        federally funded childcare assistance) and include sufficient 
        financial and other resources to support strategies that help 
        providers at all levels of quality improve, including increased 
        rates linked to the quality of a provider or program, 
        initiatives to support the education of teachers tied to 
        increased compensation, and ongoing financial resources to 
        providers to improve the quality of care.

    <bullet> Strategies to make special efforts to address the shortage 
of high-quality childcare for infants and toddlers by:

        <bullet>  Permanently authorizing a minimum of $106.8 million 
        or 5 percent of CCDBG discretionary funds (whichever is larger) 
        for supports to programs serving infants and toddlers, as 
        described in S. 3436.

    <bullet> Strategies to focus on the need to provide adequate 
reimbursement rates to programs by:

        <bullet>  Requiring the Department of Health and Human Services 
        to provide technical assistance to States on alternative 
        payment mechanisms, developing and conducting statically valid 
        and reliable market rate surveys, and identifying acceptable 
        approaches to use in developing and conducting market rate 
        surveys to reflect cost variations by geography, age of 
        children, children with disabilities and other special needs, 
        children with limited English proficiency, hours of operation 
        including non-standard hours, and provider type. HHS would also 
        provide information on alternate costing mechanisms to help 
        States begin to tie rates to the cost of implementing quality 
        standards and/or within tiers, beginning with licensing.

    <bullet> Strategies to strengthen the childcare workforce by 
requiring States to create a plan for integrated professional 
development system that includes:

        <bullet>  Professional standards that specify the 
        qualifications, content of education and ongoing development of 
        early childhood education professionals.
        <bullet>  Career pathways of routes of continuous progress for 
        early childhood professionals to achieve increased 
        qualifications, understand professional opportunities, and to 
        receive appropriate compensation.
        <bullet>  Articulation/transfer of professional development 
        credentials, courses, credits, degrees, and student 
        performance-based competencies.
        <bullet>  An advisory structure to examine needs and provide 
        policy recommendations.
        <bullet>  Workforce data to gauge impacts and system change and 
        inform planning and to use in evaluation and quality assurance, 
        including all settings.
        <bullet>  Financing of the integrated professional development 
        system, including supports for programs, individuals, and the 
        system's infrastructure.

    This system shall promote access to training, professional 
development and education (including initial and ongoing professional 
development) for all types of providers. Barriers such as costs, hours 
of work for providers, language, and culture shall be taken into 
account; and public financing shall be included.

    <bullet> Strategies to ensure that children have the early help 
they need to succeed by requiring States to demonstrate efforts to 
increase developmental screening for children.
    <bullet> Strategies to ensure that children are protected by 
requiring States to:

        <bullet>  Require comprehensive State and Federal criminal 
        background checks that are done in a timely fashion and that 
        are portable from program to program. Providers cannot be 
        charged more than $40 in combined fees for application and 
        administration of the checks. These must include an appropriate 
        appeals process, and other protections.
        <bullet>  Inspect and monitor all licensed and regulated 
        providers at least twice a year, one unannounced and one 
        announced, one to address health and safety and one to address 
        issues affecting quality.

    <bullet> Strategies to ensure that there is coordination among 
early childhood programs by requiring States to:

        <bullet>  Submit the State plan for CCDBG to the State Advisory 
        Council on Early Care and Education for comment before the plan 
        is submitted to HHS for funding. The plan must describe 
        coordination among childcare, Head Start, State pre-
        kindergarten programs, State-funded infant and toddler systems, 
        home visiting, and the Early Intervention Program for Infants 
        and Toddlers with Disabilities (Part C) and Preschool Grants 
        for Children with Disabilities (part B, section 619) under the 
        Individuals with Disabilities Education Act, including the ways 
        in which Federal and State resources are to be used to help 
        childcare providers meet the State pre-kindergarten 
        requirements and to help children enrolled in part-day pre-
        kindergarten programs receive full-day services as needed.

    <bullet> Strategies to ensure that the numbers of families 
receiving childcare assistance and reimbursement rates for providers do 
not decline by requiring States to guarantee that they will at a 
minimum maintain the number of children receiving federally funded 
childcare assistance as of fiscal year 2008 and reimbursement rates 
paid to childcare providers receiving Federal childcare funds as of 
fiscal year 2008.
    <bullet> Establishing the Child Care Facilities Financing Act 
authorizing the Secretary of HHS to award competitive grants to 
eligible entities to deposit into childcare capital funds for technical 
and financial assistance to eligible childcare providers to pay the 
costs of acquisition, construction, or improvement of childcare 
facilities or equipment, or for technical assistance to such providers 
to help undertake facilities improvement and expansion.
Prepared Statement of Hannah Matthews, Director of Child Care and Early 
          Education, Center for Law and Social Policy (CLASP)
    Thank you for the opportunity to submit testimony for the record on 
this important topic. CLASP develops and advocates for policies at the 
Federal, State, and local levels that strengthen families and create 
pathways to education and work to improve the lives of low-income 
people. Our childcare and early education work promotes policies that 
support both child development and the needs of low-income working 
parents.
    Childcare subsidies make quality childcare more affordable, support 
the healthy development of children, and help low-income parents access 
the childcare they need to go to work or to school to support their 
families.
    The Child Care and Development Block Grant (CCDBG) is the largest 
source of childcare assistance funding and helps nearly 1 million low-
income families. Childcare assistance makes a critical difference as to 
whether they are able to go to work each day, and it makes a difference 
for the quality of their children's care. In 2010, the latest year data 
are available, nearly half of these families had incomes below the 
Federal poverty level (about $18,310 for a family of three in 2010), 
and nearly all (93 percent) received help because they were working or 
in training or education programs.
    Decades of research show that childcare assistance helps stabilize 
employment and leads to increased earnings, making a difference in the 
economic health and security of families.\1\ Access to subsidies allows 
working poor families to use their limited income to meet other basic 
needs such as food, rent, and household utilities. When low-income 
families receive help meeting childcare costs they are more likely to 
enter and remain in the workforce and may work more hours. For example, 
a study of a representative sample of low-income single mothers found 
that receipt of childcare subsidies increased the probability of 
employment by 15 percent.\2\
---------------------------------------------------------------------------
    \1\ Matthews, Child Care Assistance Helps Families Work: A Review 
of the Effects of Subsidy Receipt on Employment, CLASP, 2006, http://
www.clasp.org/publications/ccassistance_employ
ment.pdf.
    \2\ Erdal Tekin, Child Care Subsidy Receipt, Employment and Child 
Care Choices of Single Mothers, 2004.
---------------------------------------------------------------------------
    Childcare subsidies benefit children as well. Subsidies make 
quality childcare more affordable. Most children (80 percent) receiving 
CCDBG assistance are cared for in licensed settings with the majority 
(66 percent) in center-based care. These children are more likely to 
experience stability in their care arrangements, which support healthy 
development. Without a subsidy, many low-income families are unable to 
afford even minimal quality childcare, and they surely cannot afford 
settings that foster healthy development and early learning to close 
the achievement gap.
    As recent as last month, new research published in the Child 
Development journal confirmed the importance of childcare subsidies for 
working families. Families receiving childcare assistance accessed 
better quality care than the care accessed by comparable families who 
were unable to get help.\3\
---------------------------------------------------------------------------
    \3\ Johnson, Ryan, and Brooks-Gunn, ``Child-Care Subsidies: Do They 
Impact the Quality of Care Children Experience?'' Child Development, 
June 2012.
---------------------------------------------------------------------------
    To be sure, there is room for improvement in the program. Stagnant 
funding for the block grant has led States to design their childcare 
programs in ways that make accessing quality childcare difficult for 
families. Rates paid to providers are far below the federally 
recommended levels, making it difficult for providers to support the 
costs of providing quality care. States have restricted income 
eligibility and other policies in order to manage funding shortfalls. 
Fundamental policy changes could be made in the program that would 
improve continuity for children and their parents.
    Given the strong research base of the critical role childcare 
assistance plays in helping low-income parents find and retain work and 
the benefits that affordable quality care has for children, it's 
critical that any improvements not be made at the expense of reducing 
access to childcare assistance, particularly as the country continues 
to recover from the Great Recession. Even at current funding levels, 
only one in six federally eligible children receive assistance. More 
resources for childcare assistance are greatly needed.
               essential improvements for reauthorization
    CLASP supports the following policy recommendations, developed by a 
coalition of national organizations, Essential Improvements to the 
Child Care and Development Block Grant. While not without costs, these 
improvements would help stabilize families receiving assistance, 
improve the quality of care for more low-income children, and support 
caregivers in providing higher quality care.
    Many of the below recommendations would improve the continuity of 
care for children, supporting positive child development and parental 
employment. Provisions such as requiring inspections for childcare 
programs, training for providers, and stronger professional development 
systems would provide basic health and safety assurances and increase 
the quality of available childcare. Strategies such as expanding higher 
quality care in low income and underserved areas are vital to making 
quality childcare available to additional high needs children. Finally, 
policies that make it easier for families to keep subsidies, such as 1 
year eligibility, and better coordination between childcare and Head 
Start and State pre-kindergarten would improve both families' access to 
the program and strengthen the early childhood system as a whole.
Essential Improvements to the Child Care and Development Block Grant
    The goals of this subchapter are to support States in ensuring that 
children receive high-quality childcare/early learning and after-school 
experiences in developmentally supportive, safe and healthy settings 
and that low-income parents receive the assistance they need to afford 
childcare so they can work or participate in education, training, or 
other activities that will enable them to work.
    States will be required within 3 years from the date of enactment 
to:

    <bullet> Require comprehensive State and Federal criminal 
background checks that are done in a timely fashion and are portable 
from program to program. Providers cannot be charged more than $40 in 
combined fees for application and administration of the checks. These 
must include an appropriate appeals process, and other protections.
    <bullet> Inspect and monitor all licensed and regulated providers 
at least twice a year, one unannounced and one announced: one to 
address health and safety and one to address issues affecting quality.
    <bullet> Create an integrated professional development system that 
includes (1) professional standards that specify the qualifications, 
content of education and ongoing development of early childhood 
education professionals; (2) career pathways of routes of continuous 
progress for early childhood professionals to achieve increased 
qualifications, understand professional opportunities, and be 
appropriately compensated; (3) articulation/transfer of professional 
development credentials, courses, credits, degrees and student 
performance-based competencies; (4) an advisory structure to examine 
needs and provide policy recommendations; (5) workforce data to gauge 
impacts and system change, inform planning, evaluation and quality 
assurance, including all settings; and (6) financing of the integrated 
professional development system including supports for programs, 
individuals, and the system's infrastructure.

        <bullet>  Such system shall promote access to training, 
        professional development, and education (including initial and 
        ongoing professional development) for all types of providers. 
        Barriers such as costs, hours of work for providers, language, 
        and culture shall be taken into account; and public financing 
        shall be included.

    Develop a system that ensures that all children receiving a subsidy 
as well as all children in childcare centers and family childcare homes 
receive a valid and reliable developmental screening and referral for 
appropriate services within a reasonable time of their entry into care.

    <bullet> Establish a 1-year eligibility determination period that 
is in effect, regardless of a change in parent's income or work status.
    <bullet> Establish a higher exit eligibility level that allows 
families to stay on childcare assistance even if their incomes grow to 
exceed the initial eligibility cutoff.
    <bullet> Ensure that payment practices for childcare providers 
reflect generally accepted payment policies that providers use for 
their private pay parents.
    <bullet> Develop and implement strategies to increase the supply 
and improve the quality of childcare in underserved areas such as 
higher payment rates and bonuses, direct contracting, grants, or other 
means of increasing the supply of high quality care in particular areas 
of the State or for particular categories of children such as care in 
low-income and rural areas, care for infants and toddlers, school-age 
children, children with disabilities and other special needs, and 
children in families with limited English proficiency, and care during 
non-standard hours, if shortages of these types of care are identified, 
and report annually to the Secretary of Health and Human Services on 
how these strategies are being used to expand the supply of this care.
    <bullet> Demonstrate efforts to coordinate Early Head Start, Head 
Start, State- and locally funded pre-kindergarten and childcare 
assistance in order to encourage full-day and full-year programs.
    <bullet> Guarantee that they will at a minimum maintain the number 
of children receiving federally funded childcare assistance as of 
fiscal year 2008 and reimbursement rates paid to childcare providers 
receiving Federal childcare funds as of fiscal year 2008.
    <bullet> Submit the State childcare plan for CCDBG to the State 
Advisory Council on Early Care and Education for comment before the 
plan is submitted to HHS for funding. The plan must describe 
coordination among childcare, Head Start, State pre-kindergarten 
programs, State funded infant and toddler systems, home visiting and 
part C and section 619 programs, including the ways in which Federal 
and State resources are to be used to help childcare providers meet the 
State pre-kindergarten requirements and to help children enrolled in 
part-day pre-kindergarten and Head Start programs receive full-day 
services as needed.
    <bullet> Demonstrate that initiatives to improve the quality of 
childcare give priority to providers and programs in which a 
significant share of children served are low-income (or receive 
federally funded childcare assistance) and include sufficient financial 
and other resources to support strategies that help providers at all 
levels of quality improve, including increased rates linked to the 
quality of a provider or program, initiatives to support the education 
of teachers tied to increased compensation, and ongoing financial 
resources to providers to improve the quality of care.

    The legislation will:

    <bullet> Permanently authorize a minimum of $106.8 million or 5 
percent of CCDBG discretionary funds (whichever is larger) for supports 
to programs serving infants and toddlers. These funds will be used for:

        <bullet>  Establishing or expanding neighborhood-based high-
        quality comprehensive family and child development centers;
        <bullet>  Establishing and operating community- or 
        neighborhood-based family childcare networks;
        <bullet>  Supporting statewide networks of infant-toddler 
        specialists;
        <bullet>  Initiatives to improve the quality of the infant-
        toddler workforce; and
        <bullet>  Development of infant-toddler components within 
        regulatory and quality improvement systems and support to reach 
        higher levels of quality.

    <bullet> Require that HHS provide technical assistance to States on 
alternative payment mechanisms, on developing and conducting 
statistically valid and reliable market rate surveys, and identifying 
acceptable approaches for States to use in developing and conducting 
market rate surveys to reflect cost variations by geography, age of 
children, children with disabilities and other special needs, children 
with limited English proficiency, hours of care including non-standard 
hours, and provider type. HHS will provide information on alternate 
costing mechanisms to help States begin to tie rates to the cost of 
implementing quality standards and/or within tiers, beginning with 
licensing.
    <bullet> Authorize a certain amount of mandatory funding.
    <bullet> Authorize such sums as necessary.
    <bullet> Authorize the Child Care Facilities Financing Act to 
authorize the Secretary of Health and Human Services to award 
competitive grants to eligible entities to deposit into childcare 
capital funds for technical and financial assistance to eligible 
childcare providers to pay the costs of acquisition, construction, or 
improvement of childcare facilities or equipment, or for technical 
assistance to such providers to help them undertake facilities 
improvement and expansion.
      Responses by Linda K. Smith to Questions of Senator Murray, 
                   Senator Sanders and Senator Casey
                             senator murray
    Question 1. What benefits has the Child Care Aware Hotline and Web 
site provided over the years to families, childcare providers, and the 
Federal Government?
    Answer 1. Over the years, the Child Care Aware hotline and Web site 
(http://childcareaware.org/), a project of Child Care Aware of America 
(formerly the National Association of Child Care Resource and Referral 
Agencies or NACCRRA), has provided parents with information about 
provider background checks, local childcare regulations, specialized 
services for military families, and tools for choosing a childcare 
provider. In program year 2010-11, over 76,000 families contacted the 
hotline, and the Web site helped make over 111,000 connections between 
parents and local childcare resource and referral agencies. The Child 
Care Aware hotline and Web site have also provided military families 
with targeted referrals and have administered the Military Fee 
Assistance program, which helps those who serve in the military find 
and afford childcare that meets their needs. In addition, the hotline 
and Web site have supported childcare providers through training 
webinars and other publications for professional development. All 
parent and provider resources are available in English and Spanish.
    Since fiscal year 2000, the annual appropriations law for funding 
of the Child Care and Development Block Grant (CCDBG) has provided 
resources for a national childcare hotline. In most years, the funding 
was specifically designated in the law for Child Care Aware. However, 
the fiscal year 2012 appropriations law indicated that $1 million was 
available for a competitive grant for the operation of a national toll-
free hotline and Web site to develop and disseminate childcare consumer 
education information for parents and help parents access childcare in 
their local community. In late June, the Department of Health and Human 
Services (HHS) Office of Child Care published a Funding Opportunity 
Announcement (FOA) seeking applications by August 15, 2012.\1\ Once 
awarded, this funding will support a National Child Care Consumer 
Education Referral Hotline and Web site.
---------------------------------------------------------------------------
    \1\ The HHS Administration for Children and Families' Deputy 
Assistant Secretary and Inter-Departmental Liaison for Early Childhood 
Development was previously the executive director of NACCRRA. She has 
recused herself from any involvement in the competition.
---------------------------------------------------------------------------
    The National Child Care Consumer Education Referral Hotline and Web 
site gives us the opportunity to incorporate the latest knowledge in 
childcare and to build on innovative State and local consumer education 
efforts, like indicators included in quality rating improvement systems 
(QRIS). The new FOA places stronger emphasis on transparency so that 
parents will be provided with clear information on quality indicators 
to help them make informed decisions about childcare. In addition, the 
FOA asks the grantee to focus on the hardest to reach clients--low-
income children receiving childcare subsidies who, research shows, will 
benefit the most from quality placements. The new Web site and hotline 
will help parents make informed childcare decisions by providing 
information, either directly or through links to local entities, on the 
following:

    <bullet> The full range of childcare choices available, including 
both home-based and center-based options;
    <bullet> State health and safety requirements, including background 
on the standards and how they are enforced, and each provider's history 
of compliance; and
    <bullet> Provider-specific information or indicators about quality 
of childcare. This includes the provider's status under a State or 
local QRIS or other quality indicators. Over half the States have 
implemented QRIS as a framework for organizing and guiding the progress 
of early care and education quality initiatives and communicating the 
level of quality to parents.

    Question 2. Based on your experience improving the quality of 
military childcare during your time at the Department of Defense, what 
would be the optimal decision points providing balance of resources 
dedicated to quantity and quality?
    Answer 2. Quantity and quality are both essential to an integrated 
childcare system. Too often discussions about childcare reform are 
burdened by a false dichotomy between access for children and quality 
of care--when they are actually one in the same. We need to improve 
access, but equally important is ensuring that low-income children 
supported by tax-payer dollars are in safe settings that promote their 
healthy development and school readiness.
    It is not sufficient to view childcare as merely a work support for 
parents, and thus focus only on the number of families receiving 
assistance--investing in high-quality childcare is a key opportunity to 
give our most vulnerable children the support they need to reach their 
full potential and lay the foundation for success in school and beyond. 
For millions of children, childcare is the primary preschool setting 
and yet many childcare teachers and programs do not have access to the 
training, assistance, and support they need. Childcare should be a 
place that engages children's minds, sparks their curiosity, and begins 
to develop their cognitive and social skills.
    While at the Department of Defense (DOD), I played a leading role 
in implementing the Military Child Care Act of 1989. Through this Act, 
DOD developed a system of high-quality childcare that provides minimum 
health and safety protections for children and allows parents choice 
among a variety of settings. During the first 2 years after passage of 
the Act, DOD invested resources to improve the quality of care while 
holding access constant. Once the quality was improved DOD became 
aggressive in expanding the access. Within the Act, there are four key 
provisions that built this framework of high-quality care:

    <bullet> Adequate financing to ensure access for all military 
families. Fees are based on total family income and parent fees are 
matched with adequate Federal funding;
    <bullet> Workforce preparation that is competency-based, conducted 
onsite and linked to higher wages. Everyone (center-based and family 
childcare) is required to complete minimum trainings that include: 
early childhood development, activities and disciplinary techniques 
appropriate to children of different ages, child abuse prevention and 
detection, and CPR and other emergency medical procedures;
    <bullet> Regular inspections of all childcare programs, including 
quarterly unannounced visits; and,
    <bullet> A hotline for parents to call to report safety and child 
abuse violations.

    These four provisions allowed the Department of Defense to set the 
bar for quality childcare, providing both access and quality in 
military childcare.

    Question 3. During the hearing, I questioned you about homelessness 
and the unique needs of childcare for homeless families. My bill, the 
Improving Access to Child Care for Homeless Families Act of 2012, would 
require States to describe in their childcare plan how the unique needs 
of homeless families will be met, including the dissemination childcare 
subsidy information to homeless parents. In addition, it prioritizes 
homeless children for access to childcare, and creates a State pilot 
program to identify best practices for improving access to and 
continuity of care for homeless children. In addition to addressing 
these areas, what provisions of CCDBG present unnecessary barriers to 
access for these, our most vulnerable, families and children?
    Answer 3. We appreciate our ongoing dialog with you and with 
service providers who work with families experiencing homelessness. 
Childcare assistance can help stabilize a family during a period of 
homelessness when parents need to search for new housing and when 
children can experience significant disruptions to their daily routines 
and early education. As a block grant, CCDBG offers significant 
flexibility for State implementation, and therefore by itself does not 
impose unnecessary barriers to serving the homeless population. The 
flexibility within CCDBG offers significant opportunities to serve 
homeless families and children. However, not all States take advantage 
of these opportunities, and barriers may exist depending on a State's 
policies. Through the dialog, we have identified options that we would 
encourage States to take within current law to better provide seamless 
early childhood education and afterschool services to homeless 
children. Below are examples of areas of flexibility within current law 
that States can use to increase services to homeless families and 
children.

    <bullet> Offering a grace period for the documentation of 
requirements (e.g. written documents necessary to establish 
eligibility): Homeless families may need additional time to access and 
provide copies of pay stubs or other documents.
    <bullet> Serving homeless children under the protective services 
category: Under Child Care Development Fund (CCDF) regulations, Lead 
Agencies can waive income requirements and co-payment requirements for 
children categorized as ``protective services'' or ``in need of 
protective service.'' Lead Agencies have the flexibility to include 
homeless children in this protective service category. Currently, 10 
States take advantage of this flexibility to include homeless children 
under this category.
    <bullet> Offering priority for services through ``special needs'' 
definition: CCDF regulations allow Lead Agencies to offer priority for 
services to very low-income families and children with special needs. 
Lead Agencies have the flexibility to define ``special needs,'' which 
can include homeless children. According to a preliminary analysis of 
CCDF State plan data, eight States currently offer priority to homeless 
children through their definition of special needs.
    <bullet> Expanding the definition of working to include job search: 
The Lead Agency can allow a family to retain their childcare subsidy 
during some period of job search. Since employment status and 
homelessness often go hand in hand, this policy offers key support for 
vulnerable families. Fifty States and territories (out of 56) have 
adopted this policy, but the length of time that families can retain 
childcare assistance during a job search period varies significantly.
    <bullet> Waiving co-payment for low-income families: CCDF 
regulations allow Lead Agencies to waive the co-payment requirement for 
families at or below the poverty level. Since homeless families 
typically fall within this range, this policy would have a significant 
financial impact on the homeless population. Currently, 14 explicitly 
waive co-payments for families at or below poverty level.
    We have established a work group at the Administration for Children 
and Families (ACF) to identify other opportunities we have to ensure 
that homeless families have access to childcare. We appreciate your 
leadership on this issue legislatively and look forward to continuing 
to work together to serve our most vulnerable children.
                            senator sanders
    Question 1. Current law provides for the possibility of 
automatically enrolling children in public health care (SCHIP or 
Medicaid) when they are found eligible for a childcare subsidy, but no 
States have adopted this option. They could be required to do so. 
Meanwhile, we know that many kids arrive at kindergarten with 
undiagnosed learning disabilities and developmental delays. Childcare 
providers could be required to screen children entering their care for 
disabilities that would make them eligible for additional services. Can 
you comment on either or both of these proposals?
    Answer 1. HHS has a long history of supporting partnerships between 
childcare programs and Medicaid. We have also been part of an 
interdepartmental collaboration aimed at meeting the Secretary's 
challenge of enrolling all eligible children in Medicaid and the 
Children's Health Insurance Program (CHIP) by 2015. We recognize that 
automatically enrolling children in CHIP or Medicaid when they are 
found eligible for assistance through CCDF can help streamline the 
eligibility determination process for families and administrators. 
However, State flexibility provided by CCDF means that States vary in 
what eligibility questions are asked of parents, who performs the 
eligibility determination, and how the State shares data with other 
agencies. These variations and the program's focus on State flexibility 
would make requiring States to automatically enroll children into CHIP 
and Medicaid as part of their CCDF automatic enrollment systems 
difficult.
    States vary on the degree to which developmental screenings are 
required in their childcare programs. According to the CCDF State Plans 
for fiscal year 2012-13, 28 States encourage or require childcare 
programs to conduct developmental screening and referral for children 
participating in childcare programs. In several States, developmental 
screenings are required for childcare providers to reach the top level 
of the State's quality rating and improvement system (QRIS).
    We continue to work with States and providers to expand the 
integration of developmental screenings into childcare programs while 
recognizing the training, tools, and resources providers need to 
conduct such screenings successfully. Screening tools can be costly to 
administer and difficult for childcare providers to use, especially in 
family childcare settings. ACF is currently working with other agencies 
[including the Health Resources and Services Administration (HRSA), the 
Centers for Disease Control and Prevention (CDC), and the Substance 
Abuse and Mental Health Services Administration (SAMHSA)] to explore 
lower cost, high-quality screening and referral tools for use in early 
care and education settings. OCC and some States have used CDC's 
``Learn the Signs. Act Early.'' free, research-based materials to raise 
awareness on developmental screenings and tracking, though these 
materials are not formally validated identification tools.
    Additionally, HHS and the Department of Education recognized the 
importance of such screenings in the Race to the Top Early Learning 
Challenge (RTT-ELC) grant competition, which encouraged States to use 
the grant to incorporate developmental screening into their early 
childcare and education (ECE) systems. Four of the nine RTT-ELC States 
funded in fiscal year 2011 (California, Delaware, Maryland, and North 
Carolina) are incorporating developmental screenings into their early 
care and education (ECE) systems. One of the five States eligible to 
apply for Phase 2 RTT-ELC grants (Oregon) submitted a fiscal year 2011 
RTT-ELC application proposing to incorporate developmental screenings 
into its ECE system.

    <bullet> In California, screening efforts at the local level will 
be elevated through RTT-ELC to enable improved guidance and to support 
screening for children in ECE settings. The California Early Childhood 
Educator Competencies, which describe the knowledge and skills early 
childhood educators read to provide high-quality care, include: 
``Observation, Screening, Assessment, and Documentation.'' This 
competency ensures that health and behavioral screenings are well-
integrated with other State ECE initiatives.
    <bullet> In Delaware, RTT-ELC funds will enable the State to scale 
up a continuum of enhanced community engagement, expanded screening, 
and capacity for followup services. Delaware utilizes Help Me Grow 
(HMG), run by the Division of Public Health, which provides a 
comprehensive framework for screening, referral, and followup, 
especially for children with high-needs. New State law requires private 
insurers to compensate physicians for conducting evidence-based 
screening. Home visiting is being used as a mechanism for reaching and 
screening the hardest-to-engage populations in the highest-need 
neighborhoods. The State will provide a common comprehensive evidence-
based screening tool for all ECE programs participating in its Quality 
Rating and Improvement System.
    <bullet> In Maryland, health-related screenings and service 
referrals for children with high needs are performed through the 
statewide system of ``Judy Centers'' located in public elementary 
schools. Each Judy Center must make screenings available to any child 
enrolled in or receiving services through kindergarten, pre-
kindergarten, an infants and toddlers program, preschool special 
education, or licensed childcare. In addition, each Judy Center may 
provide screenings and referrals to children with high needs who are 
enrolled in programs operated by local partnership agencies such as 
Family Support Centers, Early Head Start/Head Start, or Parents as 
Teachers. By 2013, Maryland will require the use of State-recommended 
developmental screening instruments for all licensed childcare 
programs. Maryland will begin training cohorts of pediatricians on 
developmental screening in collaboration with families and program 
staff.
    <bullet> North Carolina utilizes the Assuring Better Health and 
Child Development (ABCD) model in primary care settings and integrates 
screening into all well-child visits. In ABCD practices, 99 percent of 
the children receive developmental screenings. ABCD currently operates 
in 16 counties with eight coordinators providing training and onsite 
technical assistance. With its RTT-ELC grant, the State will expand 
ABCD statewide by increasing the number of coordinators and linking to 
the Community Child Care Network of NC, a quality assurance network of 
physicians using Medicaid to provide incentives for improved care based 
on Bright Futures National Standards (American Academy of Pediatrics).
    <bullet> In Oregon, as part of the Governor's early learning 
redesign and health care reform agendas, the Early Learning Design Team 
recommended that a set of standardized screening tools be applied at 
universal access points at prescribed intervals and be offered in a 
variety of settings by home visiting staff, ECE providers, and health 
care professionals. Oregon is one of five States participating in the 
ABCD III Initiative of the National Academy of State Health Policy. 
ABCD III will be developing and implementing community-level projects 
with eight managed-care organizations in Oregon to improve screening 
and followup care for children under 3 years.

    Lessons learned from these States will contribute to a blueprint 
for wider implementation.

    Question 2.  Rural areas pose particular challenges for childcare 
providers, including transportation across potentially large distances, 
whether from home to childcare, from childcare to Head Start, and so 
on. In addition, both rural and high poverty areas may face a shortage 
of qualified care providers. Are you aware of any strategies to improve 
the supply and quality of care in rural and high poverty areas?
    Answer 2. We recognize the unique circumstances of rural 
communities, including the challenges of developing an adequate supply 
of quality early care and education providers, providing access to 
training and professional development for teachers and practitioners, 
and addressing transportation barriers. An analysis of CCDF data showed 
that rural children receiving childcare subsidies were in care fewer 
hours per week and were more likely to be in family childcare 
arrangements than in center-based care. Additionally, we know that 
families in rural and high-poverty areas have fewer high-quality 
childcare options, particularly for infants and toddlers, school-age 
children, children with disabilities, and children in families with 
non-traditional work hours.
    ACF has worked with States, childcare providers, researchers, and 
other stakeholders to identify additional strategies and best practices 
for ensuring that families in rural areas have access to high-quality 
childcare choices. In 2010, we sponsored a Rural Early Childhood 
Institute that aimed to bring visibility to the challenges facing rural 
communities and explore promising practices that support the success 
and well-being of young children and their families in rural areas. 
Also, this year the HHS National Advisory Committee on Rural Health and 
Human Services focused on early care and education with presentations, 
discussions, and site visits during its recent meeting in Kansas City, 
MO. Through this work, we have identified some strategies to improve 
the supply and quality of care in rural communities.
    One strategy States are using to increase the supply of high-
quality childcare and to address the unique needs of rural communities 
is to award grants to or enter into contracts with providers or 
provider networks for direct services. While the majority of children 
receiving childcare subsidies receive assistance in the form of a 
voucher, 21 States are using grants or contracts to provide childcare 
assistance to families. Often States use these grants and contracts to 
support specific populations or geographic areas where childcare may be 
lacking. Grants and contracts are also used to fund wrap-around 
services for children in Head Start or public pre-kindergarten programs 
to provide full-day, full-year care and to fund programs that provide 
comprehensive services, such as transportation, health screenings, and 
nutritional support.
    By providing a guaranteed funding stream to providers for a set 
period of time, contracts and grants can be an effective tool to 
encourage entities to establish childcare businesses or nonprofit 
organizations. Grants or contracts may provide greater financial 
stability for childcare providers by funding a specified number of 
slots even if individual children leave the program. In contrast, 
because vouchers are portable, when parents leave a given provider, the 
provider loses the funding associated with that voucher. Without stable 
funding to pay for the higher costs of quality, most childcare 
providers, especially those in low-income or rural areas, cannot afford 
the qualified staff, equipment, and facilities that good program 
standards require. With greater financial stability, providers may be 
more willing to provide higher-cost care, such as for infants and 
toddlers, or to locate in low-income or rural communities.
    In order to increase the supply of high-quality childcare in 
underserved communities, some States also provide financial support to 
assist with high startup costs, facilities upgrades to meet licensing 
requirements, and quality investments. Some examples of how States use 
financial supports to build supply are expansion grants to increase the 
number of available infant and toddler slots, equipment grants to 
providers that participate in professional development programs, and 
low-cost, short-term loans to help cover the cost of minor renovations 
in childcare facilities. A number of States also support family 
childcare networks, which provide training, coaching, and other 
supports to promote sustainability and quality in family childcare 
homes, including in rural areas that lack the population base to 
support center-based programs.
    As one example of a comprehensive initiative supported by the Race 
to the Top-Early Learning Challenge, North Carolina is creating a 
Transformation Zone made up of a set of rural, distressed counties with 
high needs in the northeastern part of the State. After a thorough 
application process to demonstrate interest and level of commitment of 
the critical stakeholders in their communities, the State expects that 
four to six counties will come together to form the initial 
Transformation Zone to improve outcomes for young children and families 
in the participating communities. Through community-building, 
infrastructure development, and implementation of evidence-based 
programs and practices, these communities will implement more effective 
ways of working together for shared accountability and better results. 
Specific activities may include: providing an infant/toddler specialist 
as a resource; providing incentives to add high-quality infant/toddler 
slots; providing a healthy-
behavior specialist to support positive social-emotional development in 
childcare settings; and providing teacher salary supplements, rewarding 
the childcare workforce for increasing the level of educational 
attainment.

    Question 3. One way we can truly improve our childcare in America 
and in Vermont is to treat childcare providers as the true 
professionals they are. Too often, childcare providers are paid too low 
and with poor benefits, factors that discourage talented professionals 
from entering the profession. We must pay our childcare workers like 
any teacher, give them great benefits, and assist them with paying off 
student loan debt. Unfortunately, investing the amount of resources 
necessary to make this happen is not possible in the current budget 
climate. What can we do today to improve the childcare workforce 
without having a significant negative impact on access to care? Do you 
agree that we should require a minimum level of training which includes 
principles of early learning and child development?
    Answer 3. We agree that a well-trained workforce is necessary to 
ensure that children are in high-quality childcare programs. The 
President's fiscal year 2013 budget request outlines principles for 
reauthorization of the CCDBG Act, including supporting use of quality 
funds to expand professional development opportunities for the 
childcare workforce.
    Quality childcare hinges on building an effective workforce trained 
on early learning and child development to support healthy interactions 
between children and providers. Mounting evidence shows that 
strengthening teacher-child interactions is integral to improving child 
outcomes. From a protection standpoint, research has shown that basic 
health and safety trainings, including CPR and first aid, are 
associated with lower instances of accidental injury or death in 
childcare settings.
    In February 2012, the Government Accountability Office issued a 
report indicating that the paid early childcare and education (ECCE) 
workforce was made up of approximately 1.8 million workers in a range 
of positions, most of whom had relatively low levels of education and 
income. For example, nearly half of all childcare workers had a high 
school degree or less, as did 20 percent of preschool teachers. Average 
yearly income ranged from $11,500 for a childcare worker working in a 
child's home to $18,000 for a preschool teacher.
    The Department of Health and Human Services recently partnered with 
the National Academy of Sciences to sponsor a workshop and report on 
the ECCE workforce, which focused on ways to build ECCE as a 
profession, including developing administrative and data systems, 
quality standards, and professional development activities.
    To address the importance of childcare provider training, many 
States have begun implementing professional development systems that 
promote the use of evidence-based practices and provide pathways for 
teachers and caregivers to improve their knowledge and skills. 
Professional development systems support the workforce by providing 
increased benefits, scholarships, and financial incentives to providers 
as part of career pathways that lead to a publicly recognized 
credential. States are also supporting professional development through 
quality improvement initiatives for childcare programs. For example, 32 
States and territories provide increased subsidy payments to childcare 
programs with higher quality; the indicators of quality (such as 
achieving higher levels under a State's quality rating and improvement 
system) often include staffing qualifications. It is also important for 
States to assess the capacity of local and community colleges to 
provide early care and education class offerings, as well as other 
training opportunities, for providers. Finally, as States design 
professional development initiatives, it may be useful to distinguish 
between requirements for different roles (such as director, teacher, 
aide) and for different types of care (such as centers versus family 
childcare).
    We look forward to working with the committee to determine the best 
approach to ensuring that providers have the necessary knowledge and 
skills to provide safe and enriching environments for the children in 
their care.
                             senator casey
    Question 1. In your testimony and the questions that followed, you 
talked about making information about quality childcare readily 
available to parents. Do we know what works best with regards to how to 
share this information? Are there examples you can point to of how this 
consumer information is being effectively transmitted to parents?
    Answer 1. Providing parents with information about the quality of 
childcare available to them is necessary to ensuring that parents can 
make informed childcare choices. States have taken a variety of 
approaches to providing consumer education to parents and the general 
public.
    One consumer education practice that many States use is to post 
licensing and regulatory requirements and compliance reports on a 
public Web site. Research suggests that online publishing of licensing 
violations and complaints impact both inspector and provider behavior. 
One study found that after inspection reports were posted online, there 
was an improvement in the quality of care, specifically the classroom 
environment and improved management at childcare centers serving low-
income children.\1\ In the fiscal Year 2012-13 CCDF Plans, at least 30 
States and territories reported making all licensing information, 
including compliance records, available to parents and the public 
online, and 10 States and territories reported making at least some 
licensing information available on a public Web site or other online 
tool, such as a provider registry. Making available a Web site with 
accessible, easy-to-understand basic information about how childcare is 
regulated and monitored, as well as regulatory requirements met by 
individual childcare providers, can improve transparency and greatly 
reduce burden on families.
---------------------------------------------------------------------------
    \1\ Witte, A. & Queralt, M., What Happens When Child Care 
Inspections and Complaints Are Made Available on the Internet? NBER 
Working Paper No. 10227, 2004.
---------------------------------------------------------------------------
    A quality rating and improvement system (QRIS) is another consumer 
education tool that has been adopted by more than half of the States to 
provide information about quality indicators to parents. A QRIS is a 
framework for organizing and guiding the progress of early care and 
education quality initiatives and communicating levels of quality to 
parents. The majority of QRISs use a symbol, level, or number to 
indicate different levels of quality, such as one star, two stars, or 
three stars. These simple-to-understand ratings allow parents to 
differentiate among childcare programs, based on measures of quality.
    The QRIS framework includes five common elements: (1) program 
standards to define expectations for quality and quality indicators 
indicating different levels of quality; (2) supports, training, and 
technical assistance to help childcare programs in meeting childcare 
quality improvement standards; (3) financial incentives and monetary 
supports to assist childcare programs in meeting childcare quality 
improvement standards; (4) quality assurance and monitoring to measure 
childcare program quality over time; and (5) strategies to promote the 
childcare quality improvement standards to parents, programs, and the 
general public. These content areas align with the definition of 
``Tiered Quality Rating and Improvement System'' included in the Race 
to the Top-Early Learning Challenge (RTT-ELC).
    Parents in all 50 States also have access to childcare resource and 
referral (CCR&R) services that provide information on quality. Through 
a grant provided by CCDBG funds, a national toll-free hotline and Web 
site links parents to State and local CCR&R services. These agencies 
provide information on adult child ratios, training and inspection 
requirements and other quality-related information. While consumer 
education is essential for all families, some States have implemented 
additional efforts specifically targeted to parents receiving childcare 
subsidies. Several States include discussion of provider options during 
intake interviews and mail notices. States may also send parents on the 
waiting list for subsidy information about choosing quality care or the 
State's QRIS. They may also host orientations or workshops for subsidy 
parents to help them learn about quality childcare. Twenty-two States 
and territories reported in their fiscal year 2012-13 plans that 
quality ratings were used in targeted consumer education for parents 
applying for or receiving childcare subsidies.

    Question 2. You noted that disparities between low-income and 
higher income children start as early as at 9 months of age. How does 
dealing with this gap earlier in life compare in effectiveness to 
dealing with it later in life? Can you talk about the impact earlier 
investment could have on the Federal budget?
    Answer 2. High-quality early education programs promote the 
development of young children and provide a high return on investment 
because they are linked to increased school readiness and achievement, 
reduced use of special education, reduced use of public assistance, and 
reduced rates of juvenile crime. Research by Nobel Prize-winning 
economist, Professor James Heckman of the University of Chicago on the 
high-quality HighScope Perry Preschool Program shows a 7 to 10 percent 
per year return on investment.\2\ A study of the Chicago Child-Parent 
Center preschool program found an 18 percent annual return.\3\ Arthur 
Rolnick of the Federal Reserve Bank of Minneapolis, who testified 
before the subcommittee last summer, has concluded that early care and 
education is the best investment that this country can make.
---------------------------------------------------------------------------
    \2\ Heckman, J. & Moon, S.H. & Pinto, R. & Savelyev, P. & Yavitz, 
A. ``The rate of return to the HighScope Perry Preschool Program,'' 
Journal of Public Economics, Elsevier, vol. 94(1-2), February 2010.
    \3\ Reynolds, A.J., Temple, J.A., White, B.A., Ou, S., Robertson, 
D.L. ``Age 26 cost-benefit analysis of the Child-Parent Center early 
education program,'' Child Development, 82, 379-404. 2011.
---------------------------------------------------------------------------
    Research has also shown that the earlier a child enters a high-
quality early care and education program, the greater return on 
investment both in terms of child outcomes and the economy as a whole. 
As I mentioned in my testimony, disparities in child outcomes are 
evident as early as 9 months and grow larger by 24 months of age.\4\ 
Children at highest risk for falling behind are those who grow up in 
low-
income homes, and the more risk factors a child has, the wider 
disparities. There also is an increasing body of research that shows 
that chronic stress can disrupt the development of brain architecture 
from the earliest years, and that children in poverty are at higher 
risk for adverse physical and mental outcomes resulting from the 
accumulated stressors of living in economically disadvantaged 
circumstances.\5\ In fiscal year 2010, half the children served by CCDF 
lived below the Federal poverty line, putting them at risk of falling 
behind their peers. However, these children can also have biggest gains 
from attending a high-quality childcare program, and the longer a child 
is in a high-quality program, the more the child will get out of the 
program. An evaluation of 12 Educare programs showed that kindergarten-
bound children who began the program between birth and 2 years old 
score higher on school readiness tests than children who began the 
program at 3 or 4 years old.\6\ Heckman's research has also found that 
investments in early childhood education have larger economic gains 
than programs targeted at adults.
---------------------------------------------------------------------------
    \4\ Halle, T., Forry, N., Hair, E., Perper, K., Wandner, L., 
Wessel, J., & Vick, J. Disparities in Early Learning and Development: 
Lessons from the Early Childhood Longitudinal Study--Birth Cohort 
(ECLS-B), Child Trends, 2009.
    \5\ Garner, A., Shonkoff, J., Siegel, B., Dobbins, M., Earls, M., 
McGuinn, L., Pascoe, J., & Wood, D. ``Early Childhood Adversity, Toxic 
Stress, and the Role of the Pediatrician: Translating Developmental 
Science into Lifelong Health,'' Pediatrics, vol. 129(1), January 2012.
    \6\ Yazejian, N., & Bryant, D.M. Promising Results: Educare 
implementation study data, Chapel Hill: FPG Child Development 
Institute, UNC-CH, June 2012.
---------------------------------------------------------------------------
     Response by Rolf Grafwallner to Questions of Senator Murray, 
                   Senator Sanders and Senator Casey
                             senator murray
    Question 1. Having a stable childcare situation could do wonders 
for a homeless family--it would allow parents time to work, and 
hopefully get the family into a home. And childcare could also lessen 
the time a homeless child spends at a shelter, campground, or in a 
car--wherever the family is living. What kinds of specific outreach do 
your programs make to find and serve families who are homeless?
    Answer 1. The Maryland State Department of Education (MSDE) and the 
Maryland Department of Human Resources (DHR) formally work together to 
learn who and where the homeless are in each county. This is being 
facilitated by a Memorandum of Agreement (MOA) for each county that the 
agencies use to work together to serve families. Judy Centers are 
especially helpful, as are local departments of social services. 
Homeless 4-year-olds are automatically eligible to be enrolled in the 
pre-kindergarten programs operated by the county-wide local boards of 
education.

    Question 2. How do you identify and serve these homeless families? 
What are some of the unique barriers to serving homeless families?
    Answer 2. Many of the homeless families also request other 
services, so local social service agencies often identify them through 
a social or income assistance worker. MSDE, through the local 
departments of social services, assists the families by offering them a 
childcare subsidy voucher and working with the regional Resource and 
Referral Agencies to find care. Due to the unique mailing address 
issues for homeless families, the vouchers are often available for pick 
up or given to a social worker to deliver.
    Some of the unique barriers to serving homeless families are 
transportation which includes getting the child to and from the care 
arrangement, and finding a quality care setting for them due to 
providers sometimes not having or wanting to fill a slot short-term due 
to the transiency of homeless families.

    Question 3. What role does 12-month authorization for childcare 
subsidy play in providing greater stability in childcare for low-income 
families, and for other families in poverty?
    Answer 3. A 12-month authorization for childcare subsidy would help 
low-income families to participate in more stable care. If the change 
reporting requirement could be updated, and a change like the one for 
SNAP--simplified reporting or periodic review forms completed by the 
customer--could be instituted so that only changes reaching a certain 
income threshold would have to be reported it would be a great 
enhancement for all parties. This would create less frequent 
redeterminations for customers, greater consistency of care for 
children, stability for big or small business childcare providers and 
increased efficiency for childcare case managers.

    Question 4. Regarding childcare for homeless families, what are we 
seeing happen on the ground? What challenges are faced in proving 
continuous access for homeless families?
    Answer 4. The homeless family's circumstances are quite tenuous. 
They are often discovered when they approach social services for some 
kind of other assistance. They request TANF or need shelter because 
they come from domestic violence situations or are unemployed. 
Childcare is one of the supports they need in order to pursue or 
continue work, or just to stabilize their lives and know that their 
children are safe and in a healthy childcare environment.
    Continuous care for families is challenging because providers often 
do not want to accept a child for a short-term arrangement. Other 
challenges include having to continue to prove proof of income, 
identity, etc. Social services does a good job of obtaining this 
information for other sources in an attempt to assist families, but it 
is still a burden causing unnecessary stress on families.
    In regard to Head Start, Federal law does not require enrollment of 
homeless children, but guidance from ACF tries to resolve the issue of 
group size, ratio, and the needs of homeless children. Federal policy 
about homeless children in Head Start differs from Maryland's in that 
local school systems are required to enroll homeless children in pre-
kindergarten regardless of group size. Aligning Federal policies 
regarding homeless children with the State policies for pre-
kindergarten would provide consistent access to these programs and 
prevent unintended barriers established by the lack of Federal policies 
regarding homeless children.

    Question 5. What is the size of the current wait list in your State 
and on average how many months are families waiting for childcare 
subsidy? From your perspective, are there things the Federal Government 
can be doing to decrease the wait list, aside from additional funding?
    Answer 5. The size of the waiting list in Maryland is 12,362 
families and 18,909 children. The wait list has been in effect since 
March 2011. The term wait list is a misnomer. Maryland has actually 
instituted a freeze on non-TANF customers. Families wait until there 
are enough funds available to serve all or most of the children on the 
list.
    If the reauthorization incorporates the McKinney-Vento definitions 
of homelessness and makes homeless children a priority for subsidies, 
that should raise awareness and outreach. Allowing a little cap 
flexibility should also prove helpful. Requiring mandatory TANF 
transfers from agencies that administer the subsidy program, but do not 
manage the regulations or the budget would also help, because the CCDF 
funds could be used for the wait list customers. (This is not the case 
in MSDE after TANF funds have been redirected for fiscal year 2013, 
thereby eliminating TANF for childcare subsidy.)
                            senator sanders
    Question 1. Current law provides for the possibility of 
automatically enrolling children in public health care (SCHIP or 
Medicaid) when they are found eligible for a childcare subsidy, but no 
States have adopted this option. They could be required to do so. 
Meanwhile, we know that many kids arrive at kindergarten with 
undiagnosed learning disabilities and developmental delays. Childcare 
providers could be required to screen children entering their care for 
disabilities that would make them eligible for additional services. Can 
you comment on either or both of these proposals?
    Answer 1. Maryland was not aware of the possibility of enrolling 
children in Medicaid when they are found eligible for a childcare 
subsidy. Perhaps other States are not aware of it either. Making it a 
requirement is an excellent way to gain access to the health care many 
children so desperately need.
    Maryland Child Care Regulations require that a health and 
developmental screening be completed by the child's pediatrician/health 
care provider prior to enrollment in childcare. This screening may or 
may not identify developmental delays or learning disabilities. As part 
of Maryland's Race to the Top Early Learning Challenge Grant, four 
State-recommended valid developmental screening instruments for 
children birth-5 years will be introduced and training on their use 
will be provided to pediatricians and childcare providers with the goal 
of identifying children in need of additional services. Childcare 
programs will be required to implement the use of an approved screening 
tool by 2013 (for those participating in Maryland's Quality Rating and 
Improvement System) and by 2014 for all other childcare providers. 
Procedures will be in place for pediatricians and childcare providers 
on how to followup on children who are identified with potential 
learning disabilities who may be eligible for additional services.

    Question 2. Rural areas pose particular challenges for childcare 
providers, including transportation across potentially large distances, 
whether from home to childcare, from childcare to Head Start, and so 
on. In addition, both rural and high poverty areas may face a shortage 
of qualified care providers. Are you aware of any strategies to improve 
the supply and quality of care in rural and high poverty areas?
    Answer 2. Maryland employs several strategies to improve the 
quality of care in rural and high poverty areas including:

    <bullet> Judy Center Model/Judith P. Hoyer Early Child Care and 
Education Enhancement Program;
    <bullet> Breakthrough Center Approach--Title 1 School Attendance 
Areas;
    <bullet> Strong outreach to programs, providers and local childcare 
associations by childcare resource and referral agencies;
    <bullet> Quality improvement--a key component in Maryland's Quality 
Rating and Improvement System will be the addition of Quality Assurance 
Specialists, located throughout the State in regional childcare 
licensing offices, tasked with outreach, recruitment and support of 
programs embarking on quality improvement.

    Question 3. One way we can truly improve our childcare in America 
and in Vermont is to treat childcare providers as the true 
professionals they are. Too often, childcare providers are paid too low 
and with poor benefits, factors that discourage talented professionals 
from entering the profession. We must pay our childcare workers like 
any teacher, give them great benefits, and assist them with paying off 
student loan debt. Unfortunately, investing the amount of resources 
necessary to make this happen is not possible in the current budget 
climate. What can we do today to improve the childcare workforce 
without having a significant negative impact on access to care? Do you 
agree that we should require a minimum level of training which includes 
principles of early learning and child development?
    Answer 3. The quality of childcare is only as good as the 
environment, activities and relationship between the childcare provider 
and the child and family. In order to recruit and retain the best 
people for childcare, those working in the early education field must 
be able to meet their own economic needs with a living wage and means 
for advancement. A portion of the set-aside funds could be designated 
for workforce development within a range and up to a certain 
percentage, for activities that would directly impact the childcare 
provider and the quality of care. An example of a program that works is 
Maryland's Child Care Credentialing Program that pays cash bonuses to 
childcare providers who continue working in childcare, meet specific 
annual training and professional activity requirements and offers a 
career ladder with increased bonuses available as additional 
requirements are met. The Maryland Credentialing program provides 
training vouchers and/or reimbursement for State-approved training up 
to an annual amount for participating childcare providers.
    A minimum level of training is essential for childcare providers to 
understand child development and developmentally appropriate learning 
activities. This is the ``what we do and why we do it'' minimum level 
of training that all families should expect of those they entrust with 
the care of their children. Maryland's childcare licensing regulations 
require all persons wishing to become licensed childcare providers or 
to work as teachers in licensed childcare centers to complete a minimum 
amount of training or academic coursework in the principles of early 
learning and child development before being permitted to serve children 
in care, and to complete continued training in this area during each 
year thereafter.
                             senator casey
    Question. Maryland, by housing CCDBG in the Department of 
Education, appears to have done a good job at aligning CCDBG with State 
educational goals. Could you explain in greater detail some of the 
steps Maryland has taken to encourage communication and promote 
alignment between CCDBG, other early education programs, and the 
elementary and secondary school systems? Within the context of CCDBG 
reauthorization, how do you think we can promote such alignment in 
other States?
    Answer. Since 2006, the Maryland State Department of Education 
(MSDE) has had oversight of all early childhood programs, including 
childcare. The promotion of the alignment between CCDBG and other early 
learning programs as well as 
K-12 education includes the following:

    MSDE Standards for Implementing High Quality Early Childhood 
Programs for Kindergarten, pre-kindergarten (at public schools), Head 
Start and Child Care Centers. These Standards are used for State 
program accreditation.
    MSDE is using childcare subsidies and CCDBG quality funds for 
childcare centers that are pursuing or have obtained program 
accreditation. For instance, licensed childcare programs have access to 
accreditation support (which essentially pays for application fees, 
materials and planning time to achieve program accreditation) through 
Maryland's Child Care Credentialing Program.
    MSDE Early Learning Standards (Birth to pre-kindergarten) align 
with the Maryland State Curriculum Standards and will align with the 
new Maryland Common Core Standards (K-12). MSDE is using CCDBG quality 
funds for developing the standards for children, birth to 48 months, 
funding infant/toddler specialists for all regions of the State, 
working with childcare providers and early Head Start, and promoting 
the use of early childhood curricula (which align with the early 
learning standards) in childcare centers and family childcare homes.
    MSDE's Child Care Workforce System aligns with the State's teaching 
certification requirements by using a career ladder system which 
creates levels of credentials and links up to the State teacher 
certification through an alternative pathway model available to 
individuals holding 4-year degrees and employed in childcare (The 
alternative pathway model is currently being implemented as part of the 
Race to the Top--Early Learning Challenge Grant). MSDE spends a third 
of its CCDBG quality funds on the credentialing system (including 
bonuses, training vouchers, and scholarships).
    Maryland also created program partnerships which blend/combine a 
variety of funding streams. These are:

    Judy Center Partnerships (i.e., Title I schools entering into a 
formal partnership with Head Start, childcare, health services, etc.) 
to promote school readiness for children of low income, those with 
disabilities, and English language learners. The funds include State, 
Head Start, and CCDBG funds to implement the partnership. All the early 
childhood programs in the Partnership, including pre-K and kindergarten 
must obtain program accreditation and implement an early childhood 
curriculum.
    Childcare and pre-kindergarten (Preschool for All model). MSDE 
issues State funds to accredited childcare centers (among others) to 
incorporate a pre-kindergarten (either half-day or full-day) in the 
childcare center. The pre-kindergarten must meet State pre-kindergarten 
regulations (including a State certified teacher). This model is 
currently in a pilot phase. The childcare centers use childcare subsidy 
to enroll children from low-income families. The State funding offers 
tuition breaks for families below 300 percent of FPG (thus providing 
relief in terms of childcare costs in addition to childcare subsidy for 
a segment of wage earners that do not have access to any financial 
support).
    There are a number of States who have instituted similar programs 
and models. We propose that the CCDBG reauthorization, aside from 
requiring licensing standards, criminal background checks and providing 
automatic access for children who are homeless, consider the 
aforementioned models and advancements among the top tier States as the 
guide to steer Federal dollars toward improving the quality of the 
childcare system.
    For that purpose, we propose the following:

    Development of a formal Memorandum of Agreement (MOA) between all 
major child serving agencies for the purpose of developing a 3-year 
high quality State plan (replacing the current State plan cycle) which 
will facilitate interagency coordination, streamline monitoring, and 
allocate resources, including those from other Federal or State funds, 
to increase the number of children with high needs having access to 
high quality programs. The plan should include specific benchmarks 
regarding increased enrollment of children with high needs in CCDBG-
funded programs, as well as benchmarks on improving the overall 
workforce in childcare.
    As part of the 3-year State plan, all of a State's childcare 
programs receiving CCDBG funds should participate in the State's 
quality improvement system. Those States, that do not have a quality 
improvement system in place, should submit a plan to establish such a 
system within 3 years.
    Since there are States that reject the notion of a quality 
improvement system, States should have the option to request a waiver 
to be exempted from this requirement. In terms of funding, it is 
suggested to create base level funding allocation for all States and, 
in addition, ``demonstration grants'' to those States that have 
established or agree to embark on developing a quality improvement 
system.
    Provide sign-off of the CCDBG State plan by the State's early 
childhood advisory council, the State's Chief State School Officer, and 
the State's Governor's office.
       Response by Phillip Acord to Questions of Senator Murray, 
                   Senator Sanders and Senator Casey
                             senator murray
    Question 1. Having a stable childcare situation could do wonders 
for a homeless family--it would allow parents time to work, and 
hopefully get the family into a home. And childcare could also lessen 
the time a homeless child spends at a shelter, campground, or in a 
car--wherever the family is living. What kinds of specific outreach do 
your programs make to find and serve families who are homeless?
    Answer 1. The Children's Home/Chambliss Shelter works with several 
programs in the community that serve homeless children. Those children 
are given a priority and bypass our waiting list. Presently, the 
program where the family is living pays the minimum childcare fee but I 
would suggest that CCDBG funds be available for those children.

    Question 2. How do you identify and serve these homeless families? 
What are some of the unique barriers to serving homeless families?
    Answer 2. Because we mainly serve these children in conjunction 
with another agency whose primary focus is serving homeless children we 
don't have to worry about identifying those families. Barriers are 
transportation, employment, and hours of employment--they usually have 
to take jobs that cause them to work nights and weekends, if they are 
living at a homeless shelter then food and clothing is not an issue but 
if they are truly homeless then food and clothes is an issue. Being 
able to secure childcare for the hours they have to work that care for 
the ages of their children and charge on a sliding fee scale is a major 
barrier.

    Question 3. What role does 12-month authorization for childcare 
subsidy play in providing greater stability in childcare for low-income 
families, and for other families in poverty?
    Answer 3. Requiring States to authorize childcare for an eligible 
family for a year--instead of requiring checks multiple times each 
year--would go a long way to make a difference for families.
    Requiring authorization more frequently is a barrier because 
families that typically qualify for CCDBG get jobs that do not give 
their employees a lot of time off and what they get they use for when 
their children are sick. If they could be reauthorized by phone or 
online that would really help, too.
    With a plan in place to be eligible for a year, the parent would 
know that their child's placement in a program like Children's Home can 
continue uninterrupted, which means that child will be with the same 
caregiver or teacher throughout the year, forming stronger bonds, 
avoiding the disruption that works against learning and development and 
that's too common when parents have to renew eligibility every few 
months.
    States have the option to do this in current law but my State--
Tennessee--does not; nor does Washington State. This should be a 
requirement in all States.

    Question 4. What do you see as the biggest barrier to improving 
quality and what steps would you recommend for overcoming these 
barriers?
    Answer 4. We know that the quality of a program is mainly 
determined by the skill level of the teacher. So, first I have to be 
able to pay a livable salary to attract and retain good teachers.
    As a provider, the biggest barrier to improving quality is the low 
reimbursement rates States use to pay providers for care. What I'm able 
to do in my program--who I can hire in the classroom and how much I can 
pay them, what curriculum and materials we can afford, all of it--is a 
question of the revenue available, of what parents and the State pay 
me.
    It helps when States pay more for higher quality care like what 
occurs in my State's Quality Rating and Improvement Scale, which 
rewards programs that have achieved a star rating. This is definitely a 
step in the right direction, but even in States that reward higher 
quality programs with higher rates, those rates usually don't come 
close to the federally recommended level.
    I want my teachers to have some type of credential, a CDA, an 
Associate Degree or Bachelor Degree. I'm competing with the public 
school system and Head Start so I have to have a subsidy of some type 
to have the funds I need to hire and retain good teachers which are the 
heart and soul of a quality Early Education Program.

    Question 5. What other Federal or State resources do you rely upon 
to provide high-quality care and how difficult is it to access and 
combine those funding streams?
    Answer 5. The Children's Home/Chambliss Shelter collaborates with 
Head Start and Early Head Start as well as with the public school 
system in relation to pre-K classrooms being located in our building. 
We utilize our local Child Care Resource and Referral agency that is 
funded through CCDBG.
    If I'm serving a Head Start child then I can only get CCDBG funding 
for the non-Head Start hours. I can get CCDBG support for the child 
that is in the pre-K classroom because that is funded with State 
dollars. Bringing these together is an administrative and reporting 
challenge. It is also a programmatic challenge, with differing 
standards and requirements. Each of the programs also has its own 
monitoring requirements and routines.

    Question 6. What is the one thing that your State has done in the 
last 5 years that has most significantly impacted quality in the 
childcare program, positive or negative? What was the cost associated 
with it?
    Answer 6. Tennessee was one of the first States to establish a 
Quality Rating Improvement Scale (QRIS). Every State-regulated program 
in Tennessee has to be assessed annually. The results of that 
assessment along with the results of the State licensing results 
determines if you receive one, two or three stars.
    If you serve CCDBG clients then you receive 10 percent more in 
reimbursement for a one star, 15 percent more for a two star and 20 
percent more for a three star.
    In addition to QRIS and the increased reimbursement for better 
quality programs, we also have six unannounced visits every year for 
all regulated programs in our State.
    I think these three components have contributed to increased 
quality ECE services to low-income children in the State of Tennessee. 
All of these initiatives are funded through the quality part of the 
CCDBG funds. I don't know the exact cost but I do know that Tennessee 
puts about 15 percent of their funds into quality and at one time it 
was 17 percent, as contrasted against the 4 percent required.
    I'm distressed that all the CCDBG funds in Tennessee are used to 
support the TANF clients and not the working poor because there aren't 
enough funds to reach these families. Without access to subsidy, many 
families will be forced into cheaper, low-quality options and children 
will suffer. With fewer children enrolled through subsidy, many 
programs are hard pressed to maintain budgets, deliver quality, and in 
some cases even stay open.

    Question 7. Traditionally, States have been the primary enforcers 
of health and safety standards, while the Federal role has focused on 
quality standards. In your view, is this the appropriate role for State 
and Federal Governments?
    Answer 7. Yes, I think that health and safety is a more appropriate 
State responsibility but I think the Federal role should be quality and 
access.
    State regulatory requirements are the foundation of quality, the 
starting place. Because there is not consistency between the States I 
think CCDBG should establish a minimum requirement for health and 
safety that the States have to establish in order to receive 100 
percent of the CCDBG funds. The Federal Government is going to have to 
take the lead to help States ensure that all low-income children have 
access to quality early childhood education programs and services.
                            senator sanders
    Question 1. Current law provides for the possibility of 
automatically enrolling children in public health care (SCHIP or 
Medicaid) when they are found eligible for a childcare subsidy, but no 
States have adopted this option. They could be required to do so. 
Meanwhile, we know that many kids arrive at kindergarten with 
undiagnosed learning disabilities and developmental delays. Childcare 
providers could be required to screen children entering their care for 
disabilities that would make them eligible for additional services. Can 
you comment on either or both of these proposals?
    Answer 1. I'm not that sure about the SCHIP or Medicaid eligibility 
issue but I do agree that every child should be screened while they are 
in a regulated early education program.
    In Tennessee we have a program called Tennessee Early Intervention 
Screening that works with ECE programs across the State, they focus on 
screening children under 3 years of age and then making the appropriate 
referral. We work with the United Way to do assessments on all of our 
children twice a year.
    If the goal is to make sure every low-income child has access to 
quality early childhood education then certainly there should be some 
mechanism to automatically enroll them if they meet the criteria for 
another program that has the same eligibility requirements.

    Question 2. Rural areas pose particular challenges for childcare 
providers, including transportation across potentially large distances, 
whether from home to childcare, from childcare to Head Start, and so 
on. In addition, both rural and high poverty areas may face a shortage 
of qualified care providers. Are you aware of any strategies to improve 
the supply and quality of care in rural and high poverty areas?
    Answer 2. Actually CCDBG was that strategy but it takes a critical 
mass of children in those rural areas receiving CCDBG in order for a 
program to sustain itself. With the reduction in CCDBG funds (and in 
Tennessee restricting those funds to only TANF clients) and the 
implementation of the pre-K program which diverted the poor 4-year-old 
children to the public school system, there was not that critical mass 
to help sustain those programs.
    Our 30-hour training requirement on the front end and our 
monitoring and QRIS helps improve the quality of the service if we had 
the CCDBG subsidy to help establish and sustain those rural programs.

    Question 3. One way we can truly improve our childcare in America 
and in Vermont is to treat childcare providers as the true 
professionals they are. Too often, childcare providers are paid too low 
and with poor benefits, factors that discourage talented professionals 
from entering the profession. We must pay our childcare workers like 
any teacher, give them great benefits, and assist them with paying off 
student loan debt. Unfortunately, investing the amount of resources 
necessary to make this happen is not possible in the current budget 
climate. What can we do today to improve the childcare workforce 
without having a significant negative impact on access to care? Do you 
agree that we should require a minimum level of training which includes 
principles of early learning and child development?
    Answer 3. All of my ECE teachers and assistant teachers have to 
have 30-clock hours of training within the first year of employment, 
according to State regulation.
    In addition to that training we require all of our teachers to 
complete a course called Tennessee Early Learning Development System 
(TNELDS). This is a one-time course that focuses on early development 
stages and behaviors. It is about a 3-hour class per age group: infants 
and toddler, 3- and 4-year-old children, and school age. Plus, my 
program requires all staff, full-time and part-time to complete 24 
hours of training each year.
    Early Education Teachers are professionals and we do need to pay 
them accordingly, provide benefits and require ongoing training like 
their counter parts in the public school system. But at the current 
rate of investment in these programs, and the mix of low reimbursement 
rates and parent fees, this will continue to be hard to come by.
                             senator casey
    Question 1. You discussed how many parents have been cutoff from 
CCDBG subsidies in recent years, due to budget cuts. How do parents 
adapt when their children are removed from subsidized childcare? Where 
do those children end up when their parents are at work? How does it 
impact their parents' ability to maintain employment?
    Answer 1. Studies of low-income families on waiting list for 
childcare assistance show a range of negative consequences: families 
are unable to work, face tremendous financial pressures, or use care 
that is less than satisfactory or unstable.
    I have had many parents sit in my office and cry because they were 
not able to get a CCDBG Child Care subsidy and they could not afford my 
fee which is established using a sliding fee scale based on their 
income and the number in the family.
    A typical family in need of a CCDBG Child Care subsidy could be a 
single mother, whose husband has deserted her and his three children. 
She has limited skills and is only able to get a job making minimum 
wage, which is $7.25 per hour or $15,080 annually if she works 40 hours 
per week. Her net take-home pay is about $12,064 or $232 per week. 
There is no way she can pay for high-quality childcare and have money 
to pay her other bills. Even with food stamps and a housing subsidy she 
can't afford to pay for a good early childhood education for her 
children, she has to have a CCDBG Child Care subsidy to make it work.
    Working poor parents do whatever they have to in order for their 
children to get a good start in life and a good education. Following 
are some things that my parents tell me that they do in order for their 
children to attend my early childhood education program:

    <bullet> They work two jobs or more.
    <bullet> They go without necessities for themselves, such as food 
and medicine.
    <bullet> They borrowed money and go into debt to pay their 
childcare fee.
    <bullet> They put off paying other bills, resulting in them having 
to move frequently or having their utilities shut off or losing their 
vehicle.
    <bullet> If they were in school they had to drop out or cut back to 
one class.
    <bullet> If they were fortunate enough to have some money saved 
when they experienced a divorce or desertion then they would spend 
their savings on childcare.
    <bullet> A lot of our parents end up filing for bankruptcy. Many 
have their wages garnished.
    <bullet> Many parents have to put their children in substandard 
childcare that they know is negatively affecting their children.
    <bullet> A lot of school-age children become ``latch key'' 
children, and in the summer elementary-age children watch their pre-
school age siblings because their parent can't get a CCDBG Child Care 
subsidy.

    When Tennessee stopped maintaining a waiting list there were 37,000 
families on the waiting list. This situation exists in most every State 
in our Nation. Working poor families have to have childcare in order to 
work and they have to have a CCDBG Child Care subsidy in order to pay 
for childcare that provides a good early education. It is very sad that 
we are forcing parents to go without food or to file for bankruptcy 
because the CCDBG program is woefully under-funded.
      Response by Janet Singerman to Questions of Senator Murray, 
                   Senator Sanders and Senator Casey
                             senator murray
    Question 1. Having a stable childcare situation could do wonders 
for a homeless family--it would allow parents time to work, and 
hopefully get the family into a home. And childcare could also lessen 
the time a homeless child spends at a shelter, campground, or in a 
car--wherever the family is living. What kinds of specific outreach do 
your programs make to find and serve families who are homeless?
    Answer 1. Child Care Resources Inc. (CCRI) operates Child Care 
Search, a consumer education and referral (CER) service to help all 
families, including homeless families with children, to access 
information about early care and education and school-age childcare 
programs across the five counties served by the agency. Additionally, 
our CER staff engage in extensive community outreach to increase the 
visibility of this service, including providing phone-based, walk-in, 
Internet accessible and, as-need warrants, onsite referrals at 
community social service agencies. Homeless families access CER 
services either directly or through caseworkers to whom they may be 
assigned at a local department of social services, community non-profit 
agency, and/or area shelters.
    Child Care Resources Inc. also serves as childcare subsidy 
administrator for Mecklenburg County and as such, manages the largest 
county childcare subsidy allocation in NC. However, due to inadequate 
Federal and State funding, CCRI only received enough funding in fiscal 
year 2012 to serve a monthly average of 7,116 children or 24 percent of 
all eligible children.
    When funding is inadequate to serve all children, a waiting list 
must be established and access to childcare is granted through priority 
needs. A committee convened by the local department of social services 
determines Child Care Subsidy Priority Populations every 2 years as 
part of the local WorkFirst (TANF) plan. As of August 1, there were 
more than 4,100 children on CCRI's waiting list for childcare subsidy 
dating back to January 2010.
    In such an environment, homeless families would languish on the 
waiting list as long as other non-priority populations of children and 
families (e.g., non-TANF working poor families). However, CCRI has been 
authorized by Mecklenburg County to provide priority childcare subsidy 
access to caseworker-approved families residing in one of four local 
shelters who are employed at least 20 hours per week. This means that 
such families, once determined to be eligible, receive immediate access 
to childcare subsidy which enables them to select and use a three-, 
four- or five-star (higher quality) licensed childcare program. When a 
family leaves a shelter for more permanent housing, the child can 
continue to receive childcare subsidy, but his/her family is required 
to meet the regular guidelines of employment of at least 30 hours per 
week with a household income less than the NC income eligibility 
household limits.
    Working poor homeless families who do not qualify for TANF, do not 
have an active child protective services case, or are not connected to 
one of the shelters referenced above are currently not likely to access 
childcare subsidy when a childcare subsidy waiting list is in effect.
    At the State level, the North Carolina Division of Child Care and 
Early Education has been meeting for more than a year with a coalition 
of individuals representing the interests of homeless children and 
families and anticipates that in the near future, a policy will be 
adopted at the State level that will classify income/work eligible 
homeless children as a statewide priority population to be served 
(averting the placement of such families on waiting lists for access to 
childcare subsidy).

    Question 2. Have you seen barriers to childcare access for those 
families?
    Answer 2. Families with children are the fastest growing group 
among the homeless. A community needs assessment is one of the first 
steps to identify the magnitude of the challenge to serve homeless 
families and to identify where they are located and their general cause 
of homelessness. Establishing partnerships between CCR&R agencies and 
organizations that serve the homeless is critical to ensuring these 
families have access to the information they need about childcare and 
to assisting them in accessing available services (i.e., assist in 
connecting them with subsidy agencies, caseworkers to help them with 
childcare and TANF potential eligibility as well as food stamps, 
Medicaid and other essential supports for which they may be eligible).
    Typically, parents can't look for a job with children in tow. 
CCR&Rs work with shelters to ensure that children can be cared for 
onsite or families have access to childcare in the community. A recent 
example of this was CCRI's provision of planning and startup assistance 
to Hall House, a transitional housing site that was a collaborative 
effort of a variety of Charlotte-based nonprofits led by a local agency 
that exclusively serves homeless children and their families.
    While access to childcare subsidy funding is the most significant 
barrier to accessing childcare faced by such families, there are a 
myriad of simple details that must also be addressed (for example, a 
physical and mailing address is needed when making an application for 
assistance). Being homeless is not just about being without a home. 
There are physical, psychological, and other challenges when working 
with a family who has lost everything. For women, there may be a 
domestic violence situation that the family has left. For some 
families, there may be a series of economic problems that have led to 
homelessness, a divorce or separation, addiction or mental health 
challenges. In some areas of the country following a natural disaster, 
families can become homeless overnight and need to put their lives back 
together, which begins with the cleanup or salvage of whatever may be 
remaining of their current home while making plans to begin anew. 
Understanding the reasons for homelessness for families guides efforts 
to assist them.
    In Mecklenburg County, there is sufficient access of quality 
childcare, so supply side issues are not a barrier. Similarly, many 
childcare providers serving children birth to five provide 
transportation to and from their program from shelters. Also, due to 
the McKinney-Vento Act, Charlotte Mecklenburg Schools provide 
transportation for school-age children from school to the childcare 
program of the family's choice.
Supporting Families and Child Care Programs in the Aftermath of Natural 
        Disasters
    Childcare resource and referral agencies throughout the country 
have played a critical role in assisting families with childcare as 
communities rebound from floods and hurricanes. During emergency 
situations, CCR&Rs have helped set up temporary childcare programs to 
enable parents to wait in line for government assistance, fill out 
forms, ask questions of various agencies, clean up their current 
property (where it may be unsafe for small children to accompany them) 
as well as look for employment. Child Care Resources Inc. was one of 
the first CCR&Rs to do just this when it set up emergency childcare 
during Hurricane Hugo, Hurricane Floyd, in preparation for Y2K issues, 
and for Hurricane Katrina evacuees who were temporarily housed at 
Charlotte's Coliseum.
    CCR&Rs have trained childcare staff working in temporary childcare 
programs to be better prepared to address the challenges of caring for 
children who may have suffered a traumatic experience or who are 
reacting to their parents who are reacting to a traumatic experience. 
These children benefit from caregivers who are trained to work with 
them and, when appropriate, refer their families to available mental 
health services. In addition, CCR&Rs work with childcare providers 
after a disaster to assist them in getting the help they need to remain 
open for business, engage in activities to repair their programs, or 
otherwise ensure that the supply of childcare is available to ensure 
that parents can have access to childcare while they restore their 
lives. Childcare is critical following a disaster for the restoration 
of a community.

    Question 3. What role does 12-month authorization for childcare 
subsidy play in providing greater stability in childcare for low-income 
families, and for other families in poverty?
    Answer 3. The continuity of care that children receive during their 
early years is critical to their healthy development as they learn to 
form secure attachments and bond with their primary caregivers (parents 
and others). A 12-month certification period is not only more family 
friendly (enabling parents to stay at work rather than leave for 
appointments to re-determine their eligibility on a quarterly or semi-
annual basis), but also ensures that young, at-risk (due to their 
family income) children can remain in the same childcare program for at 
least a year before their care could be interrupted due to a change in 
family status. Such continuity of care will positively impact their 
social emotional development and enable families to avoid having to 
search for new and perhaps, less reliable, childcare placements.
    A 12-month certification period would provide greater stability for 
both low-
income families and children and families in poverty. Head Start (which 
has lower income eligibility thresholds than childcare subsidy) already 
utilizes a 12-month certification period.
    With regard to homeless families who encounter many transitions, a 
12-month certification period would support children who desperately 
need stability and continuity of care as their families work to restore 
their lives. Childcare can and does provide a caring and nurturing 
refuge that helps to offset the crisis caused to their families by 
virtue of homelessness. For any family living in poverty, access to 
quality care that is for a more stable amount of time can help make a 
difference in a child's sense of security and healthy development.

    Question 4. Can you elaborate on the role of Child Care Resource 
and Referral programs in improving the quality of childcare available, 
especially to low-income and homeless families?
    Answer 4. The CCR&R system is a network that spans local, State and 
national levels and fills a unique systemic niche. At the local level, 
a childcare resource and referral agency is a community-based 
organization whose purpose is to deliver coordinated direct services 
that: facilitate access to early care and education and school-age 
childcare options to families, improve the quality of those options 
through a variety of services to providers, employers and communities, 
and provide objective information for planning and policy development 
to public and private sectors.
    Across the Nation, there are more than 600 childcare resource and 
referral agencies in 48 States and the District of Columbia that 
provide an array of supports designed to improve the system of early 
care and education and school-age childcare in the communities they 
serve. Childcare resource and referral (CCR&R) agencies are the primary 
organization in a community that works with and relates to all parts of 
the early care and education and school-age childcare delivery system--
families, early care and education and school-age childcare 
professionals, schools, business, government, advocates and 
policymakers.
    Childcare resource and referral agencies deliver an interrelated 
set of ``core'' services to families, childcare providers, and 
communities. The data and insights derived from the delivery of these 
connected core services together inform and strengthen a complex and 
often fractured early care and education and school-age childcare 
system.
    1. CCR&Rs help parents find childcare.--Choosing childcare is one 
of the most important decisions families make, but all too often they 
must rely on word-of-mouth. Local CCR&R organizations help parents take 
the guesswork out of choosing care--giving them referrals to local 
childcare providers, information on State licensing requirements, 
availability of childcare subsidies, and information about child 
development, SCHIP, WIC, the Earned Income Tax Credit, and a wide array 
of parenting resources. CCR&Rs also support families who choose 
relatives and neighbors to care for their children while the parents 
work. CCR&Rs provide guidance by phone, in person, and in other ways, 
such as the Internet, that are tailored to each individual family. 
CCR&Rs put added emphasis on assisting families who have difficulty 
finding care such as those with infants and toddlers, those with 
special needs children, those transitioning off of welfare, and those 
needing care during irregular or non-traditional hours. Because all 
childcare needs are not alike and because all childcare resources are 
unique to each community, ensuring that R&R counselors meet the needs 
of individual families and communities is a priority.
    2. CCR&Rs support families to raise healthy children.--By talking 
with parents, CCR&R childcare specialists gain a unique understanding 
of the delicate balance of family life, particularly for low-income 
families. They understand the myriad of challenges that young families 
face and help them to understand that finding high-quality childcare is 
an important first step to raising happy, healthy children. Through 
one-on-one consultation, parent/family workshops, hot lines, Web sites, 
walk-in counseling and referral sites, mobile applications, 
newsletters, public awareness campaigns and more, CCR&Rs reach out to 
parents with trusted, local information that enables them to make 
informed choices.
    3. CCR&Rs build the supply of childcare.--In many communities, 
demand for childcare far outstrips supply. CCR&Rs provide an entry 
point to the childcare field, helping providers meet and exceed 
licensing requirements. CCR&Rs also support providers by offering low-
cost or free training in diverse topics like health & safety, child 
development, licensing requirements, child nutrition, sound business 
practices and more. CCR&Rs work with local and State governments and 
the private sector to leverage resources for building and maintaining 
the supply of quality childcare.
    4. CCR&Rs improve the quality of childcare.--No one has a greater 
impact on the quality of care than the people who work with children 
every day. That is why CCR&Rs across the country provide ongoing 
professional development opportunities to childcare providers and 
staff. By supporting accreditation and quality improvement programs, 
helping create financial incentives for education, partnering with 
higher education, and advocating for better compensation for providers, 
CCR&Rs help improve the quality of care for all children.
    5. CCR&Rs bridge childcare and education.--High-quality childcare 
has many benefits, including preparing children for school. CCR&Rs 
strive to create childcare settings that help children grow and learn. 
Educating parents about early learning and the components of quality 
care is also a major part of CCR&R services. Partnering with schools to 
support early learning programs and children's transition from early 
care and education into kindergarten is also part of what CCR&Rs do to 
support young children. CCR&Rs are dedicated to informing communities 
about the important links between early learning and later success in 
school.
    6. CCR&Rs document childcare needs and trends.--What makes CCR&Rs 
unique is their ability to gather information to better understand 
family needs. CCR&Rs are the major source of information about the 
local supply, cost and features of childcare. CCR&Rs are also able to 
track trends about the changing needs of families and to analyze the 
strengths, weaknesses and gaps in early care and education and school-
age childcare and routinely publish/disseminate this information to 
help local and State public policymakers, employers, funders and others 
make good decisions about systemic and strategic investment.
    7. CCR&Rs engage new partners.--High-quality childcare does more 
than benefit children; it can create positive results for entire 
families and for communities as a whole. By reaching out to business 
leaders, law enforcement, school teachers, and others, CCR&Rs help make 
childcare an issue the entire community cares about. CCR&Rs collaborate 
with other family support services to promote a holistic vision of 
childcare that includes health, literacy, and special needs.
    8. CCR&Rs tell the childcare story.--By providing resources, 
documenting community needs, and creating new ways to meet those needs, 
CCR&Rs bring the voices of children, families, and childcare providers 
to the public in order to galvanize support for addressing the needs of 
families, employers, childcare providers and others concerned about 
childcare issues.
    In the broadest sense, the field of community-based childcare 
resource and referral (CCR&R) defines its mission as ``doing whatever 
it takes to make early care and education and school-age childcare work 
for families and communities'' from within the community served. The 
specific services that each CCR&R offers as it pursues this mission are 
determined by community needs and by the kinds of structures and 
activities that local leaders and planners envision and develop.
    Core CCR&R services include:
Consumer Education and Referral
    CCR&Rs provide free standard, consumer education referrals to all 
parents utilizing a provider database which contains comprehensive data 
gathered from area early care and education and school-age childcare 
programs. Standard referrals include lists of approximately 10-15 
providers who meet the stated needs and preferences of the family, such 
as the age of the child, the star level of the program desired, 
location, hours, cost and desired program features. In addition to 
early care and education and school-age childcare referrals, CCR&Rs 
often provide families with referrals to a wide array of supportive 
community services. Referrals are accessible in person, over the 
telephone, and increasingly have become available through CCR&R agency 
Web sites. Referral services are typically staffed by degreed early 
childhood professionals. CCR&Rs are expected to reach 20 percent of all 
families receiving referrals to conduct followup evaluative interviews 
that document the type of care found, levels of satisfaction with 
services provided and help identify market strengths and needs.
    In North Carolina, CCR&Rs play a key role in educating parents 
about the star-rated childcare licensing system and its components, as 
well as encouraging parents to select higher star-rated facilities.
Professional Development
    CCR&Rs typically conduct annual training surveys to determine the 
training needs of early care and education and school-age childcare 
professionals. Based on survey findings and knowledge of the field's 
needs, CCR&Rs typically offer a calendar of training opportunities that 
are available at low or no cost to participants that address the topics 
approved by the State's childcare licensing department. Training 
participants receive licensing credit toward the fulfillment of annual 
licensing requirements and/or continuing education credit through a 
community college system or an IACET (International Association of 
Continuing Education and Training) approved training organization. 
Training delivered through CCR&Rs can be seated, at community sites, at 
individual ECE/SACC programs, at community colleges or delivered via 
the Internet or other distance learning or hybrid learning 
methodologies.
    In addition, CCR&Rs work to promote the higher education and 
compensation of the early care and education and school-age childcare 
field by partnering with community colleges, TEACH and other 
scholarship and wage enhancement programs, and by creating career 
lattice/professional development plans for the communities served. 
CCR&Rs author a variety of publications and newsletters to keep the 
field abreast of new issues and training opportunities. Finally, CCR&Rs 
partner with professional associations to support their ability to 
serve early childhood and school-age childcare programs and 
practitioners.
    In North Carolina, CCR&Rs are relied upon to deliver Division of 
Child Development and Early Education-approved training that enables 
programs to meet and exceed licensing requirements. In addition, CCR&Rs 
are involved in supporting practitioner advancement in higher education 
which research studies demonstrate leads to improved childcare program 
quality.
    In addition, many CCR&Rs offer parenting, child/development, and 
work/life balance training to employees at their worksite. Another 
example of CCR&R training is college-credit bearing coursework 
delivered by CCR&R trainers that have been approved as adjunct 
instructors of local community colleges. In this instance, 
practitioners are able to access community college credit-bearing 
coursework at the CCR&R and this training is often paired with 
technical assistance that supports the participant's application of 
theory acquired to practice within the classroom.
    CCR&Rs are increasingly involved in accessing, arranging for and/or 
delivering training on specific curricula to help childcare programs 
identify and implement curricular strategies to improve the quality of 
care delivered to children.
Technical Assistance
    CCR&R technical assistance (TA) services include the provision of 
assistance with the startup of childcare programs, support to programs 
that have self-identified a technical assistance need, mandatory 
targeted assistance to a program as a result of a licensing violation 
or abuse and neglect substantiation, and/or responding to a program's 
or individual teacher's request for information to improve the quality 
of care delivered. Typically, such technical assistance is delivered at 
no or low cost to the provider/program and does not require intensive, 
repeated quality improvement services of an extended time period. 
Examples of episodic, short-term TA services include responding to a 
call from a provider about discipline, accommodating a child with 
special needs, biting, parent/provider relations, explaining specific 
requirements of a higher star-rated license, or addressing problems 
with a specific classroom.
    Enhanced TA services typically involve more intensive work such as 
providing in-depth services to support the startup of a childcare 
program or working with a program on the development and execution of a 
quality improvement or maintenance plan to achieve and sustain higher 
quality. Another example of an enhanced technical assistance project is 
CCR&R sponsorship of a Family Child Care Network across a community, 
county or region. Such work is labor-intensive and usually requires a 
specific ``enhanced'' funding source in order for it to be available 
within a community. Smart Start is a primary funder of such more-
intensive TA quality improvement/maintenance initiatives in North 
Carolina and CCR&Rs' success in delivering such services has 
significantly improved the quality of early care and education programs 
in the regions served.
    Other examples of enhanced technical assistance services include 
conducting a market-needs assessment analysis to determine the need for 
a childcare facility in a proposed setting, consulting on the design of 
a childcare facility, developing a request for proposals for an 
operator of a childcare program, assisting a sponsor with the selection 
of an operator, developing a marketing plan for a new childcare 
program, assisting in the ordering of materials and equipment for a new 
facility and/or consulting with the facility to develop staff and 
parent handbooks, etc.
    North Carolina's CCR&Rs are also contracted to provide a cadre of 
trained school-age childcare, infant toddler, and behavior specialists 
to provide training and consultation services to ECE/SACC programs 
across the State. Childcare health consultants are also, at times, 
housed within CCR&Rs, as are inclusion specialists.
Data Collection, Analysis, Reporting & Community Education
    Through the provision of core services, CCR&Rs gather a great deal 
of information about the unique characteristics, strengths and needs of 
families, children, early care and education and school-age childcare 
programs and practitioners, and communities served. CCR&Rs mine this 
data for its planning and policy relevance and use it to inform 
strategies to address community, regional and Statewide needs. CCR&Rs 
also report such data to public and private sector stakeholders to 
leverage interest in and attention to the needs of young children and 
those who care for them.
Child Care Subsidy Administration
    More than 40 percent of CCR&Rs across the Nation are involved in 
some form of childcare subsidy administration as an enhancement of 
CCR&R core services. In North Carolina, several CCR&Rs assume this role 
in managing the county and local Smart Start, United Way, and/or other 
publicly or privately funded childcare subsidy programs. CCR&R 
management of such services de-stigmatizes access to childcare 
financial assistance for families and enables families to receive 
counseling and referral services from child development experts. 
Childcare subsidy services managed by CCR&Rs emphasize the importance 
of higher quality childcare, resulting in parents' increased tendency 
to enroll their children in higher star-rated facilities that better 
prepare them for school.

    Question 5. How have Child Care Resource and Referral agencies 
informed public policy and connected community efforts in eliminating 
both the ``preparation gap'' for children birth to age five and the 
``opportunity gap'' for all children to succeed in school and life?
    Answer 5. Child Care resource and referral agencies work 
individually to inform public policy at the local and regional level 
and collectively, at the State level (through each State's childcare 
resource and referral network) and at the national level through the 
National Association of Child Care Resource & Referral Agencies (now 
doing business as Child Care Aware of America) to inform public 
policy. CCR&Rs work daily to improve the quality of childcare in 
communities and to promote the healthy development and school readiness 
of young children.
    CCR&Rs work with parents to better understand the questions to ask 
providers, what to look for in a quality setting, and the options 
available in a community. CCR&Rs work with childcare providers to 
strengthen the quality of care that is offered. CCR&Rs partner with the 
State and other organizations within the State to strengthen the 
quality of care within communities to meet the needs of parents who 
must balance work and family. Many CCR&Rs work with or are on State 
early care and education councils to promote quality early care and 
education that meets the needs of families.
    CCR&Rs collect real-time data on the demand and supply of childcare 
within communities. Many of these agencies use this data to draft 
reports to their State and to the public about childcare use, demand, 
and condition to better inform public policy to promote the 
availability of affordable, quality childcare. With the data from 
CCR&Rs, NACCRRA has released six studies about State licensing and 
oversight, seven annual price reports--the cost of care for infants, 
preschoolers, and school-age children in centers and family childcare 
homes, an annual State-by-State childcare fact book, as well as other 
research reports that emanate from CCR&R data that serve to promote 
better quality childcare for all children, particularly low-income 
children who can most benefit from a quality setting.

    Question 6. In your testimony you mentioned tiered-subsidy 
reimbursement. How does tiered-subsidy reimbursement operate and how 
does it affect childcare quality?
    Answer 6. North Carolina was one of the first States in the Nation 
to establish a tiered quality-rating improvement system and since 
inception it has been embedded in childcare licensing. All programs 
that are 75 percent compliant with childcare licensure have a star 
rating of at least one star. Programs may earn up to five stars based 
on the quality of the program and the educational attainment of program 
staff. If a program meets minimum licensing standards, it is awarded a 
one-star license. In order to achieve a higher star-rated license, a 
program must exceed floor licensing quality standards (as reflected 
through objective measurement of classroom/program quality utilizing 
environment rating scales) and its teaching staff must engage in and 
achieve higher levels of advanced (college) education.
    North Carolina's tiered reimbursement system differentiates 
childcare subsidy reimbursement rates paid to childcare programs based 
on the type of program (e.g., childcare center or family childcare 
home), the age of child, the county where the childcare program is 
located, and the program's star level. The reimbursement rate for 
childcare subsidy (which is based on market rate survey data) is also 
progressively differentiated based on the specific star level achieved 
by the program.
    Quality childcare is more costly to deliver than childcare that 
meets the State's minimum licensing standards. Accordingly, 
reimbursement rates are set to recognize the differential cost of 
delivering higher quality childcare. The combined strategies of a 
tiered quality-rating improvement system and a tiered childcare-subsidy 
reimbursement system have worked to greatly advance and improve the 
quality of North Carolina's childcare system. Today, 64 percent of all 
children enrolled in licensed NC childcare programs are in higher 
quality (4- and 5-star) childcare programs and 66 percent of low-income 
children whose care was paid for using Federal funds are enrolled in 
higher quality (4- and 5-star) programs.
    As I mentioned in my testimony, NC's General Assembly passed 
legislation in fiscal year 2011 that prohibits the payment of childcare 
subsidy for services delivered in one- and two-star childcare program 
settings. Despite a challenging economic environment, this State has 
decided to invest in the provision of higher quality childcare for low-
income children.
                            senator sanders
    Question 1. Current law provides for the possibility of 
automatically enrolling children in public health care (SCHIP or 
Medicaid) when they are found eligible for a childcare subsidy, but no 
States have adopted this option. They could be required to do so. 
Meanwhile, we know that many kids arrive at kindergarten with 
undiagnosed learning disabilities and developmental delays. Childcare 
providers could be required to screen children entering their care for 
disabilities that would make them eligible for additional services. Can 
you comment on either or both of these proposals?
    Answer 1. I believe that requiring the developmental screening of 
children enrolled in childcare would be beneficial for all children 
enrolled (and is currently the Federal requirement for Head Start 
children), but such a requirement must be accompanied by funding to 
ensure that:

    1. There is sufficient initial and ongoing training in basic child 
development required of and available to the early childhood workforce;
    2. Childcare programs have access to age-appropriate developmental 
screening instruments;
    3. Childcare practitioners are able to access initial and ongoing 
training to properly utilize such tools and learn how to appropriately 
convey screening results to parents; and
    4. Resources are available to appropriately refer children and 
families to community resources for needed services.

    One such screening tool that is utilized in North Carolina through 
a variety of initiatives is the ASQ--the Ages and Stages 
Questionnaire. The tool is a developmental and social-emotional 
screening instrument for children from 1 month to 5\1/2\ years of age. 
According to its authors, it is ``highly reliable and valid, and looks 
at children's strengths and trouble spots, educates parents about 
developmental milestones, and incorporates parents' expert knowledge 
about their children.'' One reason why ASQ works is that it begins with 
a parent questionnaire. Based on a parent's responses, a trained 
practitioner can identify a child's developmental need that may benefit 
from additional screening and make appropriate referrals for the child.
    In North Carolina, this tool is being used in pediatrician's 
offices and in several initiatives that focus on identifying children 
with challenging behaviors or developmental delays. Clearly, funding 
would be needed to scale the use of such a tool across the Nation's 
early care and education system, but the return on investment would be 
significant in terms of earlier identification of children with 
developmental delays and/or undiagnosed learning disabilities.

    Question 2. Rural areas pose particular challenges for childcare 
providers, including transportation across potentially large distances, 
whether from home to childcare, from childcare to Head Start, and so 
on. In addition, both rural and high poverty areas may face a shortage 
of qualified care providers. Are you aware of any strategies to improve 
the supply and quality of care in rural and high poverty areas?
    Answer 2. Improving the supply and quality of care in rural and 
high poverty areas is difficult and complicated human service work. As 
parents learn, through childcare resource and referral and other 
sources, about the impact of higher quality childcare on children's 
healthy development and school readiness, they want the market to 
provide such care. However, parents are typically in their early 
earning years when their children are in their early learning years--
and have difficulty affording the cost of higher quality childcare. In 
North Carolina, the average cost of care for one infant in a childcare 
center was $9,185 last year. For middle income, high poverty and rural 
families, this is difficult to afford. In high poverty urban and rural 
communities alike, childcare providers are more likely to set their 
fees based on what they determine parents can pay for care, not what it 
actually costs the provider to deliver the care.
    Childcare subsidy reimbursement through the Child Care and 
Development Block Grant (CCDBG) is not determined by the cost of 
quality. Rather, reimbursement rates are tied to what parents can 
afford to pay (the CCDBG required bi-
annual market rate study recommends that States set reimbursement rates 
so that parents have choices among 75 percent of the providers in the 
community). Therefore, the per capita income of the community is the 
driver of the market rate, not the true cost of quality care. Thus, 
poor communities (whether urban or rural) are more likely to have a 
depressed market rate, which in turn, makes it difficult to achieve and 
sustain quality. Some States do not use the market rate survey in 
setting subsidy rates. There is a requirement to do one, but not to use 
it. Due to inadequate funding levels, many States use an out-dated 
market rate survey, some by as much as 10 years.
    An alternate strategy could be employed to determine CCDBG 
authorized reimbursement rates that would be differentiated based on 
the actual cost of distinct quality levels, not what parents can afford 
to pay. The current system relies on an undercompensated workforce and 
program operators, and a patchwork of fledgling supportive programs 
that must constantly look for funding to sustain the availability of 
quality improvement and/or maintenance services needed by childcare 
programs. While North Carolina has prioritized public policy and 
investment in young children's school readiness, this commitment is not 
matched in most States and Federal action is required in order to 
ensure the economic productivity of families with young children and 
the healthy development and school readiness of children.
    North Carolina has worked, utilizing both State, Federal and local 
public and private sector funds, to improve the quality and 
availability of childcare across the State, including high poverty and 
rural areas. These areas have special challenges--such as access to 
recruiting, hiring, and maintaining a trained and educated staff. 
Programs like the T.E.A.C.H. Early Childhood scholarship programs and 
the WAGE$ salary supplement program play a critical role in advancing 
the qualifications of the early childhood workforce. Additionally, 
childcare resource and referral agencies training and technical 
assistance services are also made available across the State, including 
rural and high poverty areas, to strengthen and stabilize childcare 
quality.
    The childcare community must unite to urge the development of 
public will and policy to support further development of childcare 
resources for both rural and high poverty areas. Attention should be 
paid to developing and engaging cross-sector early care and education 
leadership. Years ago, there was a multi-year leadership training 
effort in NC that resulted in the development of nearly 200 early 
childhood leaders (many of whom went on to assume key roles in local 
CCR&Rs and Smart Start partnership organizations).
    North Carolina early childhood advocates have always tried to 
establish public policy and programs that provide equal access for its 
high poverty and rural communities. These communities must also have 
local leaders who value quality early childhood education and have the 
knowledge and skills to move public will. Furthermore, these leaders 
must do their ``homework'' to have specific program strategies at hand, 
which are research-based or evidence-informed, that can produce lasting 
systemic gains and have the influence, funding and capacity to 
implement such strategies.

    Question 3. One way we can truly improve our childcare in America 
and in Vermont is to treat childcare providers as the true 
professionals they are. Too often, childcare providers are paid too low 
and with poor benefits, factors that discourage talented professionals 
from entering the profession. We must pay our childcare workers like 
any teacher, give them great benefits, and assist them with paying off 
student loan debt. Unfortunately, investing the amount of resources 
necessary to make this happen is not possible in the current budget 
climate. What can we do today to improve the childcare workforce 
without having a significant negative impact on access to care? Do you 
agree that we should require a minimum level of training which includes 
principles of early learning and child development?
    Answer 3. Yes, I agree. The quality of childcare cannot be 
strengthened without addressing the quality of the workforce. Training 
and education are key to advancing the quality of our Nation's 
childcare system. All paid childcare providers who care for unrelated 
children on a regular basis should be required to complete a specific 
number of hours of initial competency-based training and engage in a 
specific number of hours of in-service training annually. The childcare 
resource and referral field is advocating for 40 hours of initial 
training and 24 hours of ongoing training on an annual basis:

    <bullet> Topics should include: CPR, child guidance/behavior, child 
abuse prevention, detection, and reporting, child development, learning 
activities, and business practices and licensing requirements (for 
directors and family childcare home providers);
    <bullet> Training should be intentional, sequential, and evidence/
research-based and lead to effective practice: Training should enrich 
and extend understanding of child development and the delivery of 
quality early care and education and should focus on strengthening 
practitioner knowledge and skills;
    <bullet> Training should utilize traditional and new delivery 
methodologies: States should be encouraged to ensure that there are 
multiple modes of access to training, including both seated and 
electronic/on-line course/class work, to increase access to training 
opportunities particularly in more remote areas;
    <bullet> Professional Development should lead to identified 
milestones of educational attainment: States should develop programs 
that help the workforce progress toward a Child Development Associate 
credential, certificate programs in areas of specialization (e.g., 
infant/toddler, school-age, administration), Associate and Bachelor 
degrees, and that enable the workforce to achieve early educator 
certification which recognize the educational attainment of the 
individual worker; and
    <bullet> Scholarship and Compensatory Initiatives: Invest in the 
expansion of programs like T.E.A.C.H and WAGE$ (referenced above) which 
help make engagement in higher education affordable for the workforce, 
increase the return on investment for higher education, provide 
incentives to remain in the workforce after engaging in higher 
education, and enhance the continuity of care that children in 
childcare receive.

    Quite simply, the advances needed cannot be fully achieved without 
significant increases in the Child Care and Development Block Grant. 
Yet, steps can and should be taken to ensure that whatever the level of 
Federal investment is in childcare, funding is spent on strategies and 
services that well serve (rather than just serve) young children and 
their families. To do otherwise would be to ignore the ever-
increasing volume of brain development, school reform, and economic 
research which conclude that public investment in the education of 
young children produces unparalleled returns--in the short and long 
term--for our Nation.
                             senator casey
    Question 1. In your testimony, you talked about North Carolina's 
consumer education and referral efforts, making information about 
quality childcare readily available to parents. Can you provide more 
detail about how you have effectively done so in North Carolina? What 
have you found to work well? Are there specific examples you can point 
to of how this consumer information is being effectively transmitted to 
parents in North Carolina?
    Answer 1. In North Carolina, childcare resource and referral 
(CCR&R) activities, including consumer education and referral, are led 
and managed at the State level by the North Carolina Child Care 
Resource and Referral Council (which functions as a State network) 
under contract to the North Carolina Division of Child Development & 
Early Education with funding primarily provided by CCDBG. Our State's 
CCR&R system is organized into 14 regions, each of which is led by a 
regional lead CCR&R agency. In most regions, there are also local CCR&R 
agencies that work under contract to the regional lead agency to help 
ensure access to core CCR&R services (e.g., consumer education and 
referral, training, technical assistance, and public education) across 
the communities served.
    To ensure the consistent quality of consumer education and referral 
(CER) service delivery statewide, all CCR&R agencies delivering CER 
services:

    <bullet> agree to meet annually determined service delivery 
utilization expectations that are tied to key demographic variables 
(e.g., size of child population by age and number of households with 
children under the age of 12 in which all adults present are employed);
    <bullet> utilize NACCRRAware, a software tool offered by NACCRRA 
(now doing business as Child Care Aware of America) that tracks 
referrals by numerous fields of information including age of the child, 
type of care preferred, regulatory status, desired program quality 
level (including education levels of staff and program engagement in 
quality improvement technical assistance), et cetera;
    <bullet> fulfill requests for assistance via the phone, Internet 
and face-to-face;
    <bullet> are guided in their work by a State-specific manual that 
defines CER service delivery expectations (including what must be 
addressed within a referral request) and protocols for case 
fulfillment;
    <bullet> are required to collect commonly defined data sets about 
early care and education and school-age childcare (ECE/SACC) program 
features and consumer needs;
    <bullet> receive consistent training from and are monitored by NC's 
statewide CER specialist; and
    <bullet> obtain evaluation of services provided from at least 20 
percent of the consumers who access CER phone/face-to-face service.

    North Carolina has 100 counties. CCR&R regions are comprised of 
anywhere from three to 13 counties (regions with a smaller number of 
counties tend to be more urban than other regions) and there are 68 
CCR&R agencies across the State. Until this past year, nearly all of 
these agencies were engaged in the delivery of consumer education and 
referral (CER) services. To further enhance cost and quality 
efficiencies, beginning in State fiscal year (SFY) 2013, NC's 14 
regional lead CCR&R agencies are serving as the hub for the fulfillment 
of CER requests for assistance within their regions (exceptions to this 
practice have been granted in four NC counties based on extenuating 
circumstances; as a result, 18 vs. 68 CCR&R agencies are now fulfilling 
CER requests for assistance).
    North Carolina's childcare licensing system awards programs one to 
five stars based on progressively higher levels of quality achieved. 
When parents call childcare resource and referral agencies to access 
consumer education and referral services, they: (1) learn about the 
importance of high quality early care and education and (2) how to 
discern quality differences between ECE/SACC programs and they receive 
referrals to ECE/SACC programs that meet their needs, preferences and 
ability to afford. After receiving such information, consumers 
consistently prefer and choose higher quality programs. In State fiscal 
year 2012, 93 percent of parents responding to followup questionnaires 
sent pursuant to receipt of CER services indicated that as a result of 
the information provided, they sought and selected 3-star or higher 
rated childcare programs.

    Question 2. North Carolina appears to have done a good job at 
aligning the different programs that serve young children. What would 
you say are the three most important elements of promoting or 
establishing alignment between programs such as CCDBG, Head Start, and 
State pre-K programs?
    Answer 2. The term ``alignment'' means different things to 
different people. Not all of North Carolina's or other States' 
expectations for early care and education programs are aligned. 
However, NC has been successful in working incrementally toward better 
alignment and the integration of CCDBG-funded programs, Head Start and 
State-funded pre-K. For example:

    <bullet> all early care and education programs funded through 
CCDBG, Head Start and NC Pre-K are required to be regulated;
    <bullet> maximum income eligibility for NC Pre-K and CCDBG-funded 
childcare is set at 75 percent of State median income;
    <bullet> a child's eligibility for NC Pre-K and Head Start is for a 
1-year period; and
    <bullet> while staff education requirements differ across the three 
categories of ECE programs referenced, the early care and education 
workforce is similarly able to access early care and education higher 
education coursework through a robust statewide community and 4-year 
college system and higher education scholarships and incentives/awards 
such as those available in NC through the T.E.A.C.H. Early Childhood 
Project and the Child Care WAGE$ Project.

    Accordingly, it is important to:

    1. Require early care and education settings, regardless of funding 
stream, to be regulated. Regulation establishes at least a minimum 
floor on the quality of early care and education programs. There should 
be common expectations for the health and safety of children enrolled 
in early care and education programs regardless of the program's 
funding stream. There should also be common minimum monitoring of early 
care and education programs regardless of their funding source. 
Moreover, when tiered quality rating and improvement systems are 
embedded in childcare regulation (as is the case in North Carolina), 
regulation also provides a common framework within which to align 
strategic and systemic investment in quality improvement.
    [One cautionary note: the term regulation is defined differently 
among States. For example, in some States, regulation means licensing 
(for example, in North Carolina). In other States, the term regulation 
does not equate to licensing. In South Carolina, small family childcare 
homes are registered (a form of regulation, but below licensing 
standards). In Texas, homes caring for 1-3 children are ``listed.'' The 
list is a form of regulation but is a lower standard than licensing. 
Regulation ``sub-licensing'' is insufficient.]
    2. Incent/require ECE workforce supports so that ECE practitioners 
have access to a continuum of training and higher education that helps 
them to acquire the knowledge and skills they need to better serve 
children and families (regardless of the funding stream that supports 
the program in which one works). Such supports include training that 
counts toward meeting regulatory requirements (including childcare 
resource and referral agency delivered licensing-credit bearing 
training, C.E.U. courses, and higher education accessible at 2- and 4-
year colleges), teacher scholarship programs, and wage incentive 
programs that improve workforce retention.
    3. Align child certification periods (and/or recertification 
requirements) across all early care and education programs (currently 
in North Carolina, children are determined eligible for a 1-year period 
for Head Start and the State's pre-K program, but a child's eligibility 
for CCDBG-funded childcare can be interrupted at any time due to 
changes in the work/training/income of a child's responsible adult and 
re-certification policies and practices at State and local levels--
regardless of whether there has been a change in family income).
        Response by Susana Coro to Questions of Senator Murray 
                          and Senator Sanders
                             senator murray
    Question 1. Having a stable childcare situation could do wonders 
for a homeless family--it would allow parents time to work, and 
hopefully get the family into a home. And childcare could also lessen 
the time a homeless child spends at a shelter, campground, or in a 
car--wherever the family is living. What kinds of specific outreach do 
your programs make to find and serve families who are homeless?
    Answer 1. The childcare center that I work in, the Falls Church-
McLean Children's Center, does not engage in outreach to homeless 
families. Our program receives referrals from the Fairfax County Office 
of Children and we hear from parents who have heard about our program 
from friends, neighbors, and other parents who use the center. We do 
not advertise at this time. We actively work with the Office of 
Children to serve low-income children. We are told by the Office of 
Children that they can only give out a list of childcare programs, that 
they cannot give recommendations or steer parents to our program. They 
have to stay neutral and cannot make referrals to specific programs or 
types of programs. I understand that the government can't seem to favor 
one program over another, but it seems to me that parents aren't 
looking for favoritism. They are looking to find quality care and are 
hoping that the list they get of places that might have openings for 
children are quality places.

    Question 2. How do you identify and serve these homeless families? 
What are some of the unique barriers to serving homeless families?
    Answer 2. My program does not currently serve homeless families. 
The program serves low-income families, but none are currently 
homeless. I can imagine this would be difficult, but we do not have 
that experience yet.

    Question 3. What role does 12-month authorization for childcare 
subsidy play in providing greater stability in childcare for low-income 
families, and for other families in poverty?
    Answer 3. I believe 12-month eligibility for childcare assistance 
would be better for families, less disruptive, and serve to better 
promote continuity for children. In my case, I can tell you that there 
is a lot of paperwork. It's difficult because families may not be able 
to take off from work. I know that the government is concerned about 
fraud--giving assistance for families who don't really qualify. But, 
the process is hard on families. You have to take off from work, not 
for 1 hour--but you have to wait for a long time. There are no 
appointments, first come-first served--sometimes you wait all day. It's 
a lot of work. Also, families need to bring a lot of papers to prove 
eligibility like a birth certificate, income information, work 
information). Everything must be reviewed. You can lose assistance for 
not having all your paperwork. When I had to take off from work to 
requalify, my childcare center had to have someone cover for me. The 
more frequently you have to prove you still qualify, the harder it is 
on your employer because the employer has to find coverage. There needs 
to be a better process.
    At my center, the staff help the parents get the paperwork ready 
for recertification. If the families don't get recertified, the center 
doesn't receive funding. The staff help to make sure everything is in 
order before the parents go to the government to prove they are still 
eligible. Some parents don't read English, some don't write English. 
Staff spend several hours a week helping parents get all the 
information they need together and helping them to fill out forms, 
otherwise, the families lose assistance and the center doesn't get 
paid. Families who can't pay have to leave. In my center, the center 
tries to cover as much as they can, but most centers can't do that. 
They don't have the money.

    Question 4. If you had unreliable childcare, would you feel 
comfortable heading to work in the morning?
    Answer 4. Families need reliable childcare. I can't work when I'm 
worried about my kids. One time I found a lady to take care of my son. 
She had some type of family emergency during the day but she never 
called me. She left my son with a person I did not know, a stranger. It 
just wasn't right. She should have told me. She should have let me know 
what was going on with my son. When I came to pick up my son at the end 
of the day, someone different was caring for him. I didn't know her and 
I was very uncomfortable. I couldn't trust a person who would do that 
and not let me know, so I never brought my son back. I was done with 
that provider. Reliability is very important. Communication is very 
important. Children should not be passed off to a stranger without the 
parent knowing. It's wrong.

    Question 5. When choosing childcare, what are the most important 
factors to you?
    Answer 5. First, the person must be kind. I want to know that they 
will be warm and loving with my son like I would be. I also want to 
know how many adults work with the children. Does the childcare 
provider care for too many kids? Does she have help? If care is 
provided in a center, how many adults are in the room with the kids? I 
want to know that my kids will be safe.
    I want to know that the provider is a professional, that she has 
had some training. I want to know that she knows how to work with kids 
and how to handle situations that come up with kids. I want the 
director and the staff to talk to me kindly, to care about me, and to 
care about my kids. I want them to be honest and trustworthy. I want 
the place to be clean. I know that kids will be playing, but I want the 
place to be organized and clean, safe for children. Then, I know the 
place will be good for my son.
    I think it's important to give parents information because parents 
aren't experts. They don't know what to ask. This is not because 
parents aren't smart, they are. But, parents need help understanding 
what to ask, what to look for. Parents don't need a list of places. 
They need to know which places are good. I know I didn't have a lot of 
time to find childcare, but I tried to look at several places. If I 
knew which places were good places to start with, I would not have 
wasted so much time looking. I needed help, not a list.
                            senator sanders
    Question 1. Current law provides for the possibility of 
automatically enrolling children in public health care (SCHIP or 
Medicaid) when they are found eligible for a childcare subsidy, but no 
States have adopted this option. They could be required to do so. 
Meanwhile, we know that many kids arrive at kindergarten with 
undiagnosed learning disabilities and developmental delays. Childcare 
providers could be required to screen children entering their care for 
disabilities that would make them eligible for additional services. Can 
you comment on either or both of these proposals?
    Answer 1. This is a hard question. The center I work in is 
different from most centers. I think it is a very good idea for 
screening of children for disabilities or delays. Our center is not the 
typical center. We have consultants who work with us. We have a speech 
therapist, an occupational therapist, and a counselor on staff. Centers 
don't generally have funding for consultants, special positions, or to 
train staff for screening. My center does have this funding because the 
board and the director spend a lot of time fundraising.
    Parents have to be partners in the screening process. Parents know 
their children best. At the same time, parents may not know how their 
children are with other children in a center, in a social setting with 
other kids. So, the providers and the parents need to work together. 
Our center is very unusual. Staff have a 2-3 hour training in order to 
conduct the Denver Developmental Screening Test. Staff from the Office 
of Children train our staff on this screening tool. They provide us 
with technical assistance and they do not charge our center. The 
screening enables us to better work with the children and refer some to 
programs like Child Find.

    Question 2. Rural areas pose particular challenges for childcare 
providers, including transportation across potentially large distances, 
whether from home to childcare, from childcare to Head Start, and so 
on. In addition, both rural and high poverty areas may face a shortage 
of qualified care providers. Are you aware of any strategies to improve 
the supply and quality of care in rural and high poverty areas?
    Answer 2. We do not serve rural areas.

    Question 3. One way we can truly improve our childcare in America 
and in Vermont is to treat childcare providers as the true 
professionals they are. Too often, childcare providers are paid too low 
and with poor benefits, factors that discourage talented professionals 
from entering the profession. We must pay our childcare workers like 
any teacher, give them great benefits, and assist them with paying off 
student loan debt. Unfortunately, investing the amount of resources 
necessary to make this happen is not possible in the current budget 
climate. What can we do today to improve the childcare workforce 
without having a significant negative impact on access to care? Do you 
agree that we should require a minimum level of training which includes 
principles of early learning and child development?
    Answer 3. There should be minimum training for staff and for 
directors. Providers need training in both typical child development 
and atypical so that they can recognize and address both. School 
teachers make good money but providers who work with young children, 
who are also teachers, do not. The early years are important for later 
success. We need to make salaries for early childhood a priority. The 
subsidy rates are too low. They fall way below the actual cost of care. 
My center would not be a quality center if it weren't for private 
fundraising. We would not be able to operate on the subsidy levels 
alone.
    My center just hired a new teacher who had been with a for-profit 
childcare center. She has a CDA and is in school to get an AA. She was 
making $11 an hour. My center offered her a higher salary, 16 kids (not 
20) in a classroom, and 3 teachers in each classroom. The for-profit 
she came from paid $11-an-hour and she never knew who her teaching 
assistant would be from day to day because the turnover was so high. We 
pay $180 a month toward health coverage for each employee. But, to make 
this all possible, my center raised $300,000 last year.

    [Whereupon, at 12:04 p.m., the hearing was adjourned.]

                                   

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
